<html>
<title> - OBSCENE MATERIAL AVAILABLE VIA THE INTERNET</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]






 
              OBSCENE MATERIAL AVAILABLE VIA THE INTERNET

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON TELECOMMUNICATIONS,
                     TRADE, AND CONSUMER PROTECTION

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 23, 2000

                               __________

                           Serial No. 106-115

                               __________

            Printed for the use of the Committee on Commerce





                    U.S. GOVERNMENT PRINTING OFFICE
64-763 CC                   WASHINGTON : 2000




                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    TOM SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

   Subcommittee on Telecommunications, Trade, and Consumer Protection

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL G. OXLEY, Ohio,              EDWARD J. MARKEY, Massachusetts
  Vice Chairman                      RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               BART GORDON, Tennessee
PAUL E. GILLMOR, Ohio                BOBBY L. RUSH, Illinois
CHRISTOPHER COX, California          ANNA G. ESHOO, California
NATHAN DEAL, Georgia                 ELIOT L. ENGEL, New York
STEVE LARGENT, Oklahoma              ALBERT R. WYNN, Maryland
BARBARA CUBIN, Wyoming               BILL LUTHER, Minnesota
JAMES E. ROGAN, California           RON KLINK, Pennsylvania
JOHN SHIMKUS, Illinois               TOM SAWYER, Ohio
HEATHER WILSON, New Mexico           GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi                          JOHN D. DINGELL, Michigan,
VITO FOSSELLA, New York                (Ex Officio)
ROY BLUNT, Missouri
ROBERT L. EHRLICH, Jr., Maryland
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Burgin, Joseph W., Jr........................................    31
    Flores, J. Robert, Vice President and Senior Counsel, 
      National Law Center for Children and Families..............    13
    Laaser, Mark R., Executive Director and Cofounder, Christian 
      Alliance for Sexual Recovery...............................     7
    LaRue, Janet M., Senior Director of Legal Studies, Family 
      Research Council...........................................    26
    Gershel, Alan, Deputy Assistant Attorney General, Criminal 
      Division; accompanied by Terry R. Lord, Chief, Child 
      Exploitation and Obscenity Section, Criminal Division, 
      Department of Justice......................................    49
    Stewart, Tracy R., Head of Technology, FamilyClick.com, LLC..    18
Material submitted for the record by:
    Largent, Hon. Stene, a Representative in Congress from the 
      State of Oklahoma, letter dated June 8, 2000, to Hon. W.J. 
      ``Billy'' Tauzin, enclosing material for the record........    77

                                 (iii)

  


              OBSCENE MATERIAL AVAILABLE VIA THE INTERNET

                              ----------                              


                         TUESDAY, MAY 23, 2000

              House of Representatives,    
                         Committee on Commerce,    
                    Subcommittee on Telecommunications,    
                            Trade, and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2123, Rayburn House Office Building, Hon. W.J. ``Billy'' 
Tauzin (chairman) presiding.
    Members present: Representatives Tauzin, Oxley, Stearns, 
Deal, Largent, Shimkus, Pickering, Ehrlich, Bliley (ex 
officio), Luther, and Green.
    Staff present: Linda Bloss-Baum, majority counsel; Mike 
O'Reilly, professional staff; Cliff Riccio, legislative 
assistant; and Andy Levin, minority counsel.
    Mr. Tauzin. The subcommittee will please come to order.
    Today the subcommittee convenes to discuss the perplexing 
subject of obscenity and sexually explicit material available 
on the Internet. I say that it is perplexing because while the 
law governing obscenity has been well established for years, 
many pornographers and others that broadcast sexually explicit 
material today online seem to be immune from prosecution under 
applicable Federal law.
    In fact, an example of the apparent Justice Department 
reluctance in this matter was exhibited just this morning. The 
Attorney General's office at the Department of Justice was here 
today to testify, and they exercised their discretion in 
leaving this committee room and refusing to testify because we 
made a simple request that they sit and listen to the witnesses 
first and comment on their testimony. They claim the Department 
of Justice will not sit and listen to constituents at a 
hearing, and so they have taken upon themselves to leave this 
hearing room and have refused to testify in the order in which 
the Chair has set the testimony.I find this absolutely a great 
example of the arrogance of our current Justice Department.
    Let my say it again: They wouldn't sit and listen to the 
witnesses who want to complain about the fact that the Justice 
Department has refused or somehow been totally negligent in 
enforcing the obscenity laws of this country.
    So we will not hear from the Justice Department this 
morning, but you can rest assured that the Attorney General 
will be hearing from this committee in regards to the 
performance of her witnesses this morning who have, as I said, 
chosen to leave this hearing room rather than testify following 
the testimony of the witnesses who are gathered to discuss this 
important subject with us today.
    Not even the Supreme Court has denied that sexually 
explicit material exists on the Internet. Material extends from 
modestly titillating to the hardest core material you can 
imagine. Disturbing enough, a great deal of this material is in 
fact legally obscene under the so-called 3-point Miller test 
established by the Supreme Court because it appeals to prurient 
interests, is patently offensive and lacks any literary, 
artistic or political value in any community where viewing such 
material is possible. This material therefore is unprotected by 
the first amendment, which means that it can be regulated at 
all levels of government. Not surprisingly, both the Federal 
Government and every State that I know of have implemented 
obscenity laws that restrict the distribution of obscene 
material to varying degrees and ban child pornography 
altogether.
    And with reference Title 18, Sections 1462, 65, 66, 67 and 
1470, the Supreme Court stated in Reno versus ACLU, the very 
case which struck down challenged provisions of the 
communications act, the decency act, the CDA--this is a quote 
from the Supreme Court--``Transmitting obscenity, whether via 
the Internet or other means, is already illegal under Federal 
law for both adults and juveniles.''
    Despite that the main point of the decision in Reno versus 
ACLU was that the challenged provisions of the challenged 
decency act did not pass constitutional muster, the case is 
just as important for the Federal courts' observation of 
existing Federal obscenity law.
    I quote from a U.S. District court's opinion which was 
upheld by the Supreme Court. ``Vigorous enforcement of current 
obscenity and child pornography laws should suffice to address 
the problem the government identified in court and which 
concerned Congress when it enacted the CDA. When the CDA was 
under consideration by Congress, the Justice Department itself 
communicated its view that CDA was not necessary because it, 
Justice, was prosecuting online obscenity, child pornography 
and child solicitation under existing laws and would continue 
to do so.''
    Well, ladies and gentlemen, the point the court is making 
is very simple. Regardless of what happened to CDA, the laws 
already on the books are clear and strong, strong enough to 
control obscenity. Unfortunately, however, one does not get 
that impression when reviewing the DOJ's record of prosecuting 
purveyors of obscene material online under Federal law.
    We are not here today to entertain or consider specific 
legislation. To the contrary, we are here to better understand 
why the Clinton administration refuses to enforce existing 
Federal obscenity laws against purveyors of this absolute filth 
that is accessible to just about every man, woman and child on 
the Internet. Frankly, I think the Justice Department's record 
in prosecuting online obscenity is an embarrassment, and I am 
not surprised that Justice Department witnesses walked out of 
this hearing room today, and I find it appalling that despite 
the sufficiency of our laws, Justice has broken its promise to 
appropriately prosecute.
    Under this administration it cannot be denied that we have 
witnessed the most explosive growth in distribution of 
obscenity to all ages in American history, hardly the result we 
intended when we amended Title 18.
    So today I look forward to getting to the bottom of this 
quagmire. We certainly hoped that the Department of Justice was 
ready to talk to us and answer questions after they had heard 
the presentation of our witnesses. That hope was apparently 
misplaced this morning as the Justice Department has decided to 
walk out of this hearing.
    The Chair will yield to the gentleman from Ohio for an 
opening statement.
    Mr. Sawyer. Thank you, Mr. Chairman. I suspect that there 
is another side to the story in terms of why the Justice 
Department chose not to be here, and I don't take issue with 
anything that you have said, particularly in terms of raising 
questions about what that motivation might be.
    Mr. Tauzin. Would the gentleman yield?
    Mr. Sawyer. I prefer just to continue if I could. I don't 
take issue--I don't question what you are saying, only to 
suggest that there is, I would suspect, another side to the 
story.
    Mr. Tauzin. Would the gentleman yield?
    Mr. Sawyer. I would be happy to.
    Mr. Tauzin. I will extend the gentleman time. I simply want 
to point out, if there is another side we didn't hear it this 
morning. The Justice Department's only objection was that they 
didn't want to sit and listen----
    Mr. Sawyer. Reclaiming my time, I am as frustrated as you 
are that they didn't stay to make that point clear, but I 
suspect that there is another side to that story, and I hope 
that people who are interested will pursue that as I can assure 
you I will and I hope you will do as well, Mr. Chairman.
    My frustration is, as you suggest, that there is strong and 
powerful law with regard to the enforcement of existing 
statutes against pornography and indecency, and the medium 
through which that is transmitted ought not to make a 
substantial difference. It is particularly true at a time when 
we see media merging, where the kind of findings that we are 
seeing through the courts with regard to television will 
increasingly apply to similar kinds of depiction on the 
Internet.
    As we see these media merge, as we have already seen on a 
basic level, we come back to questions that we have reviewed in 
other contexts: Should the Internet be treated any differently? 
Would it be wise to regulate TV in one way and the Internet in 
another? Are current filters really feasible? Are they 
effective? If they are not, what can be done? What Federal 
regulations can be effective if technologies are not available? 
How can we apply the Miller test using contemporary community 
standards when the community that we are talking about, 
particularly with regard to the Internet, is virtually global 
in its scope?
    There are serious questions, Mr. Chairman. I am pleased 
that you have called this hearing. I am frustrated that we will 
not hear from everyone today, but having said that, I would 
hope that there would be an opportunity for an additional 
hearing at which the Department of Justice might have a chance 
to testify.
    Mr. Tauzin. Will the gentleman yield?
    Mr. Sawyer. Yes.
    Mr. Tauzin. Apparently the Department of Justice witnesses 
have just informed the subcommittee that they are now prepared 
to visit with us after the first panel. So apparently we will 
hear from them now.
    Mr. Sawyer. Good. I am as comforted by that as I suspect 
you are.
    Mr. Tauzin. I am very comforted.
    Mr. Sawyer. With that, Mr. Chairman, let me just say that 
this is not only a matter of standards and values, this is a 
question of technical feasibility and a question in this 
digital environment of what we mean by community standards when 
that community is as large as all of humanity.
    Thank you, Mr. Chairman.
    Mr. Tauzin. I thank the gentleman. I point out, however, 
that they have left the room. Apparently they may or may not be 
here when the first panel discusses the issue. I would hope 
that they return, at least sit and hear from citizens of this 
country who are concerned about the matter. But we will see how 
that progresses.
    The Chair is now pleased to welcome the chairman of the 
full committee, the gentleman from Richmond, Virginia, Mr. 
Bliley.
    Chairman Bliley. Thank you, Mr. Chairman, for holding this 
hearing. I would also like to thank our friend Steve Largent 
for his work on the issue of obscene material that is being 
made available via the Internet. He should be commended for his 
due diligence.
    People who make obscene material and child pornography 
available on the Internet should be investigated and prosecuted 
to the fullest extent of the law. Frankly, I do not feel that 
the Justice Department has done enough in this area. The fact 
remains that people are breaking the law every day. Obscene 
material and child pornography have always been against the 
law. Through the Communications Decency Act, we made it illegal 
on the Internet as well, but there needs to be a cop on the 
beat to keep things secure and to protect society from the 
deviants who sell, show or promote this type of material.
    This is the job of the Justice Department, and I do hope 
that they do come back and testify today. I think it is 
shameful that they would not listen to citizens and to hear 
their complaints. We see that too often in Federal agencies 
that they go their own way and they are not interested in 
listening to the people who they are supposed to be looking out 
for, and that is a shame.
    Congress established the COPA commission to come up with 
ideas that help parents protect their kids from indecent 
material on the Web. I look forward to completion of the work 
of the commission. I am hopeful that their recommendations to 
Congress will provide further insight on how to help cut down 
on the exposure to the material we are discussing today.
    I want to thank the witnesses for coming today. It is 
important to help the many folks who have fallen prey to the 
massive amounts of obscene material available over the 
Internet. This whole discussion, Mr. Chairman, sort of reminds 
me back in the early eighties when we were trying to stamp out 
the Dial a Porn, if you remember, and what a time we had. You 
would think that common sense would prevail, but it took us 
about 5 or 6 years before we could get a handle on it. I hope 
it doesn't take that long this time.
    Thank you.
    Mr. Tauzin. I thank the gentleman.
    The Chair is now pleased to welcome the gentleman from 
Oklahoma, Mr. Largent, with the Chair's thanks for his 
extraordinary diligence in pursuing this matter with the 
committee, and Mr. Largent is recognized.
    Mr. Largent. Thank you, Mr. Chairman, for holding this 
hearing. I think it is a very important hearing and I am glad 
that this subcommittee has the opportunity, hopefully will have 
the opportunity to discuss with the Department of Justice their 
efforts to prosecute Internet obscenity.
    Publications for the adult industry have been puzzled over 
how likely it is that the adult entertainment industry will 
enjoy the same, and I quote, ``benevolent neglect'' under the 
next administration that the industry has enjoyed under Janet 
Reno. It is my understanding that there have been no 
prosecutions of Internet obscenity by the Department, and I am 
eager to hear from our Department of Justice witness on this 
issue.
    I am deeply concerned with the type of easily available 
obscene content on the Internet today. By definition, obscenity 
is patently offensive, appeals to the prurient interest in sex 
and has no serious literary, artistic, political or scientific 
value. It is illegal to distribute to any person including 
adults, and yet the level of filth and vile on the Internet is 
inconceivable, with estimates for the number of adult Web sites 
ranging from 40,000 to over 100,000 or more.
    The amount of material on the Net is growing exponentially 
and nobody is quite sure how many sites exist. Such material 
would never be allowed in a bookstore or on television. Do we 
think the social costs and community problems previously 
associated with adult bookstores and hard core strip clubs have 
diminished because it is on the Internet? Certainly not. 
Instead they have become more prevalent, more internalized and 
more destructive.
    The aggressive marketing tactics of the adult industry have 
brought such material directly into the family rooms of 
millions of Americans and also into our schools' libraries and 
into the schools themselves. By such aggressive tactics as spam 
e-mail, page-jacking and mouse-trapping, innocent adults and 
children are lured into a world they did not wish to see and 
from which it is difficult to escape once online.
    Furthermore, the lack of prosecution has given a false 
sense of legitimacy to this industry. Revenues generated by 
pornography exceed the revenues generated by rock and country 
music combined. Adult entertainment sites on the Internet 
account for the third largest sector of sales in cyberspace, 
only behind computer products and travel, with an estimated $1-
$2 billion per year in revenue.
    I would ask the committee to remember the following facts. 
Obscenity is illegal under Federal law. Obscenity has been 
defined by the Supreme Court. Obscenity is not protected by the 
first amendment. It degrades women and diminishes a child's 
ability to conceive of a healthy view of adult relationships. 
It is a destructive force which is polluting the minds of 
adults and children alike. We must aggressively prosecute 
obscenity in order to uphold the law, protect all Americans 
from such illegal material and especially protect our children 
from such material.
    Thank you, Mr. Chairman.
    Mr. Tauzin. I thank the gentleman.
    The Chair will call the panel forward, please. I am sorry; 
Mr. Shimkus has arrived, the gentleman from Illinois.
    Mr. Shimkus. Thank you, Mr. Chairman. I just applaud the 
work of my colleague, Mr. Largent, and look forward to the 
panel discussion. I yield back my time.
    Mr. Tauzin. I thank the gentleman.
    [Additional statement submitted for the record follows:]
   Prepared Statement of Hon. Michael G. Oxley, a Representative in 
                    Congress from the State of Ohio
    Thank you, Mr. Chairman. I believe this is a serious matter, and 
I'm glad the Subcommittee is reviewing it.
    Let me say up front that I believe some agencies, the FBI and the 
Customs Service in particular, are doing excellent and very important 
work in this area. These agencies are staffed by law enforcement 
professionals who take stalking, abduction, and child pornography cases 
very, very seriously.
    I also want to praise the Department of Justice for its vigorous 
defense of the Child Online Protection Act. We are currently awaiting a 
ruling from the Third Circuit, although I must say yesterday's deeply 
disappointing Supreme Court decision regarding unscrambled sexually 
explicit cable programming would not appear to bode well. The issues in 
the two cases are not the same, but I must say that I'm perplexed that 
five Justices would vote to strike those rather modest provisions of 
the Telecom Act.
    What the ruling shows, I think, is that for the time being we-may 
need to rely on existing law to protect American families from the 
corrosive effects of hardcore pornography. Fortunately, existing law is 
rather strong, and as Presidents Reagan and Bush demonstrated, can be 
used to great effect in the fight against hardcore porn.
    Unfortunately, the present administration has utterly abandoned the 
war against obscenity. In this area, there is nothing remotely 
resembling leadership coming from the White House or the Vice 
President's mansion.
    For anyone who doubts this, let's look at some recent facts: In 
1997, U.S. Attorneys prosecuted only 6 obscenity cases. In 1998, there 
were 8 prosecutions. In 1999, as near as I can tell, there were none. 
The level of federal obscenity enforcement dropped more than 80% during 
the first six years of the Clinton administration. Adult Video News, 
apparently the trade publication of the porn industry, actually 
endorsed Bill Clinton for re-election in 1996.
    Also from Adult Video News, in an article entitled ``A Ridiculous 
Amount of New Adult Product,'' comes this tidbit: 5,775 new adult 
releases hit the market in 1995, marking a staggering 80% increase from 
the year before. In 1996, there were 7,800 new hardcore video releases.
    Contrast this with some of the reports during the Reagan and Bush 
years. Here's a quote from a 1986 New York Times article entitled ``X-
Rated Industry in a Slump:'' ``The pornographic industry's plight is 
due partly to legal challenges . . . with a little help from the Reagan 
administration, an unlikely alliance of conservatives and feminists has 
persuaded many retailers to stop carrying adult magazines and videos . 
. . Said Martin Turkel, one of the largest distributors of adult videos 
in the country, `Next year is going to be the roughest year in the 
history of the industry.' ''
    And from Billboard: sales of adult videos at the wholesale level 
dropped from $450 million in 1986 to $386 million in 1987. That's 
compared to $3.9 BILLION in 1996.
    And to sort of sum it up, here's a quote from a Los Angeles Daily 
News article about one year into President Clinton's first term: 
``Before Clinton took office, Los Angeles police were deputized by the 
federal government so they could help prosecutors conduct monthly raids 
on Valley pornographers. Under Clinton, there have been no raids,'' 
said Los Angeles police Lt. Ken Seibert. Seibert said, ``Adult 
obscenity enforcement by the federal government is practically 
nonexistent since the administration changed.''
    Even more than new laws, Mr. Chairman, we need more enforcement of 
existing obscenity statutes. I yield back.

    Mr. Tauzin. Will the witnesses please step forward? They 
include Mr. Mark Laaser, the executive director and cofounder 
of the Christian Alliance for Sexual Recovery; Mr. Robert 
Flores, vice president and senior counsel of the National Law 
Center for Children and Families; Ms. Tracy Stewart, the head 
of technology at FamilyClick.com; Ms. Jan LaRue, senior 
director of legal studies for the Family Research Counsel here 
in Washington, D.C.; Mr. Joseph Burgin of Cincinnati, Ohio. And 
we had Ms. Kathie LeRose on the agenda today, and apparently 
she lost a family member, her father, so we want to keep her in 
our thoughts today. She is not able to attend. Apparently her 
father suffered a heart attack today.
    So we want to welcome our panel, and under the rules 
panelists are reminded that we have a timing system. You should 
look at these devices in front of you. They accord you 5 
minutes to summarize your statements, hit the keep points for 
us.
    Your written statements are already a part of our record. 
By unanimous consent, without objection, all written statements 
of members and panelists are made a part of our record. So 
ordered, and we will ask you, as I call you forward, to 
summarize within 5 minutes so that we can get to Q and A as 
rapidly as we can.
    We will start with Mr. Mark Laaser, the executive director 
and cofounder for the Christian Alliance for Sexual Recovery. 
Mr. Laaser.

STATEMENTS OF MARK R. LAASER, EXECUTIVE DIRECTOR AND COFOUNDER, 
CHRISTIAN ALLIANCE FOR SEXUAL RECOVERY; J. ROBERT FLORES, VICE 
PRESIDENT AND SENIOR COUNSEL, NATIONAL LAW CENTER FOR CHILDREN 
      AND FAMILIES; TRACY R. STEWART, HEAD OF TECHNOLOGY, 
FamilyClick.com, LLC; JANET M. LaRUE, SENIOR DIRECTOR OF LEGAL 
  STUDIES, FAMILY RESEARCH COUNCIL; AND JOSEPH W. BURGIN, JR.

    Mr. Laaser. Thank you, Mr. Chairman, and thank you 
honorable members of this committee. You have my written 
testimony in front of you, and it summarizes some key points as 
I was able to ascertain them from the existing research in the 
field of the damaging effects of obscene material available on 
the Internet. I would direct you to the summary statement and I 
will just briefly go over that at this time.
    Research has shown that 60 percent of all Web site visits 
access sexually related sites containing obscene material. It 
is estimated and one research study has in fact confirmed that 
60 percent of all----
    Mr. Tauzin. Let me explain, those bells are advising 
Members of votes on the House floor. This is going to happen 
during our hearing process. This in effect is saying we have a 
15-minute vote followed by two 5-minute votes which will take 
us away for about a half hour. So we will go on for about 10 
more minutes and then we will recess for about a half hour and 
come back. Mr. Laaser.
    Mr. Laaser. I was just saying that it is estimated that 60 
percent of all male computer time at work is dedicated to 
accessing pornography, and of course, as most of us are aware 
and as you said, the growth of the Internet is exponential. It 
is estimated that by the year 2001, 95 million Americans will 
have online access.
    I should say before I continue that I am here today in my 
role as an expert in the field of Internet pornography, and one 
of the reasons I got into the field was because prior to the 
development of the Internet, I was myself addicted to 
pornography for 25 years of my life. It would be unfair for me 
not to say that I obviously have some biases because I am 
myself a person who was lost in this world, and I thank God 
that the Internet was not available to me, because if it had 
been, I would certainly have been farther down the road than I 
was.
    The major thing that concerns I think all of us is the 
growth of child pornography that is available. As you will see 
in my written testimony, even the United States Department of 
Commerce has recognized that the growth of child pornography is 
a major threat to the welfare of children.
    Pornography that is violent in nature is certainly 
available in a variety of forms. The other day in preparing for 
my testimony, I pulled up a menu that included 25 forms of 
sadomasochistic activity, including bloodletting, so that we 
know that violent pornography exists, and I got into it in less 
than 60 seconds.
    Pornography has the ability, according to all psychological 
theory, to program children early. We are now seeing research 
that is telling us that whereas in my generation of men, the 
average age a person first saw pornography was age 11, now it 
is age 5. A child who has the ability, and we are teaching them 
in school to do this, can get into these sites very easily; 4-, 
5-, 6-, 7-year-olds now are seeing things that in my extensive 
history with pornography I never saw, pornography that is being 
seen as violent, it is degrading, it humiliates people and is 
teaching our children very immature, immoral and damaging roles 
about themselves.
    All psychological theory would certainly confirm that this 
kind of material, even if it is in its softest form, has the 
ability to affect a child's attitude, sexual orientation and 
sexual preferences for the rest of their life.
    Internet pornography also can become very addictive. 
Addiction is progressive and leads to more destructive forms of 
sexual acting out later in life. All of us who work in this 
field have seen tremendous social, legal, vocational, financial 
and physical consequences as a result.
    I would point you to a case study that I put in my written 
testimony of a family that I have been treating. The 8-year-old 
daughter was doing a research project on Cinderella, put in the 
word ``Cinderella'' to a search engine. The Web site that came 
up to her was the picture of a woman who was named Cinderella 
but was using an artificial penis to self-stimulate herself. So 
this 8-year-old girl, who had been doing what the parents 
considered to be healthy research, was immediately exposed to 
very harmful and violent material.
    I would also tell you that our anecdotal experience would 
suggest now that women are being exposed to pornography in 
greater and greater numbers and rates. Women are now becoming 
equally addicted to forms of pornography on the Internet. We 
are seeing an epidemic rise in the number of cases that we are 
treating. The belief is in the psychological community that 
every person has the ability to be hard wired and to be 
programmed into various kinds of sexual preference. I believe 
that we are literally changing the way women view sexuality in 
themselves.
    In the third section of my written testimony I describe 
what I believe is one of the unique problems with the 
availability of the Internet, in that we call it the triple 
engine, and that is, that it is accessible. It used to be that 
when I was addicted to pornography you had to go to some far-
off bookstore. Now today you it can do it in your own home. It 
is affordable. A lot of the Web sites offer loss leaders and 
free material, and it is certainly anonymous, so that many of 
the prohibitions that may have stopped people historically are 
not present.
    But I think No. 2 here in my summation, the thing that 
concerns me the most is the accidental nature that even adults 
or children who are accessing the Internet for healthy purposes 
will be bombarded and barraged. And I would say, Mr. Chairman, 
that all of us in the field would consider that the accidental 
nature of Web sites that can come up, pictures that can come 
up, e-mails that can come up, is a form of sexual assault that 
is not being regulated in this country and I would emphasize 
the word ``sexual assault.'' We would get very upset if we knew 
that any of our children were being sexually assaulted in any 
way.
    That would conclude my summation. I will leave you to read 
any recommendations which may or may not be relevant to this 
committee.
    [The prepared statement of Mark R. Laaser follows:]
Prepared Statement of Mark R. Laaser, Director, Christian Alliance for 
                            Sexual Recovery
    Mr. Chairman and honorable members of the Commerce Committee: It is 
my honor to be able to testify before this committee. The issues of 
pornography and of violence on the Internet are vitally serious ones. 
The damaging effects on millions of lives is profound.
    My background is that I am trained as a Christian minister and a 
doctoral level counselor. I have authored several books in the area of 
sexual addiction, sexual compulsivity, and sexual abuse. Perhaps more 
importantly, I have been in recovery from a sexual addiction to 
pornography and other forms of sexual acting out for thirteen years. My 
own life is an example of how damaging the effects of pornography can 
be. Thankfully, my ``sobriety'' which started in 1987 precedes the 
availability of Internet pornography. My remarks based on the limited 
research that is available in the field and on my work with hundreds of 
men, women, and teenagers who have been effected by Internet 
pornography.
    My remarks can be divided into three areas: 1. The Damaging Effects 
of Internet Pornography; 2. Unique Dangers Presented by the Internet; 
and 3. Suggestions For What Might Be Done.
              the damaging effects of internet pornography
Prevalence
    Various research studies have demonstrated the escalating usage of 
sexually oriented sites on the Internet. In a 1998 study of hundreds of 
on-line users, Dr. Al Cooper found that 15% had accessed one of the top 
five sex web sites. A follow up study in 1999 reported that 31% of on-
line users visited web sites dedicated to pornography. In the most 
recent study, the Sexual Recovery Institute of Los Angeles conducted a 
research survey and found that 25 million Americans visit cyber-sex 
sites every week and that 60% of all web site visits are sexual in 
nature. It is estimated that by next year 95 million Americans will 
have access to the Internet.
    In the most recent issue of the journal Sexual Addiction and 
Compulsivity several authors contend that accessing sexually oriented 
web sites is not confined to the home but is a primary problem at work. 
One study by a leading Fortune 500 company found that 62% of male 
computer time was spent in cyber-sex sites. A friend of mine, who is a 
vice-president of one of our large Twin Cities based companies, 
recently had to fire 20 top level executives because of uncontrolled 
pornography usage on company owned computers.
    It is commonly accepted by all researchers that sexually oriented 
web sites are a tremendous growth industry around the world. Hundreds 
of new ones are added every week. Entering even remotely sexually 
related words into any search engine will result in thousands of 
sexually based web site possibilities.
    In 1986, the Attorney General's Select Commission on Pornography 
sent a report to Congress. This report was unanimous in a number of 
findings: 1. It condemned all sexually explicit material that was 
violent in nature. 2. It condemned all sexually explicit material that 
depicted women in positions that are humiliating, demeaning, and 
subjugating. 3. It was opposed to child pornography in any form.
    There is no debate that violent pornography proliferates on the 
Internet. In preparing for this testimony, for example, I pulled up a 
cyber-sex web site menu through my AOL search engine that contained 
listings for 25 different forms of S&M including blood letting. The 
forms of violent sexual deviance that can graphically be displayed are 
almost beyond description. Sadly, I am also aware through several of my 
clients that depiction of mutilization and death, so called ``snuff'' 
material is available.
    Since the Attorney General's commission report, it is my opinion 
that all forms of pornography are degrading to whomever is being 
portrayed. It is not just women who can be portrayed in humiliating 
fashion. The growing number of females who are visiting sexually 
oriented web sites along with a heavy percentage of male homosexual 
usage has caused an increase in the amount of degrading pornography 
depicting men.
    In the 1970s and 1980s, changes in pornography laws sharply reduced 
the availability of child pornography. The Internet, however, brought 
massive amounts of it back into the world. The U.S. Customs Service 
says on its current web site, ``The presence of child pornography on 
the internet and on BBS services is a disturbing and growing 
phenomenon.''
    While there has been some success in regulating web sites devoted 
to child pornography, most of this kind of pornography is trafficked 
through bulletin board systems (BBS) with ``picture files'' that can be 
hidden in a variety of ways, and with Usenet News groups. These last 
use binary groups, digitized photographs, which can be transformed, in 
a variety of ways. This is not to mention the transmission of e-mails 
with photo attachments. While the most common depictions are of child 
nudity, children in erotic poses, and depictions of children in sexual 
activity, there is an incredible amount of depictions of rape, bondage, 
S&M, and adult-child intercourse.
Various forms of Damage
    Specialists in the field of sexuality can be divided about sexual 
material available on the Internet. Some even suggest that it has 
educational value, decreases some unhealthy inhibitions, and is an 
otherwise unavailable social outlet. Few would disagree, however, that 
certain forms of pornography, as just described above, are universally 
damaging
    Of chief concern should be possible damage to children. There can 
be little doubt for any of us parents that our children are more 
computer literate than we are. Even a five year old might have the 
computer skills to access any form of web site. Some have even 
suggested, as a result, that the average age a child first sees 
pornography has decreased from age 11 to age 5. We can't discount the 
other forms of pornography that are more readily available today than 
when I first say pornography in 1961.
    According to the book Protecting Your Child in Cyberspace by Steve 
Kavanagh, a licensed mental health professional, ``There are many 
studies that suggest that exposure to pornography can make kids act out 
sexually against other children . . . It seems clear that viewing 
deviant sexual behavior on the internet can cause a child to develop 
sexual deviance, which can shape sexual preferences that carry over 
into adulthood.'' In computer terms, a child's brain can be programmed 
neuro-anatomically for various forms of sexual orientation. While the 
brain can't manufacture new brain cells it continually manufactures 
connections between them.
    Dr. John Money of Johns Hopkins University first described the 
theory that the brain is most critically programmed sexually during 
early childhood in his 1986 book Lovemaps. Dr. Money's groundbreaking 
work suggests that most forms of sexual deviance can be traced to 
experiences in childhood. Simply exposing a child to images of deviant 
sexual activity can have a profound effect. My own personal experience, 
and the experience of over a thousands clients would confirm this 
theory. I would emphasize that it is not just hard-core pornography 
that can have this effect. Many psychologists, such as Dr. Judith 
Riesman, argue that even the so-called ``softer'' forms, such as in 
popular magazines, can be just as damaging.
    Theories of sexual addiction and compulsivity are controversial in 
the clinical community. There is no doubt that the majority of on-line 
Internet users don't become addicted to the pornography that can be 
found there. There is also no doubt in my mind that many do. Some 
researchers are even starting to suggest that some who might not 
otherwise have become addicted to sex, are now doing so because of the 
Internet.
    One of the stumbling blocks in the clinical debate about whether 
sex can be an addiction centers on the concept of chemical 
``tolerance.'' Many in the medical community feel that for substance or 
activity to be addictive it must create a chemical tolerance. 
Alcoholics know, for example, that over the lifetime of their 
addiction, they must consume more and more alcohol to achieve the same 
effect. New research, such as by Drs. Harvey Milkman and Stan 
Sunderwirth, has demonstrated that sexual fantasy and activity, because 
of naturally produced brain chemicals, has the ability to create brain 
tolerance to sex.
    I have treated over a thousand male and female sex addicts. Almost 
all of them began with pornography. The number one source of 
pornography currently, and in epidemic proportions, is the Internet. It 
used to be that only men accessed sexually oriented web sites. Sadly, 
we are beginning to see an increase in the number of women who are 
addicted to pornography of all kinds, but mostly on the Internet.
    The consequences of Internet pornography can be catastrophic. All 
of us who work in the field of sexual addiction have seen a marked 
increase in Internet addiction in the last year. Typically, our cases 
present as people who have lost jobs, vocations, and marriages due to 
Internet addiction. In a study of 91 women whose husbands were so 
addicted, for example, Jennifer Schneider, M.D. found that all felt 
hurt, betrayed, and rejected. All of these women felt unfavorably 
compared. 68% reported that their partner had become disinterested in 
sex with them. 22.3% attributed their divorce from these partners as 
due to the Internet.
    As an addiction, Internet pornography can escalate. It may lead to 
other forms of sexual acting out. For some with accompanying personal 
pathologies, it may lead to sexual offenses. The physical and legal 
consequences to the addict and to others are obvious.
    Finally, we should be aware of the dangers of Internet chat rooms 
as a place where sexuality can be problematic. We are aware that sexual 
predators can be present in chat rooms disguised in a variety of ways. 
Pedophiles may even send pornographic pictures to prospective child 
victims as a way of ``softening'' them up to eventual encounters. This 
has been a known form of pedophilic ritual for years. We have all 
warned our children against talking to strangers, but the Internet 
makes healthy decisions in this regard less likely. A number of well-
known cases in which children and teenagers have been recruited for 
eventual sexual activity should warn us of the dangers of chat rooms.
    Adults, also, may get caught up in chat rooms. I have a client 
whose husband gave her a computer for Christmas. She says that she 
doesn't remember the month of January. She became addicted to the 
``romance'' of online chat. Researchers and experts in the field of 
romance addiction, such as Pat Carnes, Ph.D. have clearly describe that 
romance creates neurochemicals such as phenylethylamine (PEA) which 
would explain the addictive reaction of my client. My client's romance 
addiction escalated and she wound up actually meeting four of the men 
in person and developing a sexually transmitted disease as a result. I 
have had a number of clients who would fit this same profile.
    On-line pornography and chat rooms appeal to those who are 
isolated, lonely and bored. When other emotional and neuro-chemical 
vulnerabilities are present addictions can be the result.
The Uniqueness of the Internet
    One of the reasons that the Internet is so dangerous is because of 
its certain uniqueness. Al Cooper, Ph.D. (mentioned above) was the 
first to suggest the concept of the ``Triple A Engine'' of the 
Internet. He says that its uniqueness is that it is Accessible, 
Affordable, and Anonymous.
    When I saw my first pornographic magazine, I had to be a detective 
to find what drug stores kept it in some hidden cabinet. As an adult I 
had to go to many fairly sordid places to find what I was looking for. 
The point is both as an adolescent and as an adult I had to go looking. 
Today, the Internet has made it completely accessible to the youngest 
of users. There are forms of pornography available today that weren't 
available even in the most perverse of locations just five years ago. 
Every year we see a rise in the kinds of material that are easily 
available. Many communities, such as my own in Minneapolis, are facing 
the problem of the easy accessibility of pornography using computers in 
public schools and libraries. We are a free speech society. Recently, 
even the voters of a conservative city like Holland, Michigan rejected 
putting filtering devices on public library computers.
    Internet pornography is affordable. We know that many people who 
may have paid for something originally can transmit it to others for 
free. We also know that many sexually oriented web sites offer free 
pictures as an enticement to log in with a credit card. Such free 
enticements led one of my clients to become addicted to sex on the 
Internet. He eventually spent $85,000 in the month of February. If 
there are people who might otherwise restrict their use of pornography, 
or various more expensive forms of it, because of money, there is 
enough free material available to keep them going. The majority of my 
clients who are addicted to Internet pornography don't pay for it.
    Several psychologists, such as Dr. Mark Schwartz director of the 
Masters and Johnson Institute, have said that the anonymous nature of 
the Internet makes many more people vulnerable to it. He says that some 
who might not become compulsively involved in deviant sexual activities 
because of having to go to ``dangerous'' places and risking exposure, 
are now getting involved in the obscurity and ``safety'' of their 
homes. What this means is that more and more people are becoming more 
and more involved in sexually deviant forms acting out. It used to be 
than ``normal'' people might have an aversion to going to places that 
catered to sexual deviance, such as S&M bars. Now through on-line 
pornography, chat, and exchange, it is much easier to become involved 
in these activities.
    To the triple A engine I would add a forth ``A,'' accidental. Those 
who have sought to protect the free speech rights of pornographers have 
long claimed that it is an individual's free choice to view 
pornography. On the Internet, however, pornography may come looking for 
you. All of us are familiar with the unsolicited e-mails that advertise 
sexually oriented web sites. That is one thing. The greater danger for 
those who otherwise seek to use the World Wide Web for constructive 
purpose is that they will accidentally be exposed to sexually oriented 
cites.
    Recently, for example, parents that I know told me the story of how 
their 8-year-old daughter was researching the fairy tale Cinderella on 
the web. She entered Cinderella in the search engine of her on-line 
service provider. She was given a number of options. One of them 
included the title, ``See Cinderella for Yourself.'' This little girl 
of course wanted to see Cinderella, so she clicked in. She was 
immediately confronted with the picture of a nude female using a 
artificial penis to stimulate herself. I would consider this to be a 
form of sexual assault.
    Robert Freeman-Longo, a well-known sexologist and researcher, 
conducted a recent study using AOL, the largest on-line service 
provider. He entered the words ``parental control'' into the search 
engine. 12.508 sites came up including a wide variety of sexually 
oriented ones. Can there be any doubt that even if you are looking for 
certain types of materials, they may accidentally come to you? Some 
might even question whether or not some of this is accidental. 
Estimates are that 85% of the production of pornography in this country 
is controlled by organized crime. Do we doubt that this faction of our 
culture would be aggressive in ``purveying'' their product?
    As a recovering sex addict, I am personally offended by the 
aggressive and unique nature of Internet pornography. If I were an 
alcoholic, there would be no one bringing free alcoholic beverages to 
my door. Yet, in my work I have a professional need to be on-line 
frequently. I am assaulted daily by sexual opportunities that I have 
not invited into my life or pursued.
What Needs To Be Done
    Briefly, let me suggest some points to think about concerning what 
might be done.
    1. Regulation--As Americans we are generally afraid of censorship, 
as we should be. In that fear, however, we should not avoid the 
questions of when it might be necessary. To be truly free we should 
continually seek to control any form or oppression. It is clear to me, 
and many of my colleagues, that if we don't seek to regulate the cyber-
sex industry, we are allowing a form of sexual abuse to continue 
unchallenged.
    The law enforcement community in this country is capable of 
regulating pornography that is destructive. I would refer this 
committee to the report of Louis J. Freeh, Director of the FBI, to the 
Senate Appropriations Subcommittee for the Departments of Commerce, 
Justice, and State, the Judiciary, and Related Agencies of March 10, 
1998. This report centered on effort to control the proliferation of 
child pornography. When we are in agreement that something is offensive 
and destructive we can devote energies that can bring it under relative 
control. Existing laws could be enforced if we could come to such 
agreement. Does there need to be special commissions to make 
recommendations as to what really are the dangers of Internet 
pornography?
    2. Parent Education and Awareness--We might all agree that parents 
and child caregivers should be our main defense against children 
becoming involved in the dangers of the Internet. I would suggest 
however, that most parents are either ignorant of or apathetic toward 
the dangers of the Internet. Education and awareness similar to that 
provided about drugs, alcohol, and smoking seems appropriate.
    3. Child Education and Awareness--Similarly, we should implement 
programs to educate our youth about Internet dangers similar to those 
that are available for drugs, alcohol and smoking. This might include 
the use of requiring that all sexually oriented web sites print warning 
on them similar to those that we require for tobacco. Remember, that 
this material may be addictive and, as such, even physical consequences 
are likely.
    4. Mandate That Filtering Devices Be Used by Computers in Public 
Places--Given the four ``A's'' described above, we should especially 
protect children using computers in public places from getting 
assaulted by pornography. The same can be said for adults. Many kids 
may be able to ``hack'' around these filters, but that should not stop 
us from protecting those who can't.
    5. Reward Employers Who Provide Filters At the Workplace--We are 
becoming more aware of the lost productivity that Internet pornography 
leads to. This is already having an impact on countless American 
businesses. We should encourage employers to educate employees about 
dangers, provide monitoring and filtering, and provide treatment for 
employees in trouble.
    6. Fund Research About Effective Treatment of Internet Addiction--
We already know that many of the forms of treatment that are effective 
with alcoholics and drug addicts can be applied to those who suffer 
with Internet pornography addiction. Little research exists to date 
about the specific modalities that are beneficial with this population. 
Since this is a growing problem, we need to act now. My belief is that 
we need to be concerned about the supply of pornography on the 
Internet, but that we must be equally concerned about the supply.
    7. Tax Pornographic Web Sites--Monies from the taxation of alcohol 
and tobacco are used for research, treatment, and education. Why could 
this not also be done for pornography? All of my other recommendations 
could be funded by such a tax. We should be willing to enter the debate 
that will inevitably ensue as to what is pornographic. There are enough 
sites that are obviously pornographic to the vast majority of Americans 
to begin with
    I believe that Internet pornography is a great plague on this 
nation. I hope that these observations are helpful to the committee. I 
am willing to answer any questions and to provide members with any 
specific references to research that I have quoted.

    Mr. Tauzin. We will take one more witness before we do a 
half-hour break for these three votes that will be on the 
floor. So we will go now to Mr. Robert Flores, vice president 
and senior counsel of the National Law Center. Mr. Robert 
Flores.

                  STATEMENT OF J. ROBERT FLORES

    Mr. Flores. Mr. Chairman, honorable members of the 
committee, thank you for providing me with an opportunity to 
testify this morning on the important and troubling issue of 
the explosive and uncontrolled growth of obscenity on the 
Internet. In my career as an assistant D.A. In Manhattan, 
acting deputy chief of the Department's Child Exploitation and 
Obscenity Section and as a special law enforcement advisor with 
the National Law Center, and now as a commissioner on the 
congressional COPA commission, I have seen the vicious tactics 
of the pornography industry, the syndicates, and the 
destruction that they hand out, as well as the actions of 
pedophiles, and I am sure of one thing: that law enforcement 
has value, and effective law enforcement will be able to deal 
with a substantial amount of this criminal problem.
    I know that vigorous and fair enforcement of the law can 
solve many of those problems when prosecutors use the laws 
given to them by the Congress.
    In the past 5 years, much has changed about the industry. 
In late 1995, few of the major pornographers had a major 
presence on the Internet. While the amount of material that was 
then available was overwhelming, today it is available in 
quantities and formats which make it a ubiquitous commodity. 
Today, obscenity merchants have become so bold because of the 
lack of action by the Justice Department that they have gone 
public, and I mean public, by being on the NASDAQ, launching 
IPOs on the New York Stock Exchange, and Forbes magazine, as 
well as Forester Research and other publications report that 
pornography to the tune of $1 billion already flows over the 
Internet and it is expected to double or triple within the next 
1 or 2 years alone.
    In addition to the change in the amount today, adult 
pornography sites have moved to feature as a predominant theme 
sexually explicit material which is marketed as depicting teen, 
young, Lolita, virgin and high school girls and boys. The term 
``barely legal'' is all over the Internet. Now, many of these 
terms were once the sole province of child pornographers. Yet 
this jargon and code has become a stable of adult obscenity 
marketers.
    Pornographers are also the most aggressive marketers. They 
have used newly developed push technologies, alongside 
offensive and fraudulent marketing ploys. The Internet user 
community is bombarded with advertisements, tricked into 
visiting sites, given hot links to porn when search engines are 
asked for innocent sites, sent unsolicited porn spam e-mails 
and trapped in endless mousetraps that bounce them from porn 
site to porn site when they try to leave.
    In spite of all of this, the Department of Justice has 
refused to take action, in spite of the fact that the Congress 
has specifically earmarked a million dollars for activity to 
target obscenity online. It is critical that the Congress 
understand and recognize that the refusal of the Justice 
Department to enforce existing obscenity laws is unjustified 
and inexcusable.
    In 3 short years, between 1989 and 1992 approximately, we 
were able to prosecute more than 120 major obscenity 
distributors and we took in more than $21 million in fines and 
forfeitures. The obscenity test works. These prosecutions are 
difficult. They do need expertise but it can be done. And the 
record should be clear that there is no question that the test 
that is going to be applied is the same test that was applied 
in 1989, in 1992, and has been applied by State and local 
prosecutors throughout the United States over the past years.
    As the Supreme Court stated in Reno, transmitting 
obscenity, whether via the Internet or other means, is already 
illegal under Federal law for both adults and juveniles. The 
reach of this criminal prohibition is also the same. Thus we 
can prosecute obscenity where somebody stores it on their 
computer, any District through which it travels on the Internet 
and the District into which it is received.
    In 1996, Chairman Hyde moved to make sure that it was clear 
to everyone, including Federal prosecutors, that Federal laws 
apply and Congress amended sections 1462 and 1465 of Title 18 
to specifically include interactive computer services. Now, we 
weren't powerless before that. The Thomas case, which the 
Justice Department will probably talk about, was prosecuted 
before that amendment under existing law because it is illegal 
to use wire communications, the telephone lines.
    Finally, even the question of foreign transmissions into 
the United States has been answered. Most of the world's hard-
core obscenity comes from America's porn syndicates, and they 
are subject to U.S. Law no matter where they send their 
criminal materials to or from. Hiding their Web servers 
overseas won't save them. We can prosecute American criminals 
in U.S. district courts and seize their assets.
    Contrary to complaints made by some, our law reaches 
overseas. As a practical matter, we can prosecute Web site 
owners who directly profit from the exploitation, the people 
who produce and distribute the movies, even the recruiters and 
procurers of women who run virtual prostitution operations, 
making live images available, and finally those who bankroll 
this industry.
    Our Constitution protects speech, not obscenity, and the 
President and the Justice Department in particular must 
recognize that difference and fulfill their obligations. I 
would ask that the appendices also to my written record be 
included in the record.
    Mr. Tauzin. Without objection so ordered. The Chair thanks 
the gentleman.
    [The prepared statement of J. Robert Flores follows:]
   Prepared Statement of J. Robert Flores, Vice President and Senior 
         Counsel, National Law Center for Children and Families
    Mr. Chairman and Honorable Members of this Committee, thank you for 
providing me with an opportunity to testify this morning on the 
important and troubling issue of the explosive and uncontrolled growth 
of obscenity on the Internet. In my career as an Assistant D.A. in 
Manhattan, acting Deputy Chief of the Department of Justice's Child 
Exploitation and Obscenity Section, as a special law enforcement 
advisor with the National Law Center for Children and Families, and now 
as a Commissioner on the Congressional COPA Commission, I have seen the 
vicious tactics of the pornography syndicates, the destruction handed 
out by pedophiles, and the value in effective law enforcement over the 
years. I believe in the law as an answer to criminal social problems 
and I know that vigorous and fair enforcement of the law can solve many 
of those problems when prosecutors use the laws given them by their 
Legislatures.
    It is obvious that the uncontrolled growth of this criminal 
activity must be effectively addressed, and soon, or Congress will 
continue to be confronted with the need for increased regulation, 
rising levels of sexual abuse and dysfunction in adults and children, 
increased health care costs to treat those dysfunctions and the victims 
of sexual abuse and addiction, the poverty that results from broken 
homes and marriages over sexual abuse and addiction, and even the 
slower growth of Internet use by children and families who are rightly 
afraid of its dark side.
    In the past five years, much has changed in the size and nature of 
the Internet based pornography industry, mostly on the World Wide Web 
and Usenet newsgroups. In late 1995, few of the major pornographers had 
a major presence on the Net. While the amount of material that was then 
available was astounding by anyone's count, today it is available in 
quantities and formats that make it a ubiquitous commodity. Today, 
obscenity merchants have gone public, as in the NASDAQ and other 
capital markets. Forbes reports that ``pornography to the tune of $1 
billion already flows over the Internet.''
    In addition to the change in the amount of material on the 
Internet, a look at what now comprises a sizeable and growing portion 
of hard-core obscenity, should send shivers up the spine of every 
person of good will. Today, adult pornography sites have moved to 
feature, as a predominant theme, sexually explicit material which is 
marketed as depicting ``teen'', ``young'', ``Lolita'', ``virgin'', and 
``high school'' girls and boys. Once the sole province of child 
pornographers, this jargon and code has now become a staple of adult 
obscenity marketers.
    Does this threaten children? You better believe it does. Our kids 
and grand-kids see it and become indoctrinated by it. Pedophiles and 
porn addicts see it and become incited by it. Even the U.S. Supreme 
Court recognized that the mere existence of child pornography images is 
an ongoing danger to children, because of the stimulating effect it has 
on pedophiles and the seductive effect it has on children. See Osborne 
v. Ohio, 495 U.S. 103, at 111 and n. 7 (1990). That's why Congress 
criminalized the possession of child pornography in Title 18, U.S. 
Code, Section 2252, and added computerized child porn in Section 2252A. 
How strange indeed, if alone among all other speech, adult obscenity 
did not also stimulate and encourage people to action.
    The pornography industry has also become among the most aggressive 
marketers on the Internet, using newly developed ``push'' technologies 
alongside offensive and fraudulent marketing ploys. Thus, even if it 
were ever true, and I doubt it, that only those who sought out 
obscenity could find it, today only a lucky few are able to avoid it, 
as the Internet user community is bombarded with advertisements, 
tricked into visiting sites, given hot links to porn when search 
engines are asked for innocent sites, sent unsolicited porn spam e-
mails, and trapped in endless mousetraps that bounce them from porn 
site to porn site when they try and leave.
    In spite of the explosive growth in the distribution of obscenity, 
aggressive marketing efforts which assault and trap unwilling Web 
surfers, and a focus on material which portrays children as a suitable 
sexual interest for adults, the Department of Justice has refused to 
take action.
    It is critical for the Congress to recognize that this refusal of 
the Justice Department to enforce existing obscenity laws is 
unjustified and inexcusable. Members of this Congress and your 
predecessors have provided the tools and means to address this problem, 
but those federal statutes are not being used.
    The record should be clear that there is no question as to what the 
test is that will be applied when prosecutions are brought involving 
Internet distribution or pandering of obscene material. Even in the 
Communications Decency Act and Child Online Protection Act cases, cases 
which are well known to the pornography industry, the Supreme Court and 
federal District Courts, recognized that federal obscenity law, based 
on the Miller test, applies to the Internet. As the Supreme Court 
stated in Reno v. ACLU, 521 U.S. 844, 117 S.Ct. 2329, 2347 n. 44 
(1997): ``Transmitting obscenity and child pornography, whether via the 
Internet or other means, is already illegal under federal law for both 
adults and juveniles.'' While this is not a point to which some may 
want to draw attention, that is the law. Moreover, those courts offered 
enforcement of existing obscenity and child pornography laws as part of 
the solution to the problem of protecting minors from sexually explicit 
material. Moreover, the Department of Justice represented to the courts 
that they would do so, though they have yet to prosecute a single case 
of substance.
    Just as the test for obscenity remains the same, the reach and 
applicability of the criminal prohibitions to Internet distribution and 
pandering of obscenity also remains the same. Thus, someone who sells 
obscenity may be prosecuted in the place where he stores the material 
on his computer, any district through which it passes, and the district 
into which it is received. Under Section 1462, for instance, it is a 
felony to use the phone lines and other communications carriers and 
facilities of interstate and foreign commerce to knowingly upload, 
download, or transmit obscenity.
    In 1996, in order to clarify that federal laws apply to the 
Internet, Congress amended Sections 1462 and 1465 of Title 18 and 
specifically included ``interactive computer services'' among those 
facilities which may not be used to traffic obscenity. Even then, the 
Department was unwilling to move forward to address this criminal 
activity and in four years not a single Internet based obscenity case 
has been brought by main Justice.
    Finally, even the question of foreign transmissions into the United 
States has been answered and there is no serious debate that we cannot 
reach conduct which originates in foreign countries. The frequently 
heard argument that we really can't do anything about Internet 
obscenity because so much of it comes from overseas is specious. Most 
of the world's hard-core obscenity comes from America's porn syndicates 
and they are subject to U.S. law no matter where they send their 
criminal materials from or to. Hiding their Web servers overseas won't 
save them, we can still prosecute American criminals in U.S. District 
Courts and seize their assets and credit card receipts from U.S. banks. 
Moreover, I can't imagine it could be used by the Justice Department to 
justify its lack of effort. For in testimony on March 9, 2000, before 
the Committee on the Judiciary, Deputy Assistant Attorney General Kevin 
Di Gregory, took justifiable pleasure in announcing that the week 
before his testimony, ``a jury in federal district court in New York 
found Jay Cohen, owner of an Internet gambling site in Antigua, guilty 
of violating 18 U.S.C., section 1084, a statute that makes it illegal 
for a betting or wagering business to use a wire communication facility 
to transmit bets or wagers in interstate or foreign commerce.''
    Contrary to the complaints made by some, the courts have 
consistently made clear that federal obscenity law applies in 
cyberspace as it does in real life. Thus, the answer to the question of 
who and what may be prosecuted under federal obscenity law is as well 
known to the ACLU and pornography industry lawyers as it is to 
Government prosecutors. Title 18 sections 1462, 1465, 1466, 1467, and 
1470 apply to Internet distribution and pandering and may be used today 
by prosecutors interested in protecting children and families from this 
scourge.
    As a practical matter, I believe that federal investigators and 
prosecutors can and must bring cases which would make a difference for 
average families and which would be a giant step towards stopping 
sexual exploitation. For example, prosecutions can be brought against 
the Web site owners who most directly profit from this form of human 
exploitation. The producers and distributors of movies, pictures, and 
other obscene material who wholesale them to the Web sites for resale 
can also be pursued under existing law. The recruiters and procurers of 
women who run virtual prostitution operations making live images 
available through the Internet may also be prosecuted for transmitting 
obscenity. And finally, those who bankroll these operations, many of 
whom have historically been organized criminal operations, may also be 
investigated and prosecuted.
    Leaders and businesses in Europe, Asia, Latin America, and our 
other trading partners look to the United States to see what we, the 
major source of obscenity worldwide, will do with this form of 
exploitation. In fact, there is a 1911 Treaty on the Suppression of 
Obscene Publications that would provide an existing framework for 
international cooperation to deal with hard-core obscenity on the 
Internet and World Wide Web.<SUP>1</SUP> That Treaty is still in force 
and now has at least 126 member countries as signatory nations, 
including most of the Americas, Europe, and Asia. We seek to lead in 
every other Internet related area, why not here as well. Can money be 
made by this industry? Of course. In fact, it is one of the few 
guaranteed ways to succeed financially on the Internet. But at what 
cost? It is not free, either to the people who consume the products or 
the society where it runs rampant. We cannot fail to lead simply on the 
assumption that some amount of obscenity comes from overseas. To do 
that would be to turn over our Country and its safety to pornographers 
and sex business operators who are savvy enough to move their servers 
and remote offices overseas. We don't do it in any other area of 
criminal law, why would we start here?
---------------------------------------------------------------------------
    \1\ Agreement for the Suppression of the Circulation of Obscene 
Publications, 37 Stat 1511; Treaties in Force 209 (US Dept State, Oct 
31, 1956).
---------------------------------------------------------------------------
    Our Constitution protects speech, it does not protect obscenity. 
The President and the Justice Department in particular must recognize 
that difference and fulfill their obligation to pursue violations of 
the laws passed by Congress. Mindlessly investigating and prosecuting 
cases, whether child pornography, child stalking, or even obscenity, 
will not make children and adults safe from being assaulted by material 
that is not only offensive but illegal. A comprehensive and coherent 
strategy which addresses each of the major aspects of the obscenity and 
sex business operations is necessary. Whoever is blessed with the 
opportunity to lead in November will bear the responsibility of 
choosing a path down which we will all walk. It is hard to imagine 
leadership on this issue being worse than today, when the pornography 
trade association is able to ask the question in its March 2000 trade 
publication, ``how likely is it, would you say, that we are going to 
enjoy the same benevolent neglect that the industry has enjoyed under 
Janet Reno?'' It is shameful that the American porn industry has come 
to look at law enforcement in that way.
    Thank you for the opportunity to address this Committee, and I 
would be pleased to answer any questions you may have.

    Mr. Tauzin. Let me ask you all now to stand down for a half 
hour. We understand there are 3, possibly 4 votes on the floor. 
We will reconvene in a half hour. So we will come back at 
11:10, and we will reconvene with this panel, complete it, and 
then invite our second panel.
    We thank you very much. The committee stands in recess.
    [Brief recess.]
    Mr. Tauzin. The subcommittee will please come back to 
order. We will ask our witnesses again to take seats. As we 
recessed, we had just heard from Mr. Robert Flores, vice 
president of the National Law Center, and we are now going to 
hear from Tracy Stewart, the head of technology, 
FamilyClick.com. Again, our admonition is to please adhere to 
the 5-minute rule. Ms. Stewart, you are recognized.

                 STATEMENT OF TRACEY R. STEWART

    Ms. Stewart. Good morning, Mr. Chairman and members of the 
subcommittee. My name is Tracy Stewart, head of technology for 
FamilyClick, a nationwide filtered Internet service provider 
and family oriented Web site. The role of our company is to 
provide for families that have freely chosen filtered access to 
a safe Internet experience.
    Filtering used to be easy, but due to the bold and 
aggressive marketing by the porn industry of their product, 
very sophisticated software and hardware is now required to do 
our job. I will quickly discuss several techniques used by the 
porn industry which causes technological challenges for filter 
companies and makes it virtually impossible to guarantee a safe 
online experience. I will provide complete details of the 
techniques in my written testimony.
    Spam. Mail addresses are harvested by bulk e-mail and from 
many places on the Internet: chat rooms, message boards, 
auctionsites such as eBay. Book mailing lists are inexpensive 
for the pornographers to purchase. The goal of the pornographer 
is to send out millions of unsolicited messages containing, for 
example, a sample image and link to a porn site. They know most 
will not generate a positive response, but due to the sheer 
volume of mail sent, they will pick up some customers. A 10-
year-old boy is just as likely to get the unsolicited porn 
message as a 40-year-old man. Over 30 percent of unsolicited e-
mail contains pornographic information.
    Banner ads. Many legitimate Web sites that would not be 
blocked by filters carry banner ads to porn sites. Also, once 
on a porn site, it may contain dozens of ads to other porn 
sites. Porn sites have developed an almost unbroken circle of 
links between each others' sites which maximizes their 
profitability and traffic. Once on a porn site you have access 
to dozens, if not hundreds, of other porn sites.
    Innocent or innocuous or misspelled domain names. These 
porn Web masters have registered many innocent sounding names 
that you would not expect you would need to filter: Boys.com, 
girls.com, coffee bean supply.com, BookstoreUSA.com, and the 
infamous WhiteHouse.com. These all lead to very explicit and 
graphic porn sites. Also legitimate companies which spend 
millions of dollars building brand names, porn Web masters 
commonly register misspelling of these brand names. For 
example, my favorite is Yaawhoo.com, takes you to a porn site.
    Suggestive or graphic exit consoles. Once you stumble into 
a porn site, leaving may not be easy. Normally you would just 
hit the back button on your browser, but many porn sites force 
you to continue to look at what they have to offer by opening 
new windows each time you close a window, and each one has an 
image or invitation to preview or join. Each window you close 
opens up another new window. They are hoping you will find 
something you like while you are trying to exit. Sometimes 
these windows completely lock up your PC and system resources, 
forcing you to reboot and maybe lose any unsaved information 
you had.
    The final one is search engine manipulation. Meta tags are 
short descriptive comments placed in a Web page. They are not 
displayed when you view a page. They are placed there by the 
programmers and developers of the Web page. Many search engines 
use these meta tags to categorize a Web site. There are no 
rules that say a meta tag description has to match the content 
on the site. Porn sites often use common search terms such as 
brand names in their meta tags to get higher placement or 
recognition within the search engines. A porn site can have a 
meta tag of family friendly, safe ISP if they want.
    How can our users protect themselves? First of all, you 
cannot use the Internet, which is really not an option in 
today's society, or you can use a service that offers a 
whitelist, which is a very restrictive list of preapproved 
sites really only appropriate for small children. Filters 
installed on home computers put the responsibilities completely 
on the parent to maintain the software and the subscription to 
a filtering list.
    Then there is service site filtering where all the 
filtering lists and software resides outside the home. The 
burden is removed from the parent but it is up to the 
technology industry to keep up with what the pornographers are 
doing. Families bring filters into their home to protect, not 
to censor, their family. They also expect them to work 100 
percent of the time. Believe me, I have found that out.
    The aggressiveness of the pornographers present a 
technological challenge that we, the filtering companies, are 
constantly trying to keep up with. Our goal is to provide the 
safest possible experience for our customers while online.
    This concludes my statement.
    [The prepared statement of Tracy R. Stewart follows:]
      Prepared Statement of Tracy R. Stewart, Head of Technology, 
                          FamilyClick.com LLC
    Mr. Chairman, members of the committee, I am Tracy Stewart, Head of 
Technology at FamilyClick.com LLC; a nationwide filtered Internet 
service provider based in Virginia Beach, VA. I would like to thank you 
for the opportunity to speak with you today concerning a subject that 
I, my co-workers, and family and friends have spent a great amount of 
time dealing with. That is the growing influence that the online 
pornography industry has on this wonderful new learning tool that we 
know as the Internet.
Background
    Almost everybody realizes that pornographic web sites are out 
there. The sex trade is arguably the world's oldest profession and has 
long been one of the most profitable. Its influence has been felt 
within every culture since the beginning of recorded history and it 
should come as no surprise that the porn industry has established a 
strong foothold in cyberspace. Pornography was the first consistently 
successful e-commerce product and the online porn industry is credited 
with pioneering many of the security, electronic payment, advertising 
and site management techniques that are used today by mainstream web 
site operators.
    Many believe that the online porn industry operates in a niche; 
hidden away in a back room and visible only to those who come looking 
for it. In reality, nothing could be further from the truth. Free of 
the restrictions that pornographers in the print, film and 
paraphernalia industries face, the online pornographer has become very 
bold and aggressive when it comes to marketing his product. He is 
willing to force his message to be viewed by thousands, even millions, 
of unsuspecting persons, both young and old, because he knows that some 
of these people, perhaps only a few, will eventually become his 
customers. He is willing to trick you into visiting his site when you 
are really looking for something completely different because he knows 
there is a slight chance that you will like what he has to offer. And 
he is willing to hold you hostage when you stumble through his door 
because he knows that you might just give in after your first attempts 
at escape fail.
    As a businessman, the online pornographer has the same goals that 
any legitimate businessman has: profits. But without the legal, social 
and moral restrictions to hold him back, the online pornographer has 
aggressively and ruthlessly marketed his product and now ranks third in 
total sales on the Internet; trailing only computer products and 
travel.
Formula For Web Site Success: Traffic = $$
    One of the first goals of any web site operator, whether the site 
is ``legitimate'' or pornographic, is to generate traffic or ``hits'' 
to that site. Without hits, the commercial electronic storefront will 
not have any customers and the free portal will not have many ad 
impressions. With over four thousand new web sites coming online every 
day, generating traffic is a much more difficult task than it appears 
on the surface. Competition for traffic is fierce and even with the 
advent of faster networks, more efficient software and swifter 
computers, users only have so many hours in a day in which to explore 
the web. The site that adheres to the ``If I build it, they will come'' 
principle is doomed to fail.
    Pornographic web site operators have been pioneers in the field of 
web site traffic generation and have come up with some very 
imaginative, and often aggressive, methods of driving traffic to their 
sites. In fact, many of the techniques currently used by legitimate 
sites to increase traffic were first implemented and perfected by 
pornographic web sites.
What the Porn Industry is Up To
    Pornographic web site operators have been so successful in 
generating traffic for their web sites that it is now virtually 
impossible to spend any significant amount of time surfing the web 
without stumbling across pornographic or otherwise offensive web sites. 
In fact, it has now become a challenge to get through an online session 
without encountering lewd, vulgar or risque sites. Increasingly, the 
expectation of many adults and most teen aged web surfers is that they 
will encounter at least one inappropriate web site during a typical 
online session. And for those that are looking for online porn, it's 
only a mouse click away.
    Lacking the fear of prosecution, pornographic web site operators 
have perfected methods of generating traffic to their sites that are 
often as offensive and immoral as the material they are attempting to 
promote. Employing methods meant to deceive, lure, tease, trick and 
capture, new porn web sites can expect a steady flow of traffic in a 
fraction of the time that it takes a legitimate web site to generate 
the same amount of traffic.
    Spam--One of the earliest and most time-honored methods of 
increasing exposure and generating traffic for a porn site is spam; the 
sending of thousands, or even millions, of unsolicited email messages 
or Usenet postings. It is estimated that over 30% of all unsolicited 
email messages are pornographic in nature. In many Usenet newsgroups, 
close to 100% of the postings are advertisements for a pornographic web 
site. These messages and postings often include an attached binary 
image intended to serve as a ``free'' sample of what's available on the 
main web site.
    Spamming is, perhaps, one of the easiest known methods of web site 
promotion. The creation of mailing lists for the purpose of unsolicited 
bulk mailings has grown into a healthy cottage industry. Bulk emailers 
harvest email addresses from Usenet postings, message boards, auction 
sites such as www.ebay.com and www.bid.com and from less than reputable 
bulk email ``opt out'' or ``unsubscribe'' services. These mailing lists 
cost pennies to generate and are easily affordable by web site 
operators with the most modest of budgets. Bulk mailing and posting 
software is also very affordable and easy to setup and operate. To add 
insult to injury, the messages are usually delivered to the victims by 
``borrowing'' the services of an unsuspecting third party that 
installed an email server and forgot to turn off third-party mail 
relay. The spammer then delivers his message to thousands, or even 
millions, of people who did not ask to receive it and uses the 
networking and computing resources of an innocent bystander to do all 
the grunt work.
    Bulk emailers do not lose a lot of sleep worrying about targeting 
their mailings. Since they are paying next to nothing to send their 
messages out, they are more concerned with volume than they are with 
hitting a particular target audience. A ten year old boy is just as 
likely to receive an email message explaining the virtues of the latest 
weight loss plan as he is a message exhorting him to visit Bambi's 
Naughty Playground. He may not actually visit the site but the free 
sample picture of Bambi cavorting with her friends won't be easily 
erased from his impressionable mind. Bulk mailers expect that the vast 
majority of their messages will not generate a positive response. All 
they are looking for is a handful of adults with credit cards handy so 
they can recoup their small investment.
    Banner Ads--By now, everyone who has spent any time on the web has 
seen banner ads. Many of the worlds most visited web sites derive all 
or a major portion of their income by displaying these ads. These 
click-through images that bring the surfer to other sites translate to 
real traffic and money. But it was the online porn industry that 
originated and perfected the use of the banner ad. Today, the online 
porn industry continues to pioneer new and often revolutionary methods 
of using online banner ads.
    Go to almost any adult web site and you will see, prominently 
displayed, dozens of ads linking to other pornographic web sites. By 
any definition, these are ads for competitive sites. While General 
Motors might not be willing to place a link to a Chrysler web site on 
its page, such an arrangement is not only common in the online porn 
industry, it is expected. All a surfer needs to do is wind up on a 
single adult web site, which is very easy to do, and he's got easy 
access to dozens, if not hundreds, of additional sites. While you would 
not expect Macy's to send you to Nordstroms'' web site if they don't 
have the pair of shoes you want, you can expect a porn site 
specializing in blonde's to direct you to a site featuring redheads if 
that's what you prefer. The almost unbroken circle of links developed 
by the online porn industry has proven very effective at maximizing 
profitability and traffic.
    Porn sites have gone beyond the easily abused pay-per-click payment 
system, which is commonly used by legitimate web site operators. 
Arrangements to pay the referring partner a flat fee or a percentage of 
the first sale are becoming prevalent. Often there is no money involved 
and deals are consummated over a drink and a handshake. This 
cooperation is more than a traffic and revenue generating technique in 
the online porn industry; it is interwoven into the very fabric of the 
industry.
    Banner ads for pornographic web sites don't appear only on other 
porn sites. Legitimate sites, hungry for the dollars paid out by porn 
operators, often eagerly place these ads on their own sites. Porn ads 
placed on legitimate sites are normally less graphic and suggestive 
than the ads that porn operators share with each other. But the sites 
that these ``clean'' ads lead to are every bit as offensive as the 
sites advertised by the more graphic ads.
    Innocent or innocuous domain names--It often is not very difficult 
to determine the address for a particular web site. For example, 
FamilyClick's web site is at www.familyclick.com and the web site of 
the National Football League is at www.nfl.com. Many users can derive 
these site names without the need to resort to search engines or web 
directories. Most experienced users try obvious domain names directly. 
But that doesn't always yield the expected results.
    Consider ``Teenagers Hideout''. Seen in a TV listing, one could 
safely assume that Teenagers Hideout was a new addition to the 
Nickelodeon Television lineup. At Barnes and Noble, it could easily be 
the title of the latest installment in the Goosebumps series. A parent 
who's teenage daughter wanted to watch ``Teenagers Hideout'' on 
Nickelodeon or buy the ``Teenagers Hideout'' paperback at the local 
mall probably wouldn't feel alarmed. But there is no such presumption 
of safety in cyberspace. The web site www.teenagershideout.com 
redirects the surfer to the PrivateTeens.com porn site.
    Unencumbered by ratings systems or V-Chips, porn webmasters have 
registered many innocuous or innocent sounding domain names for their 
sites. Boys.com, teens.com, coffeebeansupply.com and bookstoreusa.com 
all lead to very explicit and graphic porn sites. While legitimate web 
site operators strive to come up with domain names that are meaningful 
and descriptive, porn webmasters just try to cover as many bases as 
they possibly can. The legitimate webmaster wants you to visit his site 
when you are looking for the types of goods or services that he offers. 
The porn webmaster wants your traffic regardless of your reason for 
being on the net.
    Misspelled Domain Names--With domain names being sold for hundreds 
of thousands, and even millions, of dollars, it is perhaps not 
surprising that the porn industry should try to take advantage of the 
goodwill and trust that legitimate companies have spent years building. 
For example, the creators of Yahoo! probably never imagined that a site 
dedicated to nude photos of Britney Spears would be parked at 
www.yaahwho.com. The Internet is full of sites that can be accessed by 
using a common misspelling of a popular web site. Not surprisingly, 
most of these misspelled web sites are pornographic in nature.
    Porn site operators have become experts at taking advantage of some 
of the more common and predictable mistakes that people make. If a 
student just introduced to keyboarding places his or her hands on the 
wrong keys, chances are a pornographer has it covered. How about the 
middle school student doing research on the President of the United 
States and goes to www.whitehouse.com instead of www.white
house.gov? The porn industry has taken care of that common error. And 
if you're looking online for information about Disney, check your 
spelling carefully because www.dinsey.com and www.dinseyland.com won't 
get you to the Magic Kingdom.
    Suggestive or graphic exit consoles--Once an innocent surfer 
stumbles across a porn site, all the work getting him there will be 
lost unless they take some steps to keep him from leaving. Porn 
webmasters have become experts at building one way doors leading to the 
Internet's Red Light district. Did you end up at a site that you didn't 
intend to visit? It is normally not a problem; just hit the back button 
or close your browser window and you're right back where you started 
from. But if the site that you accidentally ended up at happens to be a 
porn site, you may not be able to check out as easily as you checked 
in. Hitting the back button or closing the browser window commonly 
results in the opening of one or more 'exit consoles'; each a new 
browser window showing you a site of the webmasters choosing. Many of 
these exit consoles are at least suggestive; if not graphic. Many 
feature ``free preview'' buttons that lead to the creation of still 
more browser windows.
    An example is the web site www.highsociety.com which bills itself 
as ``The All Sex and Celebrity Web Site''. The initial page displays a 
warning about ``explicit adult content to date banned from the U.S.'' 
and it admonishes the viewer that he or she MUST be 18 to enter. But, 
18 or not, at this point you've already had an eyeful, you're already 
in and you can't easily leave. Clicking the back button causes another 
browser window to pop up; this one features the ``Lust Highway'' site. 
Close the Lust Highway window and it is quickly replaced by the Chateau 
deSade site which features ``Hardcore Sado-Masochism''. That is 
followed by visits to sites offering ``Free Porn and Screensavers'', 
``The Youngest Girls Allowed by Law'' and a site ``Where All Your 
Sexual Fantasies Come Alive''. All together, the surfer leaves the High 
Society site by way of 13 sexually explicit and graphic porn sites. 
Each site features a graphic image on its front page and each gladly 
accepts credit cards.
    The ``Thirteen Steps Through Paradise'' exit route employed by High 
Society is actually one of the easier and less obtrusive exit plans 
used by the porn industry. The thirteen windows used to leave High 
Society open up one after the other with the closing of each window 
leading to the birth of exactly one successor. Other sites employ as 
many as 23 new browser windows. Often a porn sites exit plan will 
involve the creation of a dozen or more exit consoles, all starting up 
at the same time and competing for the systems resources. New windows 
are created as fast as the user can close them. In many cases, this 
causes the system to lock up forcing a reboot; often resulting in the 
loss of unsaved work.
    The damage often goes beyond the lost work and the possible harm 
caused by rebooting your system. As pages and images are downloaded 
from the net, they are cached onto your systems hard drive. This speeds 
up access during subsequent visits to a web site as the information 
stored on the hard drive can be displayed if the information on the 
site itself hasn't changed. Since the cache contains pages and images 
from sites that you've intentionally visited as well as those that you 
ended up at by accident, any person with access to the computer can 
view these images without even being online. Many users do not even 
realize that these images are there and would be appalled to learn that 
such material actually resides in their home.
    The porn industry takes advantage of a technique known as 
Javascript Slamming to make this happen. Using onLoad and onUnload 
methods, they can open new windows upon entry to or exit from a site. 
The onUnload method is particularly iniquitous in that there is no 
escape. It's possible to turn off the execution of Java entirely from 
within the browser. Unfortunately, doing so blocks about 50% of the 
good content available on the net. Browsers, such as Opera, can be 
configured to never open new windows. Again, disabling this feature is 
equivalent to disabling much of what is available on the Internet. Not 
going to porn sites is one way of avoiding the exit console syndrome. 
But since many porn site visits are the result of an accidental wrong 
turn in cyberspace, avoidance isn't a very effective treatment for the 
problem. And many non-porn sites, particularly sites dealing with 
online gambling, have learned from the porn webmasters and adopted the 
Javascript Slamming technique for their own purposes.
    Manipulating Search Engines--Most web site operators, legitimate 
and otherwise, spend a great deal of time trying to describe their site 
by means of meta tags. Meta tags are short descriptive comments placed 
within the body of a web page. Not readily visible using most browsers, 
meta tags contain the keywords and descriptions used by search engines 
to categorize web sites. Using FamilyClick as an example, the keywords 
chosen were those that accurately describe the content offered on our 
site and the filtered ISP service offered.
    Unfortunately, there is no rule that requires that a keyword placed 
in a meta tag has to accurately describe the site. The porn site 
www.girls.com uses teens as a keyword as does FamilyClick. So a surfer 
looking for information related to teens would be just as likely to 
find www.girls.com as he would www.familyclick.com. While mainstream 
web sites strive to use descriptive keywords, porn web site operators 
use whatever the search engines are currently indexing. By posting 
hundreds of test pages, porn operators can readily determine what the 
major search engines are looking for. They then load up their sites 
with meta tags this month, titles the next, and meta descriptions the 
month after that. Many of these sites are temporary portal sites 
customized for a particular search engine. These portal sites contain 
nothing more than the information that the search engines want along 
with a redirect to the actual site. Since the porn webmasters are so 
good at generating traffic, when a portal site has outlived its 
usefulness, it is quickly replaced with another.
    And when it comes to spamming, the porn industry does not stop with 
email and Usenet. They routinely spam the search engines by submitting 
every page and subpage that makes up their site, as well as hundreds of 
throwaway portal sites. Since the search engines will eventually detect 
this spamming, porn operators are careful not to use their actual site. 
They use phony portal sites that can be replaced without any trouble.
    Usenet--Before there was a World Wide Web, there was Usenet, 
commonly referred to as newsgroups. Originally intended as a huge 
worldwide bulletin board where users could discuss a wide variety of 
topics, Usenet has grown into a system where users can share not just 
thoughts and ideas but files. Not surprisingly, an increasing 
percentage of these files are erotic images, videos and sound clips. Of 
the almost 36,000 groups carried by one major provider, almost 600 are 
described as having content related to sex and another 500 carry 
content which is erotic in nature. There are newsgroups specializing in 
various fetishes; groups specializing in bestiality; groups that focus 
on various parts of the body and, for material that just doesn't fit 
anywhere else, groups that desire tasteless pictures and stories. The 
trick of misspelling domain names probably originated with Usenet; the 
group alt.binaries.pictures.boys.barefoot carries images of young boys 
with nothing on their feet. Not surprisingly, it isn't only shoes that 
some of these boys are going without. Many of the 12,000 or so groups 
in the alt hierarchy are almost exclusively dominated by material that 
is sexual in nature.
    As an open system, anybody can post almost anything to any Usenet 
group. While the posting of a message related to British soccer may not 
be welcome in a group devoted to the breeding of tropical fish, it's 
difficult to prevent off-topic posting. A user looking through a Usenet 
group intended for web browser discussions is just as likely to come 
across a nude image of a young actress, as he is information on the 
latest Microsoft Explorer bug. The pornographers are well aware of this 
fact and they habitually flood almost every newsgroup with free samples 
and other enticements to visit their web sites. This has gone far 
beyond spam, as many groups now carry nothing but invitations to come 
visit various web sites. Using high throughput systems, porn operators 
pump out gigabytes of graphic content.
    Besides serving as a method of increasing hits to a site, Usenet is 
also a rich mother lode of content for the porn webmasters. Usenet is 
full of images, videos, stories, jokes and other material. Much of this 
is posted by amateur photographers and videographers and consists of 
pictures of wives and husbands, girlfriends and boyfriends, the girl or 
guy next door, couples, trios, dogs, cats, hamsters as well as all 
sorts of inanimate objects. With the introduction of affordable digital 
cameras, scanners and web cams, the amount of material waiting to be 
harvested by a porn webmaster is increasing everyday.
Avoiding the Net's Dark Side
    The most sure-fire method of avoiding the seedy part of the net is 
to stay off the net altogether. If your computer isn't hooked up to the 
net, the only way that porn can work its way into your system is if 
someone carries it in on a diskette. But staying completely off the net 
denies access to a powerful learning and entertainment tool. There are 
methods of taking advantage of what the net has to offer while still 
offering your family some measure of protection from the aggressive 
online pornographers.
    Whitelists--A whitelist is simply a list of pre-approved web sites 
that have been checked and determined to be safe. Some Internet Service 
Providers offer a service that restricts its users from going to any 
site not listed on its whitelist. Current database technology allows 
whitelists to be quite large and can be updated and searched in almost 
real time.
    But with over four thousand new web sites coming online everyday, 
maintaining a whitelist and keeping it up to date is a major challenge. 
Since it's already known that the name of a site is not necessarily 
indicative of its contents, each site needs to be manually visited in 
order to determine if it should be included on a whitelist or not. And 
since the contents of a site may change over time and domain names are 
often sold, each site on the list needs to be revisited periodically to 
ensure that it still merits inclusion in the list. However, as long as 
the whitelist is properly maintained, it is a very effective method of 
protection.
    Due to these challenges, whitelists are only appropriate in limited 
numbers of cases. The most common application of a whitelist is to 
ensure safe Internet access for small children. FamilyClick offers, as 
one of its access levels, access to a pre-approved list of sites which 
have been determined to be appropriate for children seven and under. 
The FamilyClick Children's Playroom is 100% safe but would not be 
appropriate for an experienced user who may need to use the web for 
research.
    Local Filtering--A local filter is a software program, installed on 
a users computer, that monitors a users Internet activity and decides 
whether to allow that activity or not. The filters normally compare web 
addresses, email addresses and Usenet group names against a list of 
blocked addresses. If the address does not appear on the list, access 
to that resource is permitted. Some local filters utilize word lists as 
well as address lists.
    Local filters have many of the same problems that whitelists have 
and are usually much less effective at blocking inappropriate material. 
Lists need to be maintained and the sheer volume of new web sites being 
launched means that new porn sites might not be listed for weeks or 
months. Often users are required to maintain a subscription in order to 
ensure that the list is kept up to date.
    The main problem with local filters is that they are installed on a 
users computer. Many parents purchase copies of filtering software only 
to hand it to a tech savvy teenager to be installed. Although some 
local filters are password protected, they can be defeated either by 
removing them entirely or by renaming a few files.
    Proxy Filtering--The most effective filter is a filter that resides 
on a server outside of the home. Often known as a server based filter, 
the proxy filter operates by intercepting all requests from a user and 
then deciding whether to pass the request on or not. Proxy filters 
utilize lists of blocked sites as well as word lists. Server based 
filters can take advantage of the latest database technology to 
maintain lists of blocked sites and banned words. The most advanced 
proxy filters scan outgoing web requests and incoming web pages and 
perform context searches rather than simple word searches. This 
provides protection against sites too new to have been catalogued.
    Proxy filters are commonly used in businesses and educational 
institutions where the network administrator can force the traffic to 
flow through the filter as it travels to and from the users. In this 
type of setup, a proxy filter is very difficult, if not impossible, to 
defeat. Users can either access the net through the proxy filter or not 
at all.
    Increasingly, filtered Internet Service Providers are utilizing 
proxy filters to protect their subscribers from unwanted pornography. 
Several, such as FamilyClick, utilize various levels or tiers of 
filtering. This allows parents to decide the level of access that is 
appropriate for each of their children. FamilyClick and other top 
providers force all the network traffic from subscribers to flow 
directly through their proxy filters. A tech savvy teen that attempts 
to bypass the proxy filters finds that network traffic not directed to 
the proxy filters falls into a black hole.
    Usenet and Other Parts of The Net--The Internet is far more than 
just the World Wide Web. Cyberspace includes Usenet, Electronic Mail, 
Chat and Instant Messaging, Bulletin Boards and multi-player gaming. 
And just like the web, the pornographers have a foothold in every 
corner of the net. Many filters deal only with web traffic and, while 
some email providers such as FamilyClick include profanity and 
obscenity filters for email and Usenet, other services available on the 
Internet are currently unfiltered like Instant Messaging.
    Providers deal with these unfiltered services by not offering them 
at all, offering only a portion of the service or by issuing strong 
warnings to subscribers who choose to use these services. Usenet, for 
example, can be made semi-safe by screening out all but a few select 
newsgroups and by dropping all binaries. Electronic mail can be 
sanitized by comparing incoming messages against addresses of known 
spammers and pornographers and by scanning messages for telltale signs 
of porn and spam.
Staying Ahead of The Good Guys
    As the masters of a billion-dollar enterprise, the porn web 
operators have every reason to want to defeat any technology that 
threatens to weaken their empire. For every step forward that the guys 
in the white hats take, the online porn industry takes two. Where once 
a simple word filter would suffice, it now takes sophisticated software 
that can determine the context of a sentence or paragraph. Text 
messages that were at one time expressed in ASCII are now embedded in 
images that are impractical to scan. Porn site operators know who their 
enemies are and they are usually among the first to purchase and test 
new filters that come on the market. By the time a new filter gains 
widespread acceptance, the porn operators have developed methods of 
getting around the filters.
    The technology that drives the Internet is advancing at breakneck 
speed and no industry is pushing this advancement more than the porn 
industry. Many of the first people to communicate with each other on 
the net talked about sex using a bulletin board devoted to erotic 
discussions. Pornographers were among the first to incorporate 
streaming video and pioneered the use of community software such as 
chat rooms and message boards. Each of these advancements has posed a 
new challenge to those that seek to identify and screen out unwanted 
material. The porn industry today is perfecting new technology and 
techniques that will make current filters obsolete. The porn industry 
is starting to incorporate 360-degree video and when digital scent 
technology is perfected, it will be the porn industry that first brings 
the sense of smell to your home computer. Filter writers that started 
with a simple list of four letter words now face the challenge of 
identifying and filtering different scents, sounds, textures, 
expressions and colors. The college graduate who wishes to push the 
state of the art would do well to seek a position in the online porn 
industry.
    Because of the speed with which a porn master can drive traffic to 
a new site, web addresses that appear on blacklists are quickly 
replaced with new addresses. Many filters do not track the IP addresses 
of sites so porn operators often distribute addresses in the form 
http://209.25.138.4/new/open/open1.html. Such addresses contain no 
strings that might trigger a filter and the address normally leads to a 
site that will simply redirect the user to the existing, blocked site. 
These numeric sites are generally throwaway sites that are only 
intended to last for a few days. By the time these sites are listed by 
the major filters, new sites have replaced them.
    Javascript Slamming is also frequently effective at defeating 
filters. Even if a filter blocks the first page, it may not block the 
rest. The porn operator who sends you through a dozen or more sites 
stands a good chance that at least one of those sites can pass through 
the filter.
    Porn operators are also adept at hiding behind the first amendment. 
With cries of censorship, porn operators throw up many legal obstacles 
to the developers and providers of filtering services. Despite the 
obvious fact that participation in a filtered service is something that 
people elect, the porn operators have much support from free speech 
advocates who are quick to denounce this 'censorship' of the Internet. 
Many of these supporters maintain web sites such as www.peacefire.org 
that make available information on how to defeat various filters. 
Usenet groups such as alt.cracks contain information on how one might 
workaround the security features of various software packages including 
filters. Like all software, filters have flaws and the opponents of 
filtering are quick to point out that filters have mistakenly blocked 
sites such as the Quakers home page and the AIDS Memorial Quilt. They 
are usually not so quick to tell you when the filters are fixed.
    Also in the name of free speech and privacy, web sites known as 
anonymizers have sprung up. These sites allow you to surf the web 
anonymously by accessing other sites on your behalf; acting as an 
intermediary between you and a filter. Most filters now block the 
anonymizers but new anonymous surfing sites are being launched about as 
fast as the filters can find them.
    Even the best filters can't be expected to be 100% effective. 
Filters sometimes block sites that shouldn't be blocked. Likewise, the 
occasional inappropriate site sometimes slips through even the best 
filters. But most providers of filtered access are quick to investigate 
and correct any errors that are brought to their attention. Providers 
such as FamilyClick form a partnership with their subscribers; 
realizing that the most effective way to ensure safe access to the 
Internet is to work together. Subscribers are encouraged to suggest 
sites that should or should not be blocked and suggestions on how to 
improve the service are gladly accepted.
    People who invest in the protection of a filter expect that filter 
to work 100% of the time. Unfortunately, that isn't currently possible. 
The online porn industry is able to deploy resources that the good guys 
can only dream about. The porn industry operates in an environment of 
cooperation and trust unheard of in other industries. While traditional 
technology companies zealously guard trade secrets, the porn industry 
willingly shares these tricks of the trade with each other.
Conclusions
    Pornography is a part of society and probably always will be. But, 
away from cyberspace, one normally needs to seek it out in order to 
access it. Erotic magazines and books exist but they are behind the 
counter. You need to ask for them. Pornographic videos exist and many 
video stores carry them. But they are in a back room; often protected 
by a locked door. Many cable television and satellite providers carry 
adult movies. But they are accessed via Pay-Per-View; they normally 
cost more than mainstream movies and they often require a PIN number to 
view. Your town may have a sex shop or X-rated theater but it's 
probably not next door or across the street. More than likely it is 
somewhere else in town along with all the other sex shops in a Red 
Light District. Although movies, television shows, video games and 
literature are becoming more and more suggestive, to access real porn 
you need to go out of your way to get it.
    But not on the Internet. Away from the net, you normally need to 
look for porn. In cyberspace, it looks for you. On the net, pornography 
isn't behind the counter and it's not in a locked room. It isn't 
secured by a PIN number or access code and it's not on the other side 
of town. It's in your neighborhood, it's in your schools and it's 
across the street.
    It's in your home.
    Many families have brought filters into their homes, not to censor, 
but to protect their families from people and influences they would 
never allow through their front door. They rely on and expect these 
filters to work and protect them. The technological aggressiveness of 
the porn industry makes it very difficult to give families, that have 
opted to utilize filtering, a guaranteed safe Internet experience. 
Currently, technology is the only deterrent to accessing pornography on 
the Internet and it is always a step or two behind the latest 
techniques developed by the porn industry to drive traffic to their web 
sites. The role of FamilyClick and other providers of filtered access, 
is to provide the families, that have freely chosen filtered access, 
the safest possible experience while on the Internet.
    Thank you for giving me the opportunity to discuss this important 
matter with you today. FamilyClick is prepared to work with the 
committee on this issue and I will gladly answer any questions you may 
have.

    Mr. Tauzin. Thank you, Ms. Stewart.
    We will next hear from Janet LaRue, senior director of 
legal studies, Family Research Council, here in Washington, 
D.C. Ms. LaRue.

                   STATEMENT OF JANET M. LaRUE

    Ms. LaRue. Thank you, Mr. Chairman, members of the 
subcommittee. Good morning. I am Janet LaRue and I am senior 
director of legal studies at the Family Research Council. 
Pornography law has been an area of expertise in my practice 
for many years.
    As you know, obscenity is not protected by the Constitution 
because, by definition, it is patently offensive appeal to a 
prurient interest in sex and has no serious value. It is 
illegal to display or distribute to any person through any 
medium, including the Internet. The Supreme Court has 
reiterated that. It is the crass commercial exploitation of sex 
by a worldwide industry now estimated by Forbes magazine at $56 
billion per year. Much of this is controlled by organized 
crime. This is an industry that exploits the basest nature of 
human beings, including those who are most vulnerable to 
addiction, especially children.
    Minor children are no exception. If anyone doubts that, I 
would encourage you to visit the commercial pornography sites 
on the World Wide Web and see the plethora of free teaser 
images that are there, available for any child to view. In 
fact, I have with me today some photocopies of images that I 
just downloaded from the Internet, and Mr. Chairman, I would 
submit them for the record.
    Mr. Tauzin. The Chair will withhold on that request if you 
don't mind.
    Ms. LaRue. These images include bestiality, mutilation, 
torture, excretory functions, orgies and other perversions. 
Internet pornography is estimated by Forbes magazine at $1.5 
million per year at this current time. According to Adult video 
News which is the online publication for the porn industry, 
``48 million unique hits on the adult Net daily.'' Forty-eight 
million daily. According to Nielsen net ratings, 17.5 million 
surfers visited porn sites from their homes in January, a 40 
percent increase compared with 4 months earlier. Forty percent 
increase.
    Researchers from Stanford and Duquesne University have now 
estimated that we have 200,000 individuals in this country that 
they define as cybersex compulsives, and I believe they have 
set the bar very high. To be a cybersex compulsive, one must 
visit a pornography Internet site at least, at least 11 hours 
per week. They said that this is a hidden public health hazard, 
exploding in part because very few are recognizing it as such 
or taking it seriously. Treating a new public health problem of 
this magnitude will place inestimable burdens on our health 
care system and unimaginable stress on adults, their families 
and society.
    For several years, Family Research Council has been calling 
on the Department of Justice to begin an aggressive enforcement 
policy against major obscenity distributors. On October 28, 
1999, I was one of several representatives of several profamily 
organizations who met with the head of the criminal division of 
the Department of Justice, Mr. James Robinson, and 
representatives from other Federal agencies who have 
responsibilities for obscenity investigations and prosecutions. 
Once again we voiced our concerns and complaints about the lack 
of prosecution. I personally provided Mr. Robinson with a stack 
of materials, photocopies of commercial porn sites that 
especially target teenagers. These hard-core images easily meet 
the definition of obscenity under Miller versus California.
    The response from Mr. Robinson in his follow-up letter to 
our group was unacceptable and frustrating because nothing has 
changed.
    In addition, the accessibility of hard-core porn on the 
Internet is turning America's public libraries into virtual 
peep shows open to children and funded by taxpayers. I have 
with me a publication recently released by the Family Research 
Council, called Dangerous Access, 2000 edition, uncovering 
Internet pornography in America's libraries. This is a result 
of Freedom of Information Act requests that were mailed to over 
9,700 of America's public library systems, asking for any 
reports, complaints, or other memoranda having to do with 
patrons in public libraries accessing pornography. After 6 
months of going through those reports and compiling the result, 
we have published it in this document. We show by libraries' 
own records over 2,000 incidents of patrons, including small 
children, accessing pornography; sex acts occurring in public 
libraries; sex crimes occurring in public libraries. We have 
mailed a courtesy copy to every Member of Congress, and I would 
offer a copy for submission into this record.
    Mr. Tauzin. The gentlelady again, we will withhold on that 
request, and we are asking counsel to advise us frankly, Ms. 
LaRue, as to what is the legality of introducing material into 
the record that may itself constitute obscenity, and realizing 
you want to make a point by showing us what you can download 
from the Internet, but if you can withhold on those requests 
until we get an answer I would appreciate it.
    Ms. LaRue. My point is to make the committee aware of the 
kinds of material we called to the attention of the Department 
of Justice that is rampant on the Internet, to which they said 
they would consider prosecution. As yet we have not heard of 
any.
    Mr. Tauzin. I think your report, without objection, will be 
introduced into the record. So ordered. I am simply asking that 
you withhold on the request. In fact, I would personally ask 
you not to make the request so we don't have the issue. I don't 
know the legality of putting in the record material that may in 
fact be obscene and having a record that may be duplicated or 
copied for the purposes of the public later on, as to whether 
or not we ourselves would be doing something which might 
violate the law. And I would frankly request that you not 
request us to introduce the earlier material into the record. 
Can I have that agreement perhaps?
    Ms. LaRue. I would abide by your request. I would say that 
I did offer a similar stack of material to another House 
subcommittee, which was accepted, and I assume that----
    Mr. Tauzin. We may be able to do that. I would just simply 
ask you to withdraw it for the time being until we have a 
chance to get an answer for that from legal counsel. I thank 
you. You may proceed.
    Ms. LaRue. Yes. Computerized cyberporn is a source of 
potential legal liability for the creation of a hostile work 
environment and specifically in violation of Title 7 of the 
Federal law. As a matter of fact, seven librarians in 
Minneapolis, Minnesota have recently filed a sexual harassment, 
hostile work environment complaint with the Equal Opportunity 
Commission. The complaint cites conditions in the library where 
sex offenders congregate 6-year-olds to view hard-core porn, 
men masturbate, and a porn surfer brandishes a knife when told 
to terminate his Internet access. These are conditions one 
would expect to find in a dirty bookstore, except for the 
presence of 6-year-olds viewing hard-core pornography.
    Month after month for the past 7 years, Adult Video News 
has praised the Clinton Justice Department for not enforcing 
the Federal obscenity laws. The March issue states: ``how 
likely is it, would you say, that we are going to enjoy the 
same benevolent neglect that the industry has enjoyed under 
Janet Reno? Regardless of who is elected, our fortunes are 
going to change.''
    I would close by asking the members of this subcommittee to 
consider that if a major drug cartel had a monthly publication 
in which they praised the Drug Enforcement Agency for not 
enforcing the Federal drug laws, how long would the people of 
this country or this Congress tolerate such conduct? I suggest 
that it would not be tolerated and especially for 7 years.
    The Department of Justice refuses to enforce an entire body 
of the Federal Criminal Code that prohibits the trafficking in 
obscene materials. It must be called to account and be held 
responsible. Thank you.
    [The prepared statement of Janet M. LaRue follows:]
Prepared Statement of Janet M. LaRue, Senior Director of Legal Studies, 
                        Family Research Council
    Mr. Chairman, members of the Subcommittee, good morning. My name is 
Janet M. LaRue. I am senior director of legal studies for the Family 
Research Council (FRC) in Washington, D.C. Thank you for the 
opportunity to testify today regarding the problem of obscene material 
available on the Internet.
    Pornography law has been my area of expertise for many years. I 
have lectured on the subject in numerous law enforcement conferences 
across the country, testified before state and local legislatures on 
pornography bills, and authored numerous appellate briefs that have 
been filed in the U.S. Supreme Court, federal circuit courts of appeal, 
and state appellate courts on various pornography law issues. The 
protection of children, families, and society in general from the 
serious harms of pornography, and especially obscene materials, is a 
top priority of FRC and of my department, in particular.
    As you know, obscenity is not protected by the Constitution 
because, by definition, it is a patently offensive appeal to a prurient 
interest in sex and has no serious literary, artistic, political, or 
scientific value. It is illegal to display or distribute to any person, 
including adults. It is the crass commercial exploitation of sex by a 
worldwide industry now estimated at $56 billion dollars per 
year,<SUP>1</SUP> much of which is controlled by organized crime. This 
is an industry that exploits the lowest part of human nature and plays 
on those vulnerable to addiction in order to attract a new generation 
of customers. Minor children are no exception. Anyone who doubts that 
need only visit the commercial World Wide Web porn sites that 
flagrantly display scores of free teaser images of their product. These 
images include bestiality, mutilation, torture, excretory functions, 
orgies, and other perversions. I have copies of sample materials with 
me today that I offer for submission into the record. Internet 
pornography is estimated at $1.5 billion per year.<SUP>2</SUP> 
According to Adult Video News Online, there are ``48 million unique 
hits on the adult Net daily.'' <SUP>3</SUP> ``According to Nielsen 
NetRatings, 17.5 million surfers visited porn sites from their homes in 
January, a 40 percent increase compared with four months earlier.'' 
<SUP>4</SUP>
---------------------------------------------------------------------------
    \1\ Richard C. Morais, Porn Goes Public, Forbes, June 14, 1999.
    \2\ http://www.forbesfinder.com/forbessearch/
search.asp?act.search=1&q1=porn+business&RD=D
M&MT=porn+, visited April 10, 2000.
    \3\ http://www.avonline.com/200003/corecontents/cc0300--01.shtml, 
visited April 11, 2000.
    \4\ Brendan I. Koerner, A Lust for Profits, U.S. News & World 
Report, Mar. 27, 2000, at 36.
---------------------------------------------------------------------------
    Researchers from Stanford and Duquesne University have estimated 
that 200,000 individuals fit the definition of ``cybersex compulsive''-
spending at least 11 hours a week visiting sexually oriented areas on 
the Internet. The Psychologists who conducted the research said: ``This 
is a hidden public health hazard exploding, in part, because very few 
are recognizing it as such or taking it seriously.'' <SUP>5</SUP> 
Treating a new public health problem of this magnitude will place 
inestimable burdens on our health care system and unimaginable stress 
on addicts, their families and society.
---------------------------------------------------------------------------
    \5\ Al Cooper, David L. Delmonico, Ron Burg, Cybersex Users, 
Abusers, and Compulsives: New Findings and Implications, Journal of 
Sexual Addiction & Compulsivity 25, 7:5-29, 2000.
---------------------------------------------------------------------------
    In addition to the many other serious problems caused by the 
proliferation of hard-core pornography in our country, its 
accessibility via the Internet is turning America's public libraries 
into virtual ``peep shows'' open to children and funded by taxpayers. 
This is primarily due to failure of the Department of Justice (DOJ) to 
enforce federal obscenity laws.
    FRC has been calling this problem to the attention of the DOJ for 
several years. On October 28, 1999, I was one of the representatives of 
pro-family organizations who met with the head of the criminal division 
of DOJ, James Robinson, and representatives from other federal agencies 
who have responsibility for obscenity investigations and prosecutions. 
Once again, we voiced our concerns and complaints about the lack of 
obscenity enforcement by DOJ. I personally provided Mr. Robinson with 
numerous photocopies of images that I downloaded free of charge from 
commercial pornography Web sites. These hard-core images easily meet 
the definition of obscenity under Miller v. California, 413 U.S. 15 
(1973). The response from Mr. Robinson and his follow-up letter to our 
group was unacceptable and frustrating because nothing has changed.
    FRC is especially concerned about the effect on America's public 
libraries caused by the lack of obscenity law enforcement. With the 
help of FRC, David Burt, a public librarian who shares our concerns, 
mailed more than 14,000 Freedom of Information Act requests to the 
nation's 9,767 public library systems, requesting copies of complaints, 
reports and other documentation of incidents involving patrons 
accessing pornography.
    A six-month investigation of the responses received uncovered more 
than 2,000 documented incidents of patrons, many of them children, 
accessing pornography, obscenity, and child pornography in the nation's 
public libraries. Many of the incidents were highly disturbing, as 
librarians witnessed adults instructing children in how to find 
pornography, adults trading child pornography, and both adults and 
minors engaging in public masturbation at Internet terminals. Analysis 
of computer logs from just three urban libraries revealed thousands of 
incidents that went unreported, indicating that the 2,062 incidents 
represent only a fraction of the total incidents nationwide. The total 
number of incidents each year nationwide is likely to be between 
400,000 and 2 million. FRC has published the results of the 
investigation in a booklet titled Dangerous Access 2000 Edition: 
Uncovering Internet Pornography in America's Libraries. I offer a copy 
for submission into the record.

                        Dangerous Access, page 5
------------------------------------------------------------------------
      Incident Reports, Patron Complaints, and News Stories       Number
------------------------------------------------------------------------
Child Accessing Pornography.....................................     472
Adult Accessing Pornography.....................................     962
Adult Exposing Children to Pornography..........................     106
Adult Accessing Inappropriate Material..........................     225
Attempted Molestation...........................................       5
Child Porn Being Accessed.......................................      41
Child Accidentally Viewing Pornography..........................      26
Adult Accidentally Viewing Pornography..........................      23
Child Accessing Inappropriate Material..........................      41
Harassing Staff with Pornography................................      25
Pornography Left for Children...................................      23
Pornography Left on Printer or Screen...........................     113
Total Number of Incidents.......................................   2,062
------------------------------------------------------------------------


                        Dangerous Access, p. 36.
         Incidents included reports describing criminal conduct:
------------------------------------------------------------------------
                                                   Number      Percent
              Crime                   Number    Reported to  Reported to
                                    Documented     Police       Police
------------------------------------------------------------------------
Accessing Child Pornography......           41            5           12
Accessing Obscenity..............           25            0            0
Exposing Children to Porn........          106            0            0
Public masturbation/fondling.....           13            1            8
Total............................          172            6          3.5
------------------------------------------------------------------------

    Whether exposure occurs in a public library, school, nonprofit 
group, or business, workplace pornography and computerized 
``cyberporn'' are a source of potential legal liability for those 
vested with management or control over the respective work 
environments. The viewing of pornography in public places creates an 
offensive, uncomfortable, and humiliating environment (in addition to 
unlawfully exposing or displaying such ``harmful'' material to minors). 
Pornography in the workplace can constitute, or be evidence of, sexual 
harassment in violation of state and federal civil rights laws and 
create or contribute to a hostile environment in violation of Title 
VII's general prohibition against sexual discrimination in employment 
practices.<SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ See 42 U.S.C. Sec. 2000e-2; 29 CFR 1604.11; 18 U.S.C. Sec. 242; 
42 U.S.C. Sec. Sec. 1981, 1982. See Pornography, Equality, and a 
Discrimination-Free Workplace: A Comparative Perspective, 106 Harvard 
Law Review pp. 1075-92 (1993); Robinson v. Jacksonville Shipyards, 760 
F. Supp. 1486 (M.D. Fla. 1991).
---------------------------------------------------------------------------
    This month, seven Minneapolis librarians filed a complaint with the 
Equal Employment Opportunity Commission because of the hostile and 
offensive working environment caused by daily exposure to Internet 
porn. The complaint cites conditions in the library where sex offenders 
congregate; six-year-olds view hard-core porn; child porn is left on 
printers; men masturbate; and a porn surfer brandishes a 
knife.<SUP>7</SUP> These are conditions one would expect to find inside 
a dirty bookstore, except for the presence of six-year-olds.
---------------------------------------------------------------------------
    \7\ Paul Levy, Complaints filed over Web porn at Minneapolis Public 
Library; Librarians say they work in a hostile environment, Minneapolis 
Star Tribune, May 4, 2000, at 1B.
---------------------------------------------------------------------------
    Month after month for the past seven years, the trade publication 
of the porn industry, Adult Video News Online, has praised the Clinton 
Justice Department for not enforcing the federal obscenity laws. The 
March issue states, ``How likely is it, would you say, that we are 
going to enjoy the same benevolent neglect that the industry has 
enjoyed under Janet Reno? Regardless of who is elected, our fortunes 
are going to change.'' <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ http://adultvideonews.com/legal/leg0300.html, visited April 11, 
2000.
---------------------------------------------------------------------------
    Members of the Subcommittee, if a major drug cartel had a monthly 
publication that repeatedly praised the Drug Enforcement Agency for its 
``benevolent neglect'' toward enforcing the federal drug laws, I don't 
believe this nation or Congress would have tolerated it, and certainly 
not for seven years. The Department of Justice refuses to enforce an 
entire section of the federal criminal code that prohibits the 
trafficking in obscene materials. It must be called to account and held 
responsible.
    Thank you.

    Mr. Tauzin. Thank you very much, ma'am.
    And our final witness on this panel, Mr. Joseph Burgin, of 
Cincinnati, Ohio, brings to us his personal story. Mr. Burgin.

               STATEMENT OF JOSEPH W. BURGIN, JR.

    Mr. Burgin. Thank you. I am here today to represent what I 
believe to be millions of men whose minds are being held 
captive by electronic images. Each of us are experiencing 
consequences to varying degrees but each of us are being 
adversely affected. But more so than a representation of masses 
of people, I am here to represent my two sons and my daughter 
who experienced some crushing pain because of their father's 
involvement with pornography.
    In my case, humanly speaking, I have lost everything that a 
man would hold onto to give himself meaning and perspective in 
life. Because of my involvement with pornography, I lost my 
marriage of 25 years. It also cost me the role of daddy, which 
I cherished, to my 9-year-old daughter. My involvement with 
pornography also cost me job opportunities and the career path 
of my calling and choice. In addition to those things, I have 
lost friends and trust and respect from many. The consequences 
that are measurable and tangible in my own life have been 
devastating enough. Through all of my legal proceedings I have 
lost some $100,000 in support obligation, retirement funds, et 
cetera, et cetera, all easily traced back upstream to my 
involvement with pornography.
    So in addition to those measurable consequences, my 
involvement with pornography also affected me adversely 
emotionally. It thwarted and hindered the normal development of 
coping skills with life and an ability to manage my life on a 
day-to-day basis. Instead of knowing how to do that, I was 
simply turned to the sedating effect that I could find from 
online pornography.
    As a man in mid-forties, I am now having to go back and 
relearn those things to have any hope of any future that is any 
semblance of normal relationships.
    Through an awful lot of professional counseling and hours 
upon hours of attendance at support groups and with 
accountability partners, I have been able to find freedom from 
pornography.
    But I can't talk about the consequences before you today in 
the past tense. Because of my involvement with pornography, I 
feel I am scarred, I am handicapped, I will move into my future 
with a limp. I will always be affected because of my years of 
involvement with it. The moment any forward progress stops, 
then my regression begins.
    So I am here today to make an appeal to do anything or 
everything that is conceivable to thwart or hinder the 
development of this industry. In my own personal life it has 
brought devastating consequences, and as my oldest son Josh 
said, tell them about it, Dad; it has gotten out of hand, it 
has got to stop. So my family for one, we are fed up with the 
industry.
    Thank you.
    [The prepared statement of Joseph W. Burgin, Jr. follows:]
              Prepared Statement of Joseph W. Burgin, Jr.
    I am 46 years old. I am divorced after being married 25 years. My 
oldest son is a junior in college. My middle child lives with me and is 
a junior in high school. I also have a 9-year-old daughter who lives 
with her mom. I hold a Bachelor of Arts and Master of Arts degree. For 
20+ years I provided leadership and management for nonprofit 
organizations in Ohio and Alabama. A major publishing company currently 
employs me as a regional manager.
    I consider myself a sex addict with Internet pornography being my 
primary means of acting out. I feel I have been a sex addict for more 
than thirty years. I have been in recovery for about two years. In my 
active days of addiction I felt my self-esteem was very low. I feel 
that in my addiction I struggled with depression. I consider myself in 
recovery from sex addiction with no relapses for a year and two months. 
My religious beliefs are protestant. The Internet was an active part of 
my addiction. I have used Internet photos and videos for my addiction. 
The Internet reactivated my addiction that was inactive for years. I 
feel the Internet took my acting out to a different level because of 
its ease of access. I believe my sexual orientation is heterosexual. I 
acted out in my addiction only with myself. All of my sexual fantasies 
in my addiction were about women I did not know. The type of porn I 
would use was mostly hard-core (sex acts depicted). In my marriage I 
had no affairs.
    Since adolescence, I did a masterful job of concealing my struggle 
with sexual addictions and pornography. My own self-hatred, other 
personal handicaps and as well as relational weaknesses made me a prime 
target for pornography. Internet pornography was extremely easy to 
access and hide. I deal with men regularly who are caught in this trap 
because of the ease with which it can be accessed. I was sought out as 
a customer through banner adds, Spam, unsolicited email attachments, 
etc.
    The day of reckoning came in my life as a torpedo hit me with a 
full broadside blow and my life sank. After going through an unwanted 
job change along with the death of my father and other personal issues, 
I returned to an old friend for relief--pornography. For a few days the 
sedating effect from hour after hour immersion in pornography numbed me 
out and I didn't feel any pain. But my life-long hidden addiction soon 
came to light and my sons and subsequently my wife discovered my 
darkest secret. As a result, my addictions cost me: my marriage; the 
role I cherished as daddy; job opportunities in the field of my calling 
and choice; legal problems resulting in over $100,000 of fees, 
retirement income, and support obligations; significant financial 
difficulties; loss of friendships; loss of credibility and trust in the 
eyes of some; etc. I've felt the stinging backhanded blow of 
professional peers and the abandonment of many alleged friends. The 
consequences of pornography affected me emotionally with a deep and 
permeating sense of shame and guilt. I've struggled with loneliness and 
feelings of abandonment, rejection and betrayal. The pain at times has 
been crushing. My anger toward pornography is intense--it cost me all 
this and more while the pornographers make billions.
    In addition to the external measurable consequences, addiction to 
pornography also affected me emotionally and thwarted my development of 
appropriate relational and coping skills. I feel it caused me to 
objectify women seeing them as nothing more than a means to satisfy my 
desires. I grew less satisfied with my wife's affection, physical 
appearance, sexual curiosity, and sexual performance proper. Sex 
without emotional involvement became increasingly important. It created 
feelings of power and control and led to me becoming a manipulative and 
controlling person to those closest to me.
    Thousand of dollars, hours of guidance by a professional Christian 
counselor, hours in support groups and with accountability partners 
resulted in health and healing and freedom. But the road is uphill and 
difficult. It is easily the hardest thing I have ever done in my life 
to find freedom from pornography. I feel my relapse will begin when 
active recovery stops. There is no standing still, taking a breather, 
or pausing for a rest. When the forward motion ends, the backward 
motion starts. A recovering addict likened it to a tide: It is either 
coming in or going out, and it never stands still.
    I'm glad the Lord I serve is the Lord of the Mulligan. My God has 
helped me to get up off the ground and get back into the game. ``Hey 
kiddo, let's take a Mulligan on that one, okay, and start again. But 
this time let's don't include pornography in the game?''
    Centuries ago, John Chrysostom wrote, ``The danger is not that we 
should fall . . . but that we should remain on the ground.'' At times 
over the last few years I have thought there is no tomorrow because of 
pornography, but the sun has been coming up each day. I've been able to 
come to a better place but not until I found freedom from pornography.
    Sustained by God's unmerited favor, Jody Burgin.

    Mr. Tauzin. Thank you very much, Mr. Burgin.
    The Chair will recognize members in order for 5 minutes. 
Let me begin by asking, I guess, the legal side of the 
equation. We are told it is impossible, difficult or legally 
indefensible to bring an obscenity case on the Internet because 
of the concern that the Miller test by the Supreme Court does 
have a community standard feature: that it, one, requires on a 
national test the material be prurient, appeal to the prurient 
interest; second, that it is patently offensive, which is also 
a national test; but the third test which is based on a 
community standard is that it has no artistic, political, 
scientific or literary value based upon those community 
standards.
    Now, what is different about the Internet in regard to 
enforcing the 3-point Miller test? Would anyone like to handle 
that?
    Mr. Flores. Mr. Chairman, what I would say is that first of 
all, the test, what we call the LAPS test, literary, artistic, 
political and scientific test, is actually judged by the 
reasonable person, so that is much more akin to a national 
standard which should not really put anybody at any substantial 
distress. And let me just say that the Justice Department, if I 
saw an accurate copy of the deputy assistant's testimony, is 
going to talk to you about the Thomas case. The Thomas case was 
prosecuted before the 1996 amendment. That was a specific 
argument that was raised by the defendants and rejected by the 
court of appeals, and the Supreme Court refused to accept 
certiorari, so that case died right there.
    Mr. Tauzin. Let me ask you in the offline world, if a 
violator of the Nation's obscenity laws were to mail or send in 
a package with UPS obscene material to a site elsewhere in the 
country, would not the obscenity laws still provide a vehicle 
for prosecution either at the site where the material was 
mailed or at the site where it was received, based upon the 
community standards test?
    Mr. Flores. That is correct, Mr. Chairman.
    Mr. Tauzin. I guess what I am asking, what is different on 
the Internet, where a potential violator who wishes to send 
obscene material over the phone wires, over a cable system, 
over a satellite structure, over terrestrial wireless 
structure, sends it from a point of location to another point 
where it is being viewed or in some way copied, what have you, 
in a way that does violate the obscenity laws of that 
locality--could not a prosecution be made both at the point 
where the material is first sent over those systems of 
communications, over the Internet or over a phone line, or at 
the point where it is being distributed in a community which 
has community standards, that would clearly define that 
material as obscene?
    Mr. Flores. That is right, Mr. Chairman. Not only that, but 
that is what guarantees that our communities are going to have 
freedom, because if we had a national standard, then every 
community would be forced to abide by one separate standard. 
This is what allows Californians per se to have a different 
community standard and those in Memphis or Maine or anywhere 
else to have a separate one. And the fact that it is on the 
Internet, I mean folks who use the Internet now should know at 
least one thing; and that is, once they release that material, 
they know that it goes into every community. In fact, that is 
what they are banking on.
    Mr. Tauzin. In fact, the fact that some of these companies 
are actually going public, as you point out, going into IPOs 
and raising incredible amounts of money, would that be 
occurring on Wall Street absent this--what Ms. LaRue called 
this ``benevolent neglect'' in terms of prosecuting these 
companies for distributing obscene material?
    Ms. LaRue. I don't believe so. In fact, I believe that Wall 
Street and others assume that because this material is rampant 
on the Internet, that these people are providing a legal 
product. Certainly we wouldn't have the promotion by legitimate 
business of an enterprise that is constantly producing material 
that violates Federal law.
    Mr. Tauzin. In regard to the laws here, can the State 
authorities equally process these laws and bring cases against 
companies that are located in, let us say California, that is 
going forward with an IPO to distribute this material around 
the country and around the world?
    Mr. Flores. There is certainly a sphere of control that 
States have in this area but they certainly don't have the 
tools nor do they have the ability, because the Justice 
Department has jurisdiction over the entire United States. They 
don't have the jurisdictional problems and disputes, and they 
have a unified Federal system. So this is what makes the 
Federal Government the best place to spend the limited money 
that is available to do this, but because of the abdication, 
many States and localities are having to take this battle on 
even against traditional pornographers because that is the only 
people who do it.
    Mr. Tauzin. You call it an abdication. You call it benign 
neglect. I guess I want to ask the right question. Have cases 
been brought to Justice and Justice refused to prosecute them, 
or is Justice in your opinion just not looking to make a case? 
What is the story?
    Mr. Flores. Mr. Chairman, I know that when we met in 
October, as Ms. LaRue indicated, I brought to their specific 
attention the fact that Amateur Action, the subject of the 
Thomas case, was back in action and this time they were selling 
on the Internet movies which depicted amputees engaging in 
different types of penetration. This material wasn't education. 
It wasn't scientific. It wasn't offered as a way to teach those 
who are disabled. This is incredibly prurient and patently 
offensive material. I brought it to their attention and clearly 
what came out of that was that simply they have a different set 
of priorities.
    Mr. Tauzin. Ms. LaRue, you had your hand up.
    Ms. LaRue. Yes, I can attest to that. And also as to your 
question about States enforcing obscenity laws on the Internet, 
I personally assisted the pornography section of the Los 
Angeles Police Department to prosecute a computer bulletin 
board service operating in California. They got a conviction in 
that case. And by the way, the same type of argument was raised 
about community standards in that case, and I drafted the legal 
memo that the court accepted, and that argument lost, just as 
it did in the Thomas case to which Mr. Flores referred.
    Mr. Tauzin. Thank you, Ms. LaRue. The Chair recognizes the 
gentleman from Ohio, Mr. Sawyer, for a round of questions.
    Mr. Sawyer. Thank you, Mr. Chairman, and let me thank all 
of our witnesses for your testimony today. It has been 
illuminating, and, Mr. Burgin, in some cases just tragic.
    We find ourselves dealing not only with questions of the 
situs of prosecutions or origination of materials that all of 
us would find offensive when we are talking about prosecutions 
within the United States under U.S. law.
    Have any of you given thought to the problems that arise 
with sites that originate in the United States but which 
actually transfer materials outside the United States; or the 
reverse, where sites are generated outside the United States 
and sending materials in? Do you have thoughts on how we 
address that?
    Mr. Flores. Mr. Sawyer, I would direct you to page 5 of my 
testimony. I just note that on March 9 of this year, deputy 
assistant Attorney General Kevin Di Gregory took justifiable 
pleasure in announcing that the week before his testimony a 
jury in Federal district court in New York found Jay Cohen, 
owner of an Internet gambling site in Antigua, guilty of 
violating Title 18, Section 1084, a statute that makes it 
illegal for a betting or wagering business to use a wire 
communication facility to transmit bets or wagers in interstate 
or foreign commerce.
    Under the same theory that the Justice Department used to 
obtain the gambling conviction, there's no question that they 
would have the ability to do it. In fact there are cases, these 
deal with child pornography, which were prosecuted during the 
time that I was at the Justice Department, where foreign 
distribution, as soon as it went into the mailbox, they were 
able to initiate the prosecution because it was destined to 
come back to the United States. What the courts require is a 
substantial connection to the United States. So the court has 
oftentimes said that the only way to address these issues, 
really, is globally. So the Justice Department, I believe, is 
in the premier spot to really take some effective action.
    Is it going to be perfect? I don't think so, but we don't 
ask that of any other area of law enforcement, and so I think 
that would be an inappropriate question for the Justice 
Department, or a level of success that they would require from 
this area they don't require from anywhere else. And we do drug 
prosecutions all over the globe, we do fraud prosecutions, 
copyright prosecutions. I mean, we are a very aggressive global 
litigator in every other area.
    Mr. Sawyer. Let me ask about problems that are perhaps 
unique to the Internet. We have talked in a number of arenas 
about the problems of mirroring, where one site transmits 
another. Who is guilty in a circumstance like that, or does 
everybody who touches digital pornography become guilty or 
potentially guilty of the kinds of crimes that you would like 
to see prosecuted?
    Mr. Flores. With respect to that question, I guess I would, 
if I were sitting back at Justice, the way I would answer that 
question would be to take a look, first of all, to see whether 
or not the major players really are hidden from view in that 
way, because the reality is that there are, you know, tens of 
thousands of sites out there, but they are not owned by tens of 
thousands of discrete companies and individuals. And I think 
very quick research by the FBI, which is very capable, as well 
as my former colleagues at the Department, they could easily 
identify the top 20 or 30 companies. Many of them operate out 
in the open with a real office, real business records. They 
have got those servers here in the United States as well as 
overseas.
    And so as we did when we started this fight in the late 
eighties, early nineties, what we have to do really is pick out 
the best targets. We do have limited resources. I don't think 
the mirroring problem would present at all an issue, either 
investigatively or legally, to prosecution of proper targets.
    Mr. Sawyer. Finally, very quickly, as technologies merge, 
do you see a need to treat television and the Internet 
differently because of the nature of the medium or simply 
recognize that these are pornography and obscenity laws that 
need to be enforced regardless of the medium through which they 
are transmitted?
    Ms. LaRue. That is certainly the approach that we would 
advocate. It also is what the Supreme Court has made clear, 
again in the Reno versus ACLU case, that obscenity distribution 
is illegal through any medium and the law applies to any 
medium.
    Mr. Sawyer. Thank you, Mr. Chairman.
    Mr. Tauzin. I thank the gentleman. The Chair recognizes the 
gentleman from Oklahoma, Mr. Largent, for a round of questions.
    Mr. Largent. Thank you, Mr. Chairman. Mr. Flores, I would 
like to ask you, if I could, a few questions. We have had the 
Attorney General up on the Hill before various committees. A 
number of my colleagues have questioned her about this specific 
issue, about the lack of prosecution on obscenity cases, and 
when pressed for answer she would begin talking about the 
prosecution rates on child pornography and stalking; basically 
not addressing the real question, which is the obscenity issue, 
which is the focus for this committee hearing. And I would like 
you maybe to just give us a 2-minute primer on the difference 
between child pornography and stalking and obscenity cases, 
which is what we are trying to address here in this hearing 
today.
    Mr. Flores. Well, beginning first with probably the 
easiest, child pornography, in 1982 the Supreme Court, in a 
case we refer to as the Ferber decision, removed the whole area 
of sexually explicit material dealing with children. They took 
it out of the obscenity framework, so that it was no longer 
necessary for a prosecutor to prove that the material lacked 
value. In fact, Justice O'Connor in her concurring opinion 
noted that it really didn't make a difference to the child who 
was sexually exploited whether the material had value, and so 
if you had an Ansel Adams-quality photograph, that child is 
still being sexually abused. And for that reason, child 
pornography stands separate and apart as a type of material 
which is illegal. And recently the Congress took the last step 
in closing out the last loophole, which is to simply say that 
all possession of child pornography, even one item, is a 
Federal violation.
    Child stalking is a growing problem, and that deals with 
people who are out there seeking children for the purposes of 
sexual activity. This is not a new problem, but it is growing 
at a phenomenal rate, to the point where I was at a briefing 
that was held by Congressman Frank's office last year, where 
the FBI let us know that for all intents and purposes, they 
were now really focusing solely on child stalking, it had 
become such a big problem, and that with the exception of very 
significant child pornography cases, they were being forced to 
really just address that issue.
    Obscenity, however, captures a broad set of materials and 
it is a term of art, a legal term of art, so that no lawyer 
should ever be confusing child pornography with obscenity, 
because obscenity is that material which passes a 3-part test. 
The first two prongs of that test are judged by contemporary 
community standards. The third is judged by the reasonable 
person test, and so it is not confusing. In fact, in a 3-year 
period, as I said I think earlier, we had over 120 convictions 
against no losses, as I recall, and there were fines and 
forfeitures of over $21 million in that period of time.
    So the pornography industry certainly understands what we 
are talking about because, as a result of that effort, they 
stopped sending out, for the most part, unsolicited sexually 
oriented advertisements which today on the Internet is spam. 
They stopped carrying the most revolting material, primarily 
real sadomasochism and bathroom-related sex, and they stopped 
sending material entirely into certain communities where the 
community standard was very well-known.
    So the term ``obscenity'' is also known extremely well to 
the ACLU and to litigants in the first amendment context, 
because in the CDA case, in the COPA case, they have not even 
begun to challenge whether or not those laws apply to the 
Internet.
    Mr. Largent. So what I hear you saying is that the 3-prong 
test that was established in 1973 is just as applicable to the 
Internet as it is to any porn shop that we traditionally think 
of back in the seventies or the eighties. The Internet really 
has had no effect on the legal term of art, the definition, the 
execution, prosecution of the law that we had prior to the 
Internet?
    Mr. Flores. That is correct.
    Mr. Largent. Okay. Ms. LaRue, I know that part of your 
testimony you talked about the meeting that you had in October 
with the Department of Justice. It is my understanding that at 
that meeting that you submitted some specific porn sites to the 
Department of Justice. What was their response in regards to 
those specific porn sites?
    Ms. LaRue. Well, in both the meeting and the follow-up 
letter, Mr. Robinson said they found the suggestion that they 
enforce that provision of COPA--which makes it illegal to 
distribute obscene material to minors--be applied to the sites 
that I suggested. And he said he found that interesting and 
that they would consider it.
    Mr. Largent. But the distribution of obscene material to 
anybody, adult or child, is illegal under current law; is that 
correct?
    Ms. LaRue. Absolutely. But under COPA, Child Online 
Protection act, there was a provision added to the Federal code 
that brings an enhanced penalty for anyone who knowingly 
distributes it to a minor.
    Mr. Largent. So the law got better?
    Ms. LaRue. Yes.
    Mr. Largent. Not worse.
    Ms. LaRue. Yes; doubled the penalty if you distribute to a 
minor under the age of 16. And there is currently a bill 
pending by Mr. Tancredo that would increase that to under 18.
    If I might add to your comment about child stalking and 
child pornography, while no one here on this panel, I know, 
thinks that those aren't serious offenses, aren't we focusing 
on lesser--if you look at what has happened in New York City at 
the reduction of the crime rate, murder dropped 50 percent not 
because New York police suddenly started enforcing the murder 
statute they always had. It is because they started enforcing 
the statutes against lesser crimes because the principle is it 
flips upward. If you send out the message that obscenity will 
not be tolerated in the United States, the pedophiles will get 
the message that they better not have their child pornography 
up there because certainly that isn't going to be tolerated 
either.
    And by the way, when it comes to child stalking, the 
effective tool in the hands of a pedophile is to use adult 
obscenity to desensitize children and to educate them into what 
the pedophile wants. So when we are asking that the obscenity 
laws be enforced, we truly believe that if it is done, that 
these other crimes will take care of themselves.
    Mr. Largent. I yield back, Mr. Chairman.
    Mr. Tauzin. The Chair recognizes the gentleman from Texas, 
Mr. Green, for a round of questions.
    Mr. Green. Thank you, Mr. Chairman. Mr. Flores, what years 
were you at the Justice Department?
    Mr. Flores. 1989 to 1997.
    Mr. Green. Okay. So you were there during the beginning of 
the explosion of the Internet in 1997?
    Mr. Flores. Yes, sir.
    Mr. Green. It started, I guess, even after I was elected to 
Congress in 1993, still people didn't know what Internet was 
back then.
    I want to commend you on your statement on page 7 where it 
says, ``Our Constitution protects speech but it does not 
protect obscenity,'' and I agree. We--in Congress we have tried 
for many years to pass laws that the Federal courts keep 
explaining to us that there is a difference between obscenity 
and pornography, and we can prohibit obscenity, but we have 
trouble prohibiting pornography to adults.
    Most recently Congress passed the Child Online Protection 
Act and the President signed it in October 1998, a Federal 
judge in Philadelphia then immediately issued a preliminary 
injunction, and the Justice Department has announced they are 
going to appeal that ruling. Is there any update in status? 
That was in April of last year.
    Mr. Flores. We are waiting for a decision in the Third 
Circuit.
    Mr. Green. I guess my concern is generally that testimony--
is that the Justice Department is not prosecuting as 
aggressively as they should be and aggressively as they did 
while you were there, and I know that is important to me 
because I want to see it happen. I also know that you know we 
pass laws and oftentimes the courts have a different 
interpretation than we do as Members of Congress. And I also 
agree that the legal definition of pornography and obscenity 
shouldn't be changed or it shouldn't matter what the medium is, 
whether it is the mail, the TV or the Internet. And it may be a 
little more difficult, but as you said in your testimony, you 
can prosecute even offshore facilities by attaching the assets 
here in our country, and we do that in lots of cases, both 
civilly and criminally.
    Ms. LaRue, one of the questions when you talked about the 
availability of the Internet in public libraries, I agree that 
if I was sitting on a city council I would not want my Internet 
capability in public libraries to have access to that type of 
material, and put a filter on it. I don't know if Congress can 
make that decision for the City of Houston or City of 
Philadelphia. I wouldn't want it in the libraries any more than 
I would want it in our committee records.
    I notice you place significant emphasis on Internet 
availability in libraries, and I am unclear. Should we not have 
Internet capabilities in libraries without filters, or should 
we just encourage the filters being on it in our public 
libraries?
    Ms. LaRue. We would encourage the Department of Justice to 
enforce the Federal obscenity laws, and we wouldn't have the 
problem that we have in public libraries.
    Mr. Green. Well, again, the availability of the Internet in 
a public library, I can walk in, whether it is myself or my 
children who are no longer minors, or my children who may have 
been minors at one time, and maybe our fight should not only be 
on the Federal level but also on the local level to say at a 
public library, I would hesitate to have my tax dollars being 
spent for access to that kind of information. So, again, I 
think it could be a 2-pronged effort and ensure the overall 
prosecution because--whether it is a public library or 
somebody's home computer. But do you believe libraries should 
have access to the Internet?
    Ms. LaRue. I have no objection to that at all. My objection 
is to the bringing in of illegal material through taxpayer-
funded government facilities, and we wouldn't be having the 
discussion here today, I don't believe, if the Department of 
Justice were enforcing the law.
    Mr. Green. Well, again, the courts have said that, you 
know, again whatever medium, whether it is Internet, mail or 
television, that pornography, we have a hard time defining 
that, and so the pornography may still be available but it is 
not obscene, at least under the definition, but that would 
still be available in the public libraries.
    Ms. LaRue. We are advocating the prosecution of hard-core 
pornography that the court has clearly given us examples would 
meet the definition in Miller versus California.
    Mr. Green. Of obscenity.
    Ms. LaRue. Yes. There is also State law available that 
prohibits the dissemination of material harmful to minors, and 
the Supreme Court in Reno versus ACLU took note of those State 
laws that are applicable as well.
    Mr. Laaser. Mr. Green, I would just point out that any of 
us who are therapists in this field have seen cases of 
teenagers, 11, 12, even 13-year-old children who have gone and 
accessed pornography in public libraries. I personally am 
treating a case of a child that accessed sadomasochistic 
activity at the public library. So it is available there, and 
they don't need to be that computer-sophisticated to get at it.
    Mr. Green. I guess my concern is that we should--again, we 
try to define what we don't want children to see, and of course 
the Supreme Court has said adults can see it. How do we 
differentiate between whether it is a child, 12-year-old or 13-
year-old sitting in that terminal, or adult? That is a local 
decision.
    Again, if I was sitting on a city council, I would say 
well, wait a minute, I am so fearful of my child seeing it, I 
would filter it out for anyone in the public libraries, and I 
don't know if they would allow us to prohibit that.
    Mr. Tauzin. The gentleman's time has expired. Anyone wish 
to respond?
    Mr. Flores. Just, Mr. Green, what I would say is that 
everyone is struggling with this issue. I know State government 
officials, library officials, who are struggling. The people 
who apparently are missing from the discussion, missing from 
the effort, is the Justice Department and that is a very big 
absence.
    Mr. Tauzin. The gentleman's time has expired. The Chair 
recognizes the Vice Chairman of the committee, Mr. Oxley, for a 
round of questions.
    Mr. Oxley. Thank you, Mr. Chairman. As the author of the 
Child Online Protection act, I take some particular interest in 
this issue, and we are obviously waiting for the Third Circuit 
decision, although I must admit I was somewhat taken aback by 
the Supreme Court decision announced yesterday regarding cable, 
which was a relatively minor effort to try to get some handle 
on that issue. And we hope that the decision ultimately by the 
Third Circuit or ultimately the Supreme Court has a different 
ending, but in the meantime I guess we learned that we need to 
rely on existing laws for our prosecution, and clearly 
prosecution equals deterrence.
    Ms. LaRue made a good point about New York City. All you 
have to do is visit Times Square today and compare it to when I 
lived in New York back in the late sixties, early seventies, 
what a huge change that has meant to just that area but, as 
well, the entire city. So, really, enforcement does provide a 
great deterrent to that kind of behavior.
    The unfortunate fact is that the prosecutions have declined 
significantly. As a matter of fact, Mr. Flores, do you know of 
any obscenity prosecutions in 1999 by the Department of 
Justice? We couldn't find any.
    Mr. Flores. Well, Mr. Oxley, there are a few obscenity 
cases that were done, but none in the way I think that you are 
asking the question. There have been zero cases done involving 
a Web site or anyone doing business over the Internet. There 
have been some people who have used the Internet to advertise, 
but they are basically running a mail order business. I think 
there is one case there, and then there may have been a few 
others.
    Oftentimes what you will see in child pornography cases is 
that they will include obscenity charges, and because the 
obscenity section is 1460 and following, as compared to the 
child pornography section which is 2251 and following, the 
obscenity charges lead off; and in the recordkeeping systems of 
the Justice Department, oftentimes it is the top charge, the 
lead charge that is recorded. And so unless you actually get 
the name and docket number and then actually look to see what 
the charges are that are brought, you cannot in fact identify 
what is going on.
    My best information, from talking to former colleagues and 
from folks across the country, is that there maybe have been a 
handful of cases done in the past 2 or 3 years that are really 
obscenity cases, and many of those stem from cases that were 
begun in 1993 and 1994.
    Mr. Oxley. Well, I want to personally thank you for helping 
us on COPA and all the work that your center did. Clearly we 
made enormous progress but there is a lot more to do.
    I was struck by a quote from a New York Times article in 
1986. The article was entitled ``X-rated Industry in a Slump. 
The pornographic industry's plight is due partly to legal 
challenges. With little help from the Reagan administration, an 
unlikely alliance of conservatives and feminists has persuaded 
many retailers to stop carrying adult magazines and videos, 
said Martin Turkle, one of the largest distributors of adult 
videos in the country. Next year is going to be the roughest 
year in the history of the industry,'' and indeed it was. The 
sales of adult videos at the wholesale level dropped from $450 
million to $386 million. That is compared to $3.9 billion, by 
the way, in 1996 which I am sure that those numbers have 
increased dramatically.
    And last, from the Los Angeles Daily News article, this 
says, ``Before Clinton took office, Los Angeles police were 
deputized by the Federal Government so they could help 
prosecutors conduct monthly raids on Valley pornographers. 
Under Clinton there have been no raids, said Los Angeles Police 
Lieutenant Ken Seibert. Seibert said adult obscenity 
enforcement by the Federal Government is practically 
nonexistent since the administration changed,'' end quote.
    Well, indeed, we are really in a trap here because if we 
have to rely on existing laws until COPA is determined to be 
constitutional--and there is some question now with the recent 
5-4 Supreme Court decision--so we are based in a situation 
where we have to rely on existing laws, and we rely very 
heavily on the Justice Department to carry out that law. And it 
is just not being done, and that is what the purpose of this 
hearing is about.
    I commend my friend from Oklahoma for pursuing this so 
doggedly, because it does point out, I think, that deterrence 
comes about because of strong law enforcement, and just the 
opposite happens when you don't, and we have seen those numbers 
increase dramatically.
    I was told during the COPA hearings, and I wonder if 
anybody can bear this out, that there are over 10,000 
commercial pornographic Web sites out there. Is that accurate?
    Ms. LaRue. That is too low. The estimate is more like 40- 
to 100,000 sites.
    Mr. Oxley. Just domestically?
    Ms. LaRue. Yes.
    Mr. Oxley. That is a frightening figure. It gives you an 
indication about how the pornographic industry really has 
gotten the upper hand in this whole equation.
    Thank you, Mr. Chairman.
    Mr. Tauzin. The Chair recognizes the gentleman from 
Florida, Mr. Stearns, for a round of questions.
    Mr. Stearns. Thank you, Mr. Chairman, and I want to thank 
you for having this hearing and I want to thank my colleague 
from Oklahoma for his hard work on this.
    Mr. Burgin, I am going to compliment you for your personal 
courage. The witnesses we have today are here to testify and 
the witnesses from the Department of Justice are here to 
testify, but they don't have the personal courage and strength 
that you have, and I want to compliment you for it and thank 
you for it, and I think everybody who has a family should 
certainly understand what you have been through.
    I think the concern I have--Mr. Largent has given me a 
chart here to show, you know, the difference between obscenity 
and indecency and so forth. Because the Internet is so 
pervasive, did you find this addiction, this sedating effect 
because of its availability through the Internet, did you have 
this feeling that because it is in--I guess what I am asking 
is, did this start before the Internet or was the Internet the 
start of this whole process? Because you can go into the 
magazine stores, you can see it in television. As you know, 
here in Virginia, in Metropolitan Washington, Maryland, the 
cable TVs have scrambled the pornography, but the scrambling--
the voice is still available and scrambling is not complete. So 
I mean, I think we have to pass laws, but I am concerned a 
little bit about how this came about, I guess, and that is my 
question.
    Mr. Burgin. Okay. My own personal experience predated the 
Internet. My father introduced me to pornography during my 
adolescent years. I went underground for many years on and off 
dealing with the issue. What happened in the eighties when I 
discovered the Internet is that my addiction accelerated. It 
took off and went to a completely different level, mainly 
because of its ease of access and was so easy for me to hide 
and to mask from my own family, from my wife, from my children. 
So the Internet for me provided ready access, and it caused my 
addiction with pornography to accelerate to a different level.
    Mr. Stearns. Dr. Laaser, I would like you to participate 
because I was going to ask you, in the patients you have 
treated, how many would you classify as addicted to obscene 
material, which is illegal, as opposed to those who are 
addicted to legal pornography? That is the next question.
    Mr. Laaser. I just wanted to commend you about your 
question about etiology, about where does it start. And my 
answer to that would be that we are seeing today a population 
of addicts that might not otherwise become addicted because of 
the easy access to the Internet. In other words, my clinical 
colleagues are beginning to speculate that, you know, there are 
a whole set of people whose prohibitions would be such that 
would keep them from going to a bookstore, whereas the access 
on the Internet is allowing them to get in and get addicted.
    So there is, like Bill W. of Alcoholics Anonymous would 
call a new level of low bottom of sexoholics out there, low 
bottom drunks getting addicted that wouldn't have been. I just 
wanted to say that even though Mr. Burgin represents a history 
of pornography before the Internet, we now today have an 
epidemic of sexual addicts who started on the Internet that 
might not otherwise be addicted.
    In terms of your question, you want me to go ahead and 
respond?
    Mr. Stearns. Sure.
    Mr. Laaser. The percentage would be--it depends a lot on 
how you define obscene. I would say that in my definition of 
obscenity, would be a lot lower, or however you define it, in 
terms of I think there are magazines available at the airport, 
where I will be later this afternoon, that are obscene. So you 
know, virtually 99 percent of the material that is available on 
these Web sites in my estimation is obscene. I bring a certain 
moral perspective to that that all might not share. So in that 
case, 100 percent of my clients are addicted to obscene 
material.
    The percentage of those that might get into the violent, 
those are all people that have, you know, emotional disorders 
that are underlying the addiction that need to be present, but 
what we are seeing is that more people are escalating to higher 
levels of addiction today than would have been the case just 10 
years ago.
    Mr. Stearns. And now they are probably on a 56K modem.
    Mr. Laaser. That's right.
    Mr. Stearns. But wait until we have broadband in which we 
have instant video and everything that goes with it, and 
eventually the high definition television. So what we are 
talking as a beginning stage here is if we think we have a 
problem now, once we get broadband.
    Mr. Laaser. All right. Today, with virtual reality 
available, the prostitutes, the world's oldest profession, have 
been certainly creative. You can access prostitution on the 
Internet. As I say in my written testimony, I had a client this 
February who spent $85,000 on prostitution on the Internet. In 
other words, clicked in visual images being projected because 
the prostitute had a camera focused on herself. Those kinds of 
sites are available today all over the Internet for credit card 
moneys. You can pay your $2- or $300 at a shot.
    So as computer technology improves and virtual reality 
improves, we are going to have interactive prostitution 
exchange. So I would commend this committee to get on top of 
this now because it is definitely getting worse.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Tauzin. The Chair recognizes the gentleman from 
Maryland, Mr. Ehrlich, for a round of questions.
    Mr. Ehrlich. Doctor, I worked with these issues in the 
State legislature, particularly pedophiles and pedophilia. 
Would you care to comment with respect to what you just talked 
about, the unlimited--or what Mr. Stearns talked about--the 
unlimited access that we are talking about here with respect to 
studies that you are familiar with concerning organized 
pedophiles? And I know there are actually groups out there that 
march, that God knows will probably apply for 501(c) status 
sometime. This is a very serious concern. It kind of gets lost 
sometimes in the course of this debate.
    Would you give me your knowledge with respect to how this 
unlimited access problem has impacted numbers of pedophiles and 
organization thereof?
    Mr. Laaser. Obviously, we are dealing with a population 
that is very secretive so academic research into the increase 
of the number of pedophiles has been rather limited, but I 
would say that all of my colleagues, including those who have 
written in a recent journal devoted to the issue of Internet 
pornography, are estimating that we are seeing a dramatic rise 
in pedophilish activities.
    One of the rituals that your average pedophile will use is 
to show a child images of pornography, so that what we are 
seeing today is that the pedophiles who are generally hiding 
out in the chat rooms, disguised in a variety of forms, are 
engaging the trust level of the child. And then they are able 
now electronically to transmit images either of fairly soft 
stuff to begin with, again to gauge the trust, but then of 
themselves and other kinds of activities.
    The easy accessibility of this, we believe, is increasing 
the numbers of pedophiles and certainly increasing the number 
of kids that are at risk to this.
    Mr. Ehrlich. The empirical data I am familiar with reflects 
the fact that pedophiles, almost to a person, were abused as 
children.
    Mr. Laaser. That is right.
    Mr. Ehrlich. And of course what you are talking about plays 
into that as well.
    Mr. Laaser. Your average pedophile was abused as a child, 
and the research would indicate that your average pedophile 
will offend against a child within a 1-year variance of the 
year at which they were abused. So that if a child was sexually 
abused at age 5, a pedophile's victims will normally be between 
the ages of 4 to 6. So that, yes, what you are calling is the--
it is kind of what we refer to as a trauma bond; in other 
words, a victim becomes a victimizer. That is not a universal 
principle, but certainly your average pedophile today is an 
abuse victim.
    Mr. Ehrlich. Your average pedophile, I guess the profile is 
such that you are not talking about one instance, you are 
talking about multiple offenses?
    Mr. Laaser. No. Your average pedophile has at least 80 
victims by the age of 35.
    Mr. Ehrlich. To anybody on the panel, with respect to some 
of the sites that you are familiar with, how many are out there 
dedicated to the whole problem of child sex, pedophiliacs, et 
cetera?
    Ms. LaRue. They certainly advertise the material as appeals 
to pedophiles because it refers to teen sex, barely legal, 
little girls, Lolita, all of the kinds of terms that would be 
meaningful to a pedophile looking for material. And so you see 
individuals where, even if you cannot be certain that they are 
under the age of 18, they are portrayed in that way, they are 
advertised in that way, and they are engaging in all kinds of 
hard-core sex acts.
    Mr. Laaser. I would confirm the fact that we are seeing an 
epidemic of disguised child pornography. In other words, the 
models, you know, there is a fine print that says that the 
models are 18, but they appear to be 12 or 13. I would even 
say--and I am not going to mention the magazine--but there is a 
cover of a recent magazine this month in which the model on the 
cover would appear to me to be 13 or 14.
    So I mean, this is affecting us culture-wide, but on the 
Internet, particularly from some of the foreign Web sites, we 
are having a lot of direct stuff coming. But if you go into any 
bookstore today, you will see magazines like the Barely Legal 
magazine, Just 18, things of that nature. There is an epidemic 
rise in interest in this.
    And, by the way, my clinical colleagues would want me to 
say that pedophilia is technically sexual interest in a child 
12 and under. What we are talking about here with this teenage 
sexuality is 18 and under, and we refer to that as hebephelia, 
but it is a rampant problem and, again to say it for the 10th 
time, growing in epidemic proportions.
    Mr. Flores. I would like to add two things. One is that the 
Safeguarding Our Children, United Mothers and Cyber Angels has 
a list, and their estimation is there are approximately 40,000 
sites devoted to this type of topic. Whether they range from 
actual child pornography or pseudo-child pornography, I don't 
know.
    Mr. Ehrlich. When you are talking about 40,000 sites, you 
are talking about child pornography?
    Mr. Flores. Sites which pander to what would most people 
would think would be sex, interest of sex with children. But I 
think that, you know, one of the things that you would normally 
see is that in most of the Justice Department's prosecutions of 
child pornography, they really focus on a very--and when I was 
there, I did the same thing--we focus, we try to say from the 
bright line, from the age of 18, because quite frankly there 
are a ton of cases out there and it is like shooting fish in a 
barrel.
    But what it means is that because many of the men and women 
or boys and girls that are depicted in this pseudo-child 
pornography can be anywhere between 13 and 18, and they have 
adult bodies, but these are bodies which also correspond to, 
you know, a body type of someone without big hips or big 
breasts or what you would normally acknowledge to be an adult 
woman. We don't know, because we don't know who those children 
are. We don't know how old they are. We don't know the 
pornographer. Is the guy honest in telling us, yes, I have 
verified, I have checked the birth certificate, I have checked 
the driver's license? And this is a particularly vulnerable 
age, especially today.
    I remember as a teenager I wanted to be 21 in just a 
horrible way, and so to be treated as an adult, to be treated 
as mature, is of great interest. And so we have all of these 
children that are out there, and I for one as I look at some of 
these images that are offered as adult, barely legal, just over 
18, I wonder if many of them are 13 or 14 and 15. And it would 
seem to me, even if you didn't want to tackle some areas of 
adult obscenity, this would be an area that cries out for 
attention because these are our kids.
    Mr. Ehrlich. Well put, and my time is up. Thank you all 
very much.
    Mr. Tauzin. The Chair recognizes the gentleman from 
Mississippi, Mr. Pickering, for a round of questions.
    Mr. Pickering. Thank you, Mr. Chairman. I want to thank you 
for having this hearing today and allowing us a chance to 
listen to the panel and to see if there is something that can 
be done to gather and garner the attention of the public and 
the Justice Department of the great need to protect our 
children, to fully enforce both obscenity and child pornography 
laws. I want to thank Mr. Largent for all of his hard work in 
this area and being the force behind this hearing.
    I think Mr. Largent is right: If we enforced our obscenity 
laws, a lot of the other efforts that many of us are doing--I 
have a bill, for example, that would require all schools and 
libraries to have a filter or a blocking device if they accept 
an e-rate. In many ways, that could protect our children from 
many of the harmful effects of both obscenity and pornography 
as well as other sites that induce violence or hatred that we 
are seeing in school-age children that have access.
    Let me ask Ms. LaRue and other members of the panel, if the 
Justice Department continues its laissez-faire approach to 
obscenity, would a national policy for our schools and 
libraries of finding some protective filter or blocking or some 
policy, do you think that would be a helpful step as well to 
protect our children? Ms. LaRue.
    Ms. LaRue. Mr. Pickering, this problem is so serious and so 
pervasive that we have to do everything we can to protect the 
children of this country and to prevent more victims who will 
become addicts to this material and to do, as the Supreme Court 
said, to hope to maintain a decent society.
    However, with all due respect, and I certainly support your 
bill wholeheartedly, and I think you will agree with me, when 
we talk about filtering and all that parents can do, we are 
talking about almost Band-Aid applications to an epidemic. To 
me it is like telling the citizens of a particular community 
where the dam is breaking. Well, you can go down to the local 
fire department and get some free sandbags. It is time to fix 
the dam. It is time to hold those accountable who have 
jurisdiction over this dam that has burst on this society, to 
enforce the law and to prevent us from having more victims and 
turning our libraries into virtual dirty bookstores.
    There is an incident in this book, one of the more than 
2,000, where a 13-year-old boy in Phoenix, Arizona went into 
the men's room of the public library and offered a 4-year old 
boy 25 cents if he could perform a sex act on him. I have a 
copy of the police report. When the police interrogated this 
13-year-old boy about why he did this, where he learned this, 
he said, I come in here every day and I look at pornography. 
And, by the way, he just happened to get into a chat room with 
a pedophile, who dared him to do that very thing, to try to 
commit a sex act on a younger child.
    And so, yes, while I support your bill and I applaud you 
for it and for others like it, we just can't rely on that. We 
have to have the Department of Justice enforcing our Federal 
obscenity laws.
    Mr. Laaser. I am sorry to keep interrupting.
    Mr. Pickering. Let me ask you, Mr. Laaser, what are you 
seeing in your practice as far as children who may be exposed? 
You had mentioned one case, access of an 11-year-old boy who 
acted out on what he was seeing at a public library. Are you 
seeing other children, whether through their school or through 
libraries, that are having the manifestations of problems that 
can really be destructive?
    Mr. Laaser. Very definitely. As I think I have said before, 
we are seeing a rise in the cases of teenagers who are at that 
age, 12, 13, 14, 15, addicted already to sexuality in general. 
We are seeing an increase in the numbers of kids. It used to be 
that you would not expect a 7-, 8-, 9-year-old to present with 
problems of having seen pornography. Today we are seeing those 
cases.
    Mr. Pickering. Now, do many of them talk about their access 
being schools or libraries?
    Mr. Laaser. Yes, absolutely. Yes. I mean, you know, parents 
of minors, parents who are providing Internet filtering devices 
like the one presented here today, I mean they can still go to 
their public schools and get it there. I would challenge--and I 
get myself in trouble. We could go to any public school within 
a 50-mile radius that has online access and we don't need very 
many computer skills and we could get into the hardest and most 
violent core types of pornography.
    Mr. Pickering. Mr. Flores, let me ask, you are legal 
counsel on the subject of filters for schools and libraries. 
Yesterday I was very disappointed. When I was working on 
Senator Lott's staff and on the Telecommunications Act of 1996, 
I worked on the amendment that would require the cable systems 
to fully scramble the pornographic or adult sites. That was 
struck down on a 5-to-4 decision yesterday. It was the Lott-
Feinstein amendment.
    Would you see any, based on current court precedent 
decisions, would you see any legal or constitutional challenges 
to a bill that would require schools and libraries to use 
filters if they accept the e-rate?
    Mr. Flores. The Supreme Court has provided broad latitude 
to the Congress to condition receipt of its money on action by 
State and localities. Obviously it has to be done within 
certain limits. It is not carte blanche, and I don't think that 
many Members of Congress really want to impose a straitjacket 
on any community, but certainly I don't think that there would 
be a constitutional problem with that. I think that falls 
probably more into the area of just plain politics.
    I would, if I could, just follow up on Dr. Laaser's 
comments. One of the things that you will hear probably from 
the Justice Department is about a case called the Orchid Club, 
and I worked with the assistant U.S. attorneys who were 
prosecuting that case, and it is such a revolting case that it 
is hard to really conceive that actions like that took place. 
But I think that is part of the issue, is that there is a sense 
of lawlessness on the Internet because the marshal is not 
there. I mean, there just does not seem to be--and this cuts 
across a number of areas from copyright and fraud, penny stock 
manipulation.
    The other issue is that the Justice Department is spending 
a substantial amount of money working on important efforts, 
things like violence against women, trying to make sure that 
there aren't unconstitutional glass ceilings, making sure that 
girls get access to science and math programs. And all of these 
are jeopardized if we have a generation of boys who are going 
to grow up addicted to material which teaches them that girls 
like sex with humiliation and pain; that the secretaries 
really--that is her job, is to make the boss happy, not to 
really carry out official business. I mean, this sends just 
horrible messages which undermine--even the date rape drug, 
Rohypnol, that Attorney General Reno focused on a number of 
years ago, we are going to see an explosion in date rape 
because this material teaches one consistent message: No does 
not mean no. And the early Playboy philosophy was that it is 
every man's job in life to relieve women of that nasty little 
fact, their virginity. This is a consistent message and it 
places even DOJ programs at jeopardy.
    Mr. Tauzin. The gentleman's time has expired. We are faced 
with a choice here that I want to perhaps ask your assistance, 
Mr. Gershel. We are finished with this panel, and what I would 
like to do is give everybody a lunch break and come back at 
1:30 if that's acceptable to you.
    Mr. Gershel. That will be fine.
    Mr. Tauzin. While he is discussing it, let me take care of 
a point of business and get back to you. Ms. LaRue, we have 
examined with legal counsel your request. If you would like to 
reenter your request we can accept your material provided that 
it be filed in the permanent record of this proceeding, not for 
duplication, which is the normal process I think. Is that 
acceptable?
    Ms. LaRue. It certainly is.
    Mr. Tauzin. Then, without objection, her material will be 
accepted by the committee, filed in our permanent record.
    The gentleman from Texas.
    Mr. Green. Mr. Chairman, I understand there is a committee 
hearing in this room, at 2:30 in this room. Even more so, I 
would like to follow up while we are discussing, and I 
understand Ms. Stewart with FamilyClick.com actually has an 
Internet service that libraries could buy that is between the 
ISP and the libraries, and I would just like to know that 
because I think--in fact, I agree with my colleague from 
Mississippi's legislation, and I know the technology is there 
to be able to do that.
    Mr. Tauzin. Let me recognize the gentleman to ask that 
question while I discuss with Mr. Largent.
    Mr. Green. Is that correct? And I apologize for not being 
here earlier because of votes and everything else. Is that true 
that the Houston public libraries and my Harris County public 
library in Houston can actually purchase that ability right now 
to have that?
    Ms. Stewart. Yes, sir. There are many filtering companies 
that provide filters, some better than others. The filters do a 
great job of protecting innocent searching, blocking, you know, 
the things that I pointed out. But if you want to find 
pornography, or you go in there for a specific purpose, you 
will find it. There is no way for us to block it all because it 
is coming online so fast every day. And also the images, we do 
not have the technology available right now to scan the images. 
We are testing with it. It runs on great multimillion dollar 
computers and it is impossible for us to put that online right 
now.
    Mr. Tauzin. The Chair will put Mr. Largent in the chair and 
we will continue the hearing so that we don't have to--
unfortunately, we won't have a lunch break, but that I think 
will keep everybody in the room.
    So, Mr. Gershel, we will proceed on time. Let me thank this 
panel very much and we appreciate your attendance. The record 
will stay open for 30 days. If you have additional information 
or submittals, you are perfectly free to do so, and members may 
have written questions within the 30-day period of time they 
want to send you.
    Again, thank you for your testimony and let me particularly 
thank you the two of you for your personal observations on your 
own personal history with this issue.
    We will now call the second panel, Mr. Alan Gershel, the 
Deputy Assistant Attorney General, Criminal Division, 
Department of Justice. Mr. Gershel, I was unhappy about the 
discussion we had this morning. I am very happy you stayed and 
listened to this panel, and what you have heard today may be a 
backdrop in terms of what you want to tell us in terms of the 
Justice Department's position on enforcing these criminal 
statutes. I thank you for being courteous enough to sit through 
the first panel and to hear their testimony.
    The Chair will ask you again, as we ask all our panelists 
to, without objection, that the written statement of Mr. 
Gershel is a part of the record, without objection. Mr. 
Gershel, we will be generous in terms of providing you 
additional time to make your presentation, and the Chair now 
recognizes you for that and recognizes Mr. Largent in the 
Chair.
    Mr. Largent [presiding]. Go ahead, Mr. Gershel.

STATEMENTS OF ALAN GERSHEL, DEPUTY ASSISTANT ATTORNEY GENERAL, 
CRIMINAL DIVISION, DEPARTMENT OF JUSTICE; ACCOMPANIED BY TERRY 
   R. LORD, CHIEF, CHILD EXPLOITATION AND OBSCENITY SECTION, 
            CRIMINAL DIVISION, DEPARTMENT OF JUSTICE

    Mr. Gershel. Mr. Chairman, good morning. Sitting on my 
right, I would like to introduce Mr. Terry Lord. He is the 
chief of the Child Exploitation and Obscenity Section. He is 
joining me up here this morning as well.
    Mr. Chairman, I welcome this opportunity to speak about the 
achievements of the Department of Justice regarding its 
prosecution of illegal use of the Internet to exploit our 
children. In the brief time that I have today, I would like to 
highlight what the Department of Justice has been doing. At the 
outset, I have heard the testimony about the proliferation of 
obscenity on the Internet. I know there are victims of Internet 
obscenity and that obscenity has damaged the fabric of many 
marriages.
    The Federal Government takes seriously its mandate to 
prosecute obscenity cases, and each year various United States 
Attorneys bring obscenity prosecutions against material they 
deem is obscene according to their own community standards.
    In considering the question of how to address illegal 
material that proliferates on the Internet, however, the 
Attorney General has given the investigation and prosecution of 
cases involving the use of minors in producing pornography the 
highest priority, and I can assure you that the Department will 
continue to do so.
    The visual representations of children engaged in sexual 
activity are the most pernicious form of obscenity because it 
necessarily involves an unconsenting victim. I would like to 
tell you about some of our efforts in this area.
    Child pornography prosecutions are at a nationwide all time 
high. According to figures provided to us by the executive 
office of the United States Attorneys, in fiscal year 1999, 
United States Attorneys filed 510 Federal child pornography 
cases concerning 525 defendants. During that same period, 378 
persons were convicted. In fiscal year 1999, the Department had 
a 90 percent conviction rate. This increase reflects in part 
our national effort to prosecute those who utilize the Internet 
to exploit our children.
    Here in Washington, D.C., the Criminal Division continues 
to coordinate the Department's efforts to prosecute traffickers 
of child pornography. Most recently, the United States 
Attorney's Office for the Northern District of Texas indicted 
five individuals.
    Mr. Largent. Mr. Gershel, if you will excuse me just for a 
second, we understand the Department has an excellent record on 
prosecution of child pornography. However, that is not what 
this hearing is about. So if you want to go ahead and cite 
statistics about things that this hearing has nothing to do 
with, that is fine, I will let you continue. But again, the 
focus of this hearing is on the prosecution of obscenity, not 
child pornography. You may continue.
    Mr. Gershel. Thank you, Mr. Chairman. With all due respect, 
we take the view that child pornography is the worst kind of 
obscenity, and we believe that it is a primary mission of the 
Child Exploitation Section at this time. I would like to 
continue with my statement. It is much along the same lines.
    As I indicated, here in Washington, the Criminal Division 
continues to coordinate the Department's efforts to prosecute 
traffickers of child pornography. In the case I just mentioned 
it involved five individuals, two Americans, one Russian, and 
two Indonesians, in a multiple-count indictment with sexual 
exploitation of minors, distribution of child pornography, 
aiding and abetting and criminal forfeiture. The two American 
defendants operated a credit card verification service that 
acted as an electronic gateway to the pictures and movies of 
minors' sexually explicit conduct. Also as part of the 
conspiracy, the American defendants operated a bulletin board 
service to capture customers, notices, promotions, 
advertisements and images of child pornography in order to 
market, advertise, and promote child pornography by computer.
    The Child Exploitation and Obscenity Section in 
collaboration with the FBI also helped to coordinate the 
Innocent Images project which was organized in 1995 to combat 
the trafficking of child pornography over computer networks. 
CEOS, as it is called, continues to work closely with the FBI 
on the Innocent Images project. The FBI is currently creating 
regional task forces to work these cases, and CEOS participates 
in training with the task force personnel.
    The CEOS works closely with United States Customs Service 
and its Cyber Smuggling Center, which has several undercover 
operations in effect. CEOS is working with the Customs Service 
on Operation Cheshire Cat, an international child pornography 
investigation. This operation was an outgrowth of the Orchid 
Club case to which I have referred in my written testimony.
    For the preparation for this project, CEOS worked with the 
Customs Service in 28 Federal districts to develop search 
warrant affidavits and provide other guidance. CEOS continues 
to provide technical assistance on this and other Customs 
Service child pornography projects.
    The Department also works closely with the United States 
Postal Inspection Service which has developed numerous 
undercover operations targeting Internet child pornographers 
who use the U.S. mail to ship child pornography materials. CEOS 
is currently working with the Postal Service on projects 
looking at the Web postings offering child pornography to be 
shipped via the mail.
    Our efforts to protect children using the Internet have not 
stopped at the national level, however. The Office of Juvenile 
Justice and Delinquency Prevention, OJJDP as it is called, in 
fiscal years 1999 and 2000 has provided funding for the 
establishment of 30 Internet Crimes Against Children Task 
Forces in several regions around the country that involve 
local, State, and Federal law enforcement working together on 
these crimes against children.
    Two attorneys from CEOS have been assigned as legal 
advisers to the task forces, and they regularly participate in 
the training programs for the task force personnel.
    We are also working with new tools enacted by Congress that 
enable us to quickly acquire information about violators from 
Internet service providers and to subpoena identifying 
information. Pursuant to the Protection of Children from Sexual 
Predators Act of 1998, Internet service providers are required 
to report incidents of child pornography on their system 
through the appropriate Federal agency. In November 1999, 
Congress amended the statute to require providers to report 
such incidents to the cyber tip line operated by the National 
Center for Missing and Exploited Children, which in turn 
contacts Federal and State law enforcement.
    The Protection of Children from the Sexual Predators Act 
also granted administrative subpoena authority to the 
Department in cases involving child abuse and child sexual 
exploitation. The Attorney General has delegated the FBI, 
criminal division of the Department, and the United States 
Attorneys' offices with power to issue these administrative 
subpoenas to Internet service providers who require specified 
identifying information about those who unlawfully use the 
Internet to sexually exploit children.
    The Department has also facilitated prosecution of Internet 
crimes against children on the international front as well. In 
September and October 1999, the Department attended an 
international conference on combating child pornography on the 
Internet in Vienna, Austria. We played a major role in the 
planning of this conference. During this conference, an 
Internet service provider discussed the development of an 
industry code of conduct to combat child pornography online and 
made several recommendations for the type of issues that must 
be covered.
    CEOS also works internationally with the European Union and 
the Council of Europe to develop protocols to combat child 
pornography. These protocols, which are still being negotiated, 
cover not only substantive criminal law regarding what conduct 
all countries must prescribe but also procedural guidelines for 
investigations that necessarily are international in scope.
    What I have presented today highlights just some of our 
efforts the Department of Justice has made to protect our 
families online. We have made a strong commitment to our child 
protection efforts and this commitment will continue.
    Thank you again for the opportunity to appear before the 
committee today. I will be happy to try and answer any 
questions, Mr. Chairman.
    [The prepared statement of Alan Gershel follows:]
Prepared Statement of Alan Gershel, Deputy Assistant Attorney General, 
                Criminal Division, Department of Justice
    Mr. Chairman and Members of the Subcommittee: I appear today to 
discuss a matter of importance to us: the proliferation of pornography 
on the Internet and the danger to children that can result from the use 
of the Internet for unlawful activity.
    1. In considering the question of how to address illegal material 
that proliferates on the Internet, the Attorney General has given the 
investigation and prosecution of cases involving the use of minors in 
producing pornography the highest priority, and I can assure you that 
the Department will continue to do so. Visual representations of 
children engaged in sexual activity are the most pernicious form of 
obscenity because it necessarily involves an unconsenting victim. As an 
example, the Department recently prosecuted a child pornography 
production ring, known as the ``Orchid Club.'' Members of the ``club'' 
requested and received real time images of children being molested in 
front of video cameras that relayed the pictures to members via the 
Internet.
    Furthermore, with the prevalence of computers and easy Internet 
access, there has been a rapid increase in crimes involving trafficking 
in child pornography and use of the Internet to meet children for 
sexual activity.
    The Department has devoted a large portion of its resources to 
prosecute aggressively this increased threat to children. Over the past 
four years, the Child Exploitation and Obscenity Section's (CEOS's) 
original mandate to prosecute obscenity, including child pornography, 
has been greatly expanded. The Section is now also tasked to prosecute 
additional crimes that have child victims. Since Fiscal Year 1996, the 
information we provided to Congress to support our budget request 
included a description of the expanded mission.
    The most recent budget submission to Congress (for FY 2001 now 
pending) described CEOS as a section that prosecutes and assists United 
States Attorneys in prosecuting persons who, under the federal criminal 
statutes: possess, manufacture, or distribute child pornography; sell, 
buy or transport women and children interstate or internationally to 
engage in sexually explicit conduct; travel interstate or 
internationally to sexually abuse children; abuse children on federal 
and Indian lands; do not pay certain court-ordered child support 
payments; transport obscene material, including child pornography, in 
interstate or foreign commerce either via the mails, common carrier, 
cable television lines, telephone lines or satellite transmission; and 
engage in international parental child abduction.
    CEOS attorneys assist United States Attorneys Offices (USAOs) in 
investigations, trials, and appeals related to these statutes. 
Additionally, CEOS attorneys provide advice on victim-witness issues, 
and develop and refine proposals for prosecution policies, legislation, 
governmental practices and agency regulations in the areas of sexual 
exploitation of minors, child support and obscenity for USAOs, United 
States Customs Service, United States Postal Service, and the FBI. CEOS 
also conducts and participates in training of federal, state, local and 
international prosecutors, investigators and judges in the areas of 
child exploitation and trafficking of women and children.
    The Child Exploitation and Obscenity Section has coordinated 
several investigation and prosecution programs to combat the use of 
computers and computer bulletin board systems that traffic in child 
pornography. These programs specifically target the illegal 
importation, distribution, sale and possession of child pornography by 
computer, as well as individuals who attempt to solicit children online 
for exploitation. These investigations often utilize undercover agents, 
posing as children, but who are trained not to engage in activities 
that might constitute entrapment.
    Our efforts have produced striking results. In the past five years, 
we have seen an increase in child pornography cases filed from 127 in 
fiscal year 1995, to 510 cases filed in fiscal year 1999. We have seen 
similar increases in cases filed under statutes prohibiting using the 
Internet to entice a child for illegal sexual activity, and traveling 
in interstate commerce for the purposes of meeting a child for illegal 
sexual activity.
    2. We have also worked closely with the Civil Division in defending 
the Child Online Protection Act (COPA), as enacted by Congress in 1998. 
As recently recognized by the district court reviewing the Child Online 
Protection Act, it is undisputed that ``sexually explicit material 
exists on the Internet,'' including the World Wide Web. This material 
includes ``text, pictures, audio and video images,'' and ``extends from 
the modestly titillating to the hardest core.'' The House Report on 
COPA estimated that there were approximately 28,000 Web sites promoting 
pornography, and that these sites generated ``close to $925 million in 
annual revenue.'' H.R. Rep. No. 105-775, at 7 (1998).
    Congress first sought to address the problem of children's access 
to sexually explicit materials on the Internet in section 502 of the 
Communications Decency Act (``CDA''), enacted in 1996. The CDA 
prohibited the knowing transmission of obscene or ``indecent'' messages 
over the Internet to persons under the age of 18, 47 U.S.C. Sec. 223(c) 
(Supp. II 1996), as well as the sending or display of patently 
offensive sexually explicit messages in a manner available to those 
under 18 years of age. 47 U.S.C. Sec. 223(d). The statute provided, 
however, that it would be an affirmative defense to prosecution for 
those persons who had ``taken, in good faith, reasonable, effective, 
and appropriate actions under the circumstances to restrict or prevent 
access by minors'' to those communications covered by the statute, or 
who had restricted access to a covered communication ``by requiring use 
of a verified credit card, debit account, adult access code, or adult 
personal identification number.'' 47 U.S.C. Sec. 223(e)(5) (Supp. II 
1996).
    On June 26, 1997, the Supreme Court held the CDA unconstitutional 
under the First Amendment. Reno v. ACLU, 521 U.S. 844 (1997). The Court 
noted that it had previously agreed that the government has a `` 
`compelling interest in protecting the physical and psychological well-
being of minors' which extend[s] to shielding them from indecent 
messages that are not obscene by adult standards.'' 521 U.S. at 869 
(citation omitted). But, emphasizing that the ``breadth of the CDA's 
coverage'' was ``not limited to commercial speech or commercial 
entities,'' and that ``[t]he general, undefined terms `indecent' and 
`patently offensive' '' would ``cover large amounts of non-pornographic 
material with serious educational or other value,'' id. at 877, the 
Court invalidated the statute because it ``place[d] an unacceptably 
heavy burden on protected speech.'' Id. at 882.
    With the invalidation of the CDA, Congress renewed its efforts to 
address the problem of children's access to sexually explicit material 
on the Internet. As the House Commerce Committee observed, while the 
Internet is ``not yet as `invasive' as broadcasting, its popularity and 
growth because of electronic commerce and expansive Federal subsidy 
programs make it widely accessible for minors.'' House Report, at 9. 
``Moreover,'' the Committee explained, ``because of sophisticated, yet 
easy to use navigating software, minors who can read and type are [as] 
capable of conducting Web searches as easily as operating a television 
remote.'' Id. at 9-10. The Committee found that purveyors of sexually 
explicit material ``generally display many unrestricted and sexually 
explicit images to advertise and entice the consumer into engaging into 
a commercial transaction,'' id. at 10, and that the availability of 
such material to minors demonstrated a continued need for legislation 
to protect children from the effects of unrestricted exposure to such 
material. The Committee emphasized the government's compelling interest 
in protecting children from exposure to sexually explicit material and 
noted that legislatures have long ``sought to shield children from 
exposure to material that could distort their views of sexuality,'' 
whether by ``requir[ing] pornography to be sold behind the counter at a 
drug store, on blinder racks at a convenience store, in a shrink wrap 
at a news stand, or broadcast between certain hours of the night.'' Id. 
at 11.
    In the end, after examining the matter in hearings by committees in 
both Houses, Congress found that the ``widespread availability of the 
Internet'' continues to ``present[] opportunities for minors to access 
materials through the World Wide Web in a manner that can frustrate 
parental supervision or control.'' Pub. L. No. 105-277, Sec. 1402(1), 
112 Stat. 2681-736 (1998). Moreover, it stated, ``while the industry 
has developed innovative ways to help parents and educators restrict 
material that is harmful to minors though parental control protections 
and self-regulation, such efforts have not provided a national solution 
to the problem of minors accessing harmful material on the World Wide 
Web.'' Id. Sec. 1402(3). As a result, Congress passed and the President 
signed into law the Child Online Protection Act (``COPA''), Pub. L. No. 
105-277, Sec. Sec. 1401-1406, 112 Stat. 2681-736 to 2681-741 (1998) (to 
be codified at 47 U.S.C. Sec. 231).
    COPA authorized the imposition of criminal and civil penalties on 
any person who ``knowingly and with knowledge of the character of the 
material, in interstate or foreign commerce by means of the World Wide 
Web, makes any communication for commercial purposes that is available 
to any minor and that includes any material that is harmful to 
minors.'' 47 U.S.C. Sec. 231(a)(1). Under COPA, ``[a] person shall be 
considered to make a communication for commercial purposes only if such 
person is engaged in the business of making such communications,'' 47 
U.S.C. Sec. 231(e)(2)(A). In addition, ``material that is harmful to 
minors'' includes only ``matter . . . that is obscene as to minors.'' 
47 U.S.C. Sec. 231(e)(6).
    Congress established an ``affirmative defense to prosecution'' if a 
defendant ``in good faith, has restricted access by minors'' to the 
material covered by the statute, by requiring, among other things, the 
``use of a credit card, debit account, adult access code, or adult 
personal identification number'' in order to access covered material. 
47 U.S.C. Sec. 231(c)(1)(A).
    In passing COPA, Congress meant to ``address the specific concerns 
raised by the Supreme Court'' in invalidating the CDA. House Report, at 
12. Thus, COPA applied, not to all Internet communications, but ``only 
to material posted on the World Wide Web.'' Ibid.; see 47 U.S.C. 
Sec. 231(a)(1). As a result, COPA ``does not apply to content 
distributed through other aspects of the Internet,'' including e-mail, 
listservs, USENET newsgroups, Internet relay chat, or real time remote 
utilization, such as telnet, or non-Web forms of remote information 
retrieval, such as file transfer protocol (ftp) or gopher, all of which 
would have been affected by the CDA. House Report, at 12.
    The character of the material covered by COPA was significantly 
different than that covered by the CDA. The CDA applied to Internet 
communications that contained ``indecent'' or ``patently offensive'' 
sexual material. 47 U.S.C. Sec. Sec. 223(a)(1)(B), 223(d) (Supp. II 
1996). By contrast, COPA applied to material that is ``harmful to 
minors,'' 47 U.S.C. Sec. 231(a)(1), that is, material that not only 
contains a patently offensive depiction or description of sexual 
activities or sexual contact, but that the average person, applying 
community standards, would find is designed to appeal to or pander to 
the ``prurient interest,'' and, as important, lacks ``serious literary, 
artistic, political, or scientific value for minors.'' 47 U.S.C. 
Sec. 231(e)(6). See House Report, at 13.
    Congress emphasized that, in using the ``harmful to minors'' 
formulation, it was employing a standard that ``has been tested and 
refined for thirty years to limit its reach to materials that are 
clearly pornographic and inappropriate for minor children of the age 
groups to which it is directed.'' House Report, at 28.
    In addition, COPA applied only to those Web communications that are 
made ``for commercial purposes,'' 47 U.S.C. Sec. 231(a)(1), i.e., only 
if the person is ``engaged in the business'' of making such 
communications. 47 U.S.C. Sec. 231(e)(2).
    Congress adopted COPA only after considering and rejecting 
alternative means of protecting children from harmful material on the 
Web, emphasizing that such alternatives ``generally involve[d] zoning 
and blocking techniques that rely on screening material after it has 
been posted on the Internet or received by the end-user.'' House 
Report, at 16. In Congress's opinion, it was ``more effective to screen 
the material prior to it being sent or posted to minors.'' Ibid.
    The President signed COPA into law on October 21, 1998. The 
following day, the American Civil Liberties Union, joined by a number 
of individuals and organizations that publish content on the World Wide 
Web, filed a suit in federal district court in Philadelphia, contending 
that the statute violated their First and Fifth Amendment rights.
    The Department vigorously defended the constitutionality of the 
statute. Nonetheless, on November 20, 1998 nine days before the statute 
would have gone into effect, the district court entered a temporary 
restraining order (``TRO'') enjoining COPA's enforcement. After a five 
day evidentiary hearing in January, 1999, the court entered a 
preliminary injunction on February 1, 1999. Neither ruling affected 
materials that are ``obscene'' or that are child pornography.
    The Department appealed the decision to the Third Circuit, making 
much the same arguments as in the district court. The case was argued 
in November 1999. We are waiting for the Third Circuit to rule on the 
cases.
    In the meantime, we are prohibited from prosecuting ``harmful to 
minors'' material, although we are free to prosecute material on the 
Internet that is obscene and that is child pornography.
    3. As I have stated, the Department is vigorously enforcing our 
child pornography laws as they apply to the Internet. We are also 
enforcing our obscenity laws, as they apply to the Internet. We do 
investigate and prosecute transmission of obscenity over the Internet, 
where appropriate. Last fall, the Assistant Attorney General for the 
Criminal Division met with members of public interest groups who were 
concerned about the prevalence of Internet obscenity, particularly on 
World Wide Web sites. At the meeting, the groups submitted a list of 
hundreds of Web sites that, in their view, were possibly illegal. The 
Department agreed to review these sites for possible referral to an 
investigative agency.
    After a thorough consideration of each referral, the Department 
concluded that the vast majority could not be referred. In our view, 
many sites failed to meet the three prong test for obscenity as 
delineated in the Miller v. California case. Nonetheless, several sites 
were deemed appropriate for further investigation and were referred to 
an investigative agency.
    In conclusion, we all agree that we must continue to work to 
protect our children and the public at large from those who use the 
Internet to exploit children and to distribute illegal obscenity. We 
look forward to working with you in achieving that goal.

    Mr. Largent. Thank you, Mr. Gershel, and I would tell you 
that if in fact this committee holds a hearing on child 
pornography, that will be important testimony that you have 
just submitted and we will reflect on that. However this 
hearing is about obscenity and the lack of prosecutions 
thereof.
    How long have you been at the Department of Justice Mr. 
Gershel?
    Mr. Gershel. Mr. Chairman, my background is I began with 
the U.S. Attorney's Office in Detroit in 1980. I served there 
for almost 20 years. I am currently there as both the criminal 
chief and the first Assistant U.S. Attorney and I am down here 
in Washington on a detail beginning in January for 1 year as a 
Deputy Assistant Attorney General.
    Mr. Largent. And how many obscenity cases has the 
Department prosecuted since 1996? Not child pornography; 
obscenity.
    Mr. Gershel. I believe we have furnished statistics which 
would indicate approximately 14, 15, perhaps as many as 20 
obscenity cases.
    Mr. Largent. Those are obscenity cases exclusive of child 
pornography?
    Mr. Gershel. Exclusive of child pornography.
    Mr. Largent. In other words, child pornography had nothing 
to do with the cases that were brought? It was strictly 
obscenity cases in the last 4 years, 14?
    Mr. Gershel. Excuse me 1 second.
    Mr. Largent. The reason I ask the question, of course, Mr. 
Flores testified that sometimes they are tacked together.
    Mr. Gershel. Mr. Chairman, if I might, Mr. Lord might be 
able to specifically answer that question dealing with 
statistics.
    Mr. Lord. Mr. Chairman, in all of those cases, obscenity 
counts were charged and there were convictions. There may have 
been other charges brought in those indictments, but obscenity 
counts were charged and those are the statistics. There is no 
question about obscenity cases being brought.
    Mr. Largent. Okay. So we have testimony that between 1989 
and 1995 the Justice Department's Child Exploitation and 
Obscenity Section, which you are a part of today, actually not 
brought but had 126 individual and corporate convictions with 
obscenity violations, not child pornography; 126 individual and 
corporate convictions for obscenity violations which resulted 
in the imposition or award of more than $24 million in fines 
and forfeitures.
    My question is: Since 1996, how many convictions have there 
been of individuals or corporate entities for obscenity 
violations--obscenity violations--and how many dollars in fines 
and forfeitures have occurred?
    Mr. Gershel. Mr. Chairman, we don't have those figures 
available. We can furnish them to the committee at a later time 
and would be happy to do so.
    Mr. Largent. I would take an estimate.
    Mr. Gershel. We just don't have the information. Of 
forfeiture, we don't have the information.
    Mr. Largent. But you are responsible for the Child 
Exploitation and Obscenity Section?
    Mr. Gershel. I oversee that section.
    Mr. Largent. Is it Terry?
    Mr. Gershel. Yes, sir.
    Mr. Largent. You are the head of the Child Exploitation and 
Obscenities Section?
    Mr. Lord. Yes, I am.
    Mr. Largent. And you don't have any idea?
    Mr. Lord. I can get you the exact amount of forfeiture 
involved in those cases, Mr. Chairman. I wasn't asked to 
provide those today.
    Mr. Largent. That was the purpose of the hearing. I think 
you got notice of that.
    Let me go on. What is the problem? Is this a personnel and 
money issue? Do you not have the personnel, don't have the 
money available to prosecute obscenity?
    Mr. Gershel. Mr. Chairman, no, I think the answer is that 
the current priorities are in fact child pornography, which is 
the worst, most vile form of obscenity.
    Mr. Largent. We all agree with that.
    Mr. Gershel. That is where the resources of the Justice 
Department, both here in Washington and in the 94 U.S. 
Attorneys Offices, are being primarily devoted, to the 
prosecution, investigation and conviction of those who 
victimize our children.
    Mr. Largent. Exactly. So what happened to the $1 million 
that the Congress appropriated to the Department of Justice to 
prosecute not child pornography but obscenity, what has 
happened to that money? How have you spent that money?
    Mr. Gershel. Mr. Chairman, I don't want to quibble with you 
but that money was earmarked, as I understand, for the 
prosecution of obscenity cases. We continue to take the view 
that child pornography is in fact obscenity, and that money was 
utilized to hire more prosecutors to engage in those efforts.
    We have instituted a number of sophisticated training 
programs for prosecuting agencies around the country. We have 
used that money to help buy equipment, laptop computers for 
people engaged in that effort. That money was spent, well 
spent, and devoted to the prosecution of the worst kind of 
obscenity.
    Mr. Largent. Well, frankly, I am astounded that the 
gentleman that is responsible for this investigation is 
confusing or merging two terms, legal terms of art, that 
everybody understands are mutually exclusive. Obscenity is not 
the same as child pornography. And so when Congress says we 
appropriate $1 million to prosecute obscenity, we are not 
talking about child pornography. We gave you money for that, 
too. We are talking about obscenity. What happened to the $1 
million to prosecute obscenity, not child pornography?
    Mr. Gershel. I believe I have answered your question, sir.
    Mr.  Largent. I don't think you have answered my question. 
Maybe you can submit that in writing at another time as well.
    Mr. Pickering. Mr. Chairman, I am afraid he did answer your 
question, if you would yield just a second. They didn't do it, 
they don't know anything about it.
    Mr. Largent. I think I have just a little bit of time left 
before I yield. Mr. Gershel, do you have any idea who the 
largest producers and distributors of hard-core, sexually 
explicit material are?
    Mr. Gershel. As we sit here now, I could not give you that 
information, no.
    Mr. Largent. Does the Department know?
    Mr. Gershel. I believe that they have intelligent 
information on some of those issues, yes.
    Mr. Largent. But you are not sure?
    Mr. Gershel. I believe they do.
    Mr. Largent. Can you produce those?
    Mr. Gershel. That would depend, sir. If those matters are 
under investigation I would be reluctant to produce that 
information at this point in time.
    Mr. Largent. I would like to yield to the gentleman from 
Ohio, Mr. Sawyer.
    Mr. Sawyer. Thank you, Mr. Chairman. I guess I have some 
substantial sympathy with the notion that there is no worse 
form of obscenity than the exploitation of children for sexual 
purposes and that I would take the view, Mr. Chairman, that the 
question was asked several times and that in fact that $1 
million was devoted to the pursuit of the worst form of 
obscenity that the Justice Department deals with. It seems to 
me we sat here for----
    Mr. Pickering. Would the gentleman yield just for a second?
    Mr. Sawyer. I am not going to yield. The Chairman went on 
at some length, and we sat here this morning and we listened 
for extended periods of time to testimony about just how 
dangerous pedophilia is, how threatening it is in the lives of 
ordinary people who wind up being victimized by this sort of 
thing. And to argue that that somehow this is not obscenity I 
think is to beg the question.
    Having said that, this morning there was a good deal of 
testimony about the failure of the Justice Department to 
undertake the kind of work that at least the panelists who were 
with us this morning felt ought to have been undertaken. Would 
you care to comment on that testimony that preceded you this 
morning?
    Mr. Gershel. Congressman, a couple of comments. First of 
all, the----
    Mr. Sawyer. Could you bring the microphone closer? Those 
are very directional mikes. You have really got to get it----
    Mr. Gershel. First of all, I listened to most of the 
testimony, both the statements and the questions, and it was 
clear to me and I am sure to my colleagues that these are very 
strongly held beliefs. I certainly cannot begin to understand 
the trauma that the gentleman went through who was addicted to 
pornography, and I am not going to try in any way to argue with 
that. But what I would like to say, though, is that we have 
established prosecutor guidelines for prosecution of obscenity 
cases, that is, cases not dealing with child pornography, and 
we believe those guidelines are appropriate under the 
circumstances. They deal with the investigation of what we 
believe to be major national and international pornographers. 
It has been our belief and experience that oftentimes these 
groups, as has been mentioned, are funded by organized crime 
activities. We believe that these investigations are time 
consuming, they are complex. They often involve charges in 
addition to obscenity. They may involve RICO charges, money 
laundering offenses and things of that nature.
    I should also indicate, if I can have one more moment to 
respond to your question----
    Mr. Sawyer. Sure.
    Mr. Gershel. [continuing] that one of the comments made by 
Mr. Flores I do happen to agree with. There were more than one, 
but this one in particular. When discussing child pornography, 
I believe he used the expression ``tons of cases'' and 
``shooting fish in a barrel,'' and unfortunately that probably 
is true.
    Shortly after I came to Washington I asked for a tour of 
the Innocent Images project, and while touring the project we 
actually had an online demonstration, and an FBI agent went on 
line into chat rooms that had been determined to consist of 
people engaging in this kind of activity; that is, child 
pornography. He posed as a 14-year-old girl. And sir, within 5 
minutes, with no effort on his part, he was able to engage in a 
conversation with this person. Now, mind you, this is the 
middle of the work day, and with a little more effort, I am 
sure he could have arranged a meeting with this individual, and 
that was pure happenstance, pure chance, just part of the tour 
of the Innocent Images. They had their hands full, 
unfortunately, with just keeping up with the work that is out 
there, and that is again where the resources of the Department 
are going to be devoted, to the prosecution of child 
pornography.
    Mr. Sawyer. Thank you, Mr. Chairman. I yield back. I yield 
to my friend from Mississippi.
    Mr. Pickering. Yes, and let me just, you know, again for 
the record, not of policy, not of emotion, but as I understand 
it, the law, that there is a difference in the law between 
child pornography and obscenity. And I can read the obscenity 
statute or the definition of obscenity and I can read the 
definition of child pornography. You know, the Justice 
Department, I think, is fully aware of this. I don't want to--
--
    Mr. Sawyer. I appreciate the gentleman's comment and I do 
understand that. Reclaiming my time, would the witness care to 
respond to the assertion?
    Mr. Gershel. Excuse me one moment. Congressman, we do agree 
they are not the same, but it is our view that they do 
substantially overlap. So if I said it was exactly the same, 
that was a misstatement. I stand corrected. We do believe there 
is a substantial overlap.
    Mr. Sawyer. Mr. Chairman, I would like to withdraw from 
this conversation, and perhaps the gentleman from Mississippi 
could----
    Mr. Largent. The gentleman's time has expired. The Chair 
recognizes the gentleman from Mississippi for 5 minutes.
    Mr. Pickering. And I think you just made my point for me. 
There is significant overlap. There is significant interaction. 
There is significant contribution, one to the other. A culture 
of obscenity leads to a greater culture and exploitation of 
children, and the Justice Department, although I would agree 
with them in making a targeted effort on child pornography, and 
most everyone in the country and on this committee would agree 
that child pornography is the worst manifestation, but where 
this committee is trying to go and trying to reach common 
ground with the Justice Department is that you cannot just 
address one.
    You have probably seen at the Justice Department, I would 
think you would agree, a rise in the exploitation of children 
and child pornography over the last 3 to 4 years. Would that be 
an accurate statement?
    Mr. Gershel. Dramatic increase.
    Mr. Pickering. A dramatic increase. One of the reasons I 
believe you have the dramatic increase is because of the lax 
enforcement or the lax effort to address obscenity. They 
overlap, they are integrated, they contribute to each other. 
And until you address both, you are going to continue to see a 
dramatic increase.
    So maybe let us see if we can find common ground. If we, 
for example, we gave $1 million just for the enforcement and 
prosecution of child obscenity, let us say that we gave you $10 
million for the enforcement, $50 million--you pick the number, 
whatever it would take for you to do it--if we did that, would 
the Justice Department policy change from being a child 
pornography-only to a child pornography and obscenity 
enforcement and prosecution policy?
    Mr. Gershel. Congressman, with all due respect, I take some 
exception to the question because I don't believe that CEOS is 
exclusively child pornography; primarily, but not exclusively. 
Also, I am not in a position to comment about the change in 
Department policy.
    Mr. Pickering. Could I interrupt just a second? And, again, 
I want to listen to you. One, you have been asked questions of 
what is the status of your obscenity prosecutions since 1996 or 
who are the major producers. You couldn't even tell the 
committee those two questions, which is an indication that that 
has not been your priority nor your practice. I yield back.
    Mr. Gershel. I would stipulate it has not been a priority. 
I should indicate though that we have not ignored the problem.
    There was a reference during the previous panel's testimony 
to a meeting that was had with the Assistant Attorney General 
and some other individuals. Although I was not present for that 
meeting, I understand that during the course of that meeting a 
number of Web sites, for example, were furnished to the 
Criminal Division for review.
    I should indicate that the CEOS section has undertaken a 
comprehensive review of those Web sites, taking several months, 
and in fact a number of those have been referred to the FBI for 
further investigation and they are currently under 
investigation.
    Mr. Pickering. Although in your testimony you say, After a 
thorough consideration of each referral, the Department 
concluded the vast majority could not be referred. Nonetheless, 
several sites were deemed appropriate for further investigation 
and were referred to an investigative agency.'' So out of 
hundreds of examples, you referred how many for further 
investigation?
    Mr. Gershel. Mr. Chairman, may I allow Mr. Lord to respond 
to this question?
    Mr. Lord. Congressman, I am not going to comment on the 
specific number that we referred. I do want to say that we gave 
proper legal analysis to all of those referrals. That is not 
normally done. Most of the time in these types of cases, the 
investigators conduct that type of investigation, but we deemed 
it important enough for section attorneys to make that review 
and to give their comments to the FBI. Those comments were 
given to the FBI in terms of what type of analysis we gave to 
it. We didn't make any predisposition of how they should review 
the case. So it's improper to say that we only referred a small 
number. We actually turned over the same material that was 
given to us to the FBI, but with our analysis.
    I also want to comment----
    Mr. Pickering. Just interrupting real quickly, I just read 
from your own testimony. You describe it in your own testimony.
    Mr. Lord. I am just clarifying that, Congressman. Another 
point I want to make about this and your trying to separate 
obscenity from child pornography, the techniques for 
investigation of child pornography and obscenity, of course, 
are very similar. It involves online undercover activities; our 
work with the State and local Internet crimes against children, 
training them to investigate online dissemination of the 
materials; our work with the European Union, the Council of 
Europe. I also serve on Interpol Standing Committee on Offenses 
Against Children. All involve these types of techniques, 
working with Internet service providers, attempting to have 
data retention, zero tolerance for this activity. All relate to 
obscenity just as well as child pornography.
    So the funds that we were given to investigate online 
obscenity were used to develop those types of techniques with 
the European Union, with State and local investigators, which 
will improve our efforts in investigating both obscenity and 
child pornography.
    Mr. Largent. The gentleman's time has expired. I recognize 
the gentleman from Texas.
    Mr. Green. Thank you, Mr. Chairman. I appreciate the 
Justice Department being here today, and I apologize in some 
cases for the adversarial relationship I guess we have, but 
obviously you know how important it is for all of us. In fact, 
I have had the opportunity to meet with the FBI in my own 
district and talk to the FBI investigator about child 
pornography on the Internet, what they can do to help us. In 
fact, they have actually presented programs in our public 
schools, and we are trying to do one for parents later on, what 
parents can do to keep their children from being subjected to 
pornography over the Internet.
    And so I think it is a multifaceted effort, not just for 
the prosecution, but also with the FBI doing what they can, and 
also with Internet service providers, I know; not to say one, 
but AOL also helped us.
    One of my questions, Mr. Gershel, is the Department of 
Justice, FBI, in your latest efforts on catching pedophiles and 
using the Internet to track children and child pornography, how 
is the Federal Government expanding the enforcement in this 
area and what, if anything, are you doing with local 
communities like, for example, the State agency, the Department 
of Public Safety in Texas as well as our local police agencies?
    Mr. Gershel. Congressman, we have, I believe, entered into 
a very strong and solid partnership with our State and local 
investigative and prosecutive agencies, and many of these task 
forces that I referred to in my comments. They are devoted to 
looking for instances of child pornography, but obscenity as 
well. So we believe we have established a good relationship, 
and cases are being developed both at the Federal and the local 
level in these areas.
    Mr. Green. The second question, let me ask--I know some of 
the frustration often deals with our different roles we have; 
and, as a Member of Congress, what I consider may be obscene is 
not necessarily what the folks across the street at the Supreme 
Court may agree. I know we heard in an earlier panel Dr. Laaser 
talked about what he considered--I may share that, but, again, 
the Justices of the Supreme Court may not--one of the 
frustrations we have is that in 1998 this committee--or 1997 to 
1998 passed the COPA Act, the Child On-line Protection Act, and 
I know also in your testimony you discussed a Community Decency 
Act that was struck down by the Supreme Court. And now the COPA 
Act is being challenged, and the Justice Department is 
appealing that, and I asked an earlier panel if there was any 
update on that. Is that still before the appeals court?
    Mr. Gershel. Still before the Third Circuit.
    Mr. Green. Did the Department of Justice provide Congress 
with any suggestions on how to improve the COPA legislation so 
that we might pass legislation that would be perfected from 
constitutional challenge?
    Mr. Gershel. I am sorry, Congressman.
    Mr. Green. Do you recall, did the Justice Department 
provide Congress with any suggestions when we were considering 
the child on-line pornography act on how we can try and pass 
legislation that would withstand a constitutional challenge.
    Mr. Gershel. I believe the Justice Department worked 
closely with the committee to try and draft the statute that 
would withstand challenges, and I think we were at the table 
with this committee during that process.
    Mr. Green. Mr. Chairman, I would like to ask unanimous 
consent to place in the record a letter sent on October 5, 
1998, to our Chair, that is, from the Department of Justice, 
discussing H.R. 3783, which is the Child On-line Protection Act 
which I think might be--if the Justice Department's suggestions 
have been taken, we might have at least dealt with some of the 
issues that are now before the appeals court.
    Mr. Largent. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]64763.001
    
    [GRAPHIC] [TIFF OMITTED]64763.002
    
    [GRAPHIC] [TIFF OMITTED]64763.003
    
    [GRAPHIC] [TIFF OMITTED]64763.004
    
    [GRAPHIC] [TIFF OMITTED]64763.005
    
    [GRAPHIC] [TIFF OMITTED]64763.006
    
    Mr. Green. Do you recall Congress adopting any of these 
suggestions that were made in this letter that is now in the 
record or do you have a copy of this letter?
    Mr. Gershel. I do not, sir.
    Mr. Green. After reviewing it and looking at what I know 
about the case, obviously, we made a decision--and, again, we 
vote for lots of different reasons, but, again, our legislation 
we pass, we have another branch of government that makes that 
decision for us. And I may consider something unconstitutional 
or constitutional, obviously protection against pornography, 
but they may not be shared by the folks that actually serve on 
the Supreme Court.
    Did DOJ vigorously defend this law before the court that we 
passed, the Child On-line Protection Act?
    Mr. Gershel. I believe the Department was very vigorous in 
its defense of this act both at the district court level and in 
the Third Circuit in oral argument. I think a review of the 
government's brief in this matter would demonstrate the strong 
support we have given to this legislation.
    Mr. Green. It is my understanding our committee didn't 
accept the DOJ recommendations. In fact, if you could provide 
us in later information to us what you know on that--again, 
that was our decision not to accept those, but, again, you 
know, we were well aware, at least from this letter, that there 
were things in that act. I voted for it. I may very well have 
been a cosponsor of it because of my concern.
    Mr. Chairman, I would also like to put in the record 
something we pulled off the Internet at the FBI library, is 
available. Again, I talked with my own local agents in Houston, 
and it is a Parents Guide to Internet Safety.
    As I said earlier, I would like to ask unanimous consent to 
place this in the record because not only the Justice 
Department but also the Law Enforcement Agency of the FBI is 
trying to do with Internet safety. And, again, as a parent, it 
is important to us and someday be a grandparent.
    If I could ask unanimous consent to put the Parents Guide 
to Internet Safety into the record.
    Mr. Largent. Without objection.
    Mr. Green. Thank you, Mr. Chairman.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]64763.007
    
    [GRAPHIC] [TIFF OMITTED]64763.008
    
    [GRAPHIC] [TIFF OMITTED]64763.009
    
    [GRAPHIC] [TIFF OMITTED]64763.010
    
    [GRAPHIC] [TIFF OMITTED]64763.011
    
    Mr. Green. With that, I would like to ask unanimous consent 
to place my own statement in the record, and then I will yield 
back the balance of my time.
    Mr. Largent. Without objection. The gentleman yields back.
    [The prepared statement of Hon. Gene Green follows:]
  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                  from the State of TexasMr. Chairman:
    I do not believe that any member of this subcommittee supports the 
thriving Internet marketplace of obscene images.
    I am sure all the witnesses here today are going to provide us with 
ample evidence of the destructive nature this material can have on 
individuals and their families.
    However, Congress has had a checkered past when we have attempted 
to limit the spread of this material.
    The Supreme Court continues to find fault with our efforts to 
regulate what they consider ``free speech.''
    Their continued decisions to allow very offensive material to 
circulate over the Internet has crippled efforts designed to protect 
our children.
    I now believe that Congress should intensify educational programs 
for parents to teach them about the technology and material available 
to protect children.
    I do want to commend the Department of Justice (DoJ) and the 
Federal Bureau of Investigation (FBI) for their efforts to catch 
pedophiles on the Internet.
    There is no greater danger to our children then a faceless friend 
who exists outside the knowledge of a parent. Pedophiles have 
discovered the Internet as the perfect place to pursue their criminal 
pleasure.
    Their trade in child pornography and other obscene material is a 
threat to communities across this country. The federal government 
cannot be in every home, school, and library where people may try to 
access this illegal material.
    I believe we must empower parents to monitor their children's on-
line activities.
    I have conducted community meeting with the ISP's, phone companies, 
and the FBI to teach children and parents about what they can do to 
protect their children.
    These highlight the currently available blocking technology and 
information resources that parents can access free of charge to help 
protect their children on-line.
    Mr. Chairman, it is unfortunate that as we seek to bridge the 
``digital divide'' we are actually making it easier for obscene 
material to flow into our communities like never before.
    I appreciate the Chairman holding this hearing and I look forward 
to the panel discussions.

    Mr. Largent. I want to thank Mr. Gershel for your 
attendance, for your patience, and it is my understanding that 
there is just a couple of follow-up questions, and we are done. 
And I would just like to reiterate, and correct me if I am 
wrong, the Justice Department doesn't need the Child On-line 
Protection Act to prosecute obscenity; is that correct? You 
were prosecuting obscenity prior to----
    Mr. Gershel. That is correct.
    Mr. Largent. Whatever the Third Circuit does is irrelevant 
in terms of prosecuting obscenity, be it on the Internet or 
anywhere else; is that correct?
    Mr. Gershel. That is correct.
    Mr. Largent. Neither does it need the CDA. You were 
prosecuting--we have testimony here in the ACLU versus Reno 
that says the Justice Department itself communicated its view 
that it was not necessary, CDA, that is. It was prosecuting on-
line obscenity child pornography and child solicitation under 
existing laws and would continue to do so.
    Mr. Gershel. That is correct.
    Mr. Largent. So the whole debate over the Child On-line 
Protection Act, CDA is irrelevant in terms of the job the 
Justice Department or is not doing on obscenity; is that 
correct?
    Let me ask this one other question, Mr. Gershel. How do you 
feel when the obscenity industry says and refers to the 
oversight that you are giving, the prosecution that you are 
giving and the industry refers to you as having a benign 
neglect of the industry?
    Mr. Gershel. Obviously, I would take exception with that. I 
don't agree with that. We are--we continue to go after and 
investigate major distributors. I think over time we will have 
success there. These cases take time. While I may not have the 
numbers right now to satisfy this committee, I do know from 
working with the section that there are cases under 
investigation that we believe satisfy the guidelines and 
parameters we have established for the investigation and 
prosecution of obscene pornographers.
    Mr. Largent. I would like to ask also for--if you have 
those guidelines written down--you mentioned earlier about the 
Department had guidelines. I would like to see those 
guidelines.
    And, finally, you mentioned an effort with the local law 
enforcement agencies, and yet we had testimony on the previous 
panel that indicated that prior to 1994, 1993, that there was a 
vigorous effort by the Los Angeles Police Department conducting 
raids in the San Fernando Valley and that that had virtually 
come to a stop in the last 5 to 6 years. Do you have a comment 
on that?
    Mr. Gershel. To back up to your first question on the 
guidelines, they are published in the United States Attorneys 
Manual, Mr. Chairman. I would be happy to get you a copy of 
those guidelines.
    Second, while I can't speak to the L.A. Experience, I have 
no firsthand knowledge of that, I do know from firsthand 
experience both in the district where I come from and in my 
experience here thus far that there is a partnership with State 
and local. They are involved in these cases. We are working 
with them.
    It is not unusual at all for many State cases to go through 
the Federal system. It is not unusual, for example, for State 
prosecutors to become Special Assistant U.S. Attorneys, to 
prosecute those cases in Federal court. It is not unusual for 
Federal prosecutors to be cross-designated as local district 
attorneys for prosecution of State cases. So there is this 
cross-pollination going on back and forth every day as it 
concerns these matters.
    So, again, I can't speak to the L.A. Experience, but it is 
certainly a very positive working relationship I believe we 
have today with State and local entities.
    Mr. Largent. Concerning the fact that about, some people 
estimate, 2,000 new sex videos are produced in the San Fernando 
Valley every month, that might be something you want to look 
into.
    I will yield for a brief question from the gentleman from 
Mississippi.
    Mr. Green. Mr. Chairman, I thought it was customary----
    Mr. Largent. I didn't know you had another question.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Gershel, one of my frustrations I guess--and if you 
share it with me--is that as Justice Stewart said one time he 
knows what obscenity is when he sees it. It is just hard to 
define it. Does the fuzziness of the definition of obscenity 
make it more difficult for prosecutions to stick? And also I 
can understand why it is easier oftentimes to prosecute child 
pornography because that is not subject to some of those 
fuzziness definitions. Can you share your feelings on that with 
us?
    Mr. Gershel. Every Federal prosecutor, Congressman, is 
taught from day one that he or she is not to engage in a 
prosecution unless he or she believes a substantial likelihood 
of success on the merits. That is an appropriate burden for 
prosecutors to have. When it comes to the examination and 
review of cases dealing with obscenity, prosecutors are 
required to review that material and make a determination on 
their own whether or not they believe that material would, in 
fact, violate whatever community standards this case would be 
interfacing with.
    That is a difficult burden. People might differ on that. We 
might all find certain material very distasteful. We all know, 
though, that all pornography is not obscenity. Pornography per 
se is not illegal unless it is obscene. Prosecutors have to 
engage in that kind of analysis every time they look at a case 
dealing with obscenity.
    So, yes, it is a challenge. It is difficult. We might 
disagree on that, but that prosecutor has to be satisfied in 
his or her mind that that case will pass muster with the jury 
beyond a reasonable doubt. It is a hard burden.
    Mr. Green. Is that generally the process the DOJ has--I 
assume that is in their manual--on whether prosecution should 
be pursued? Is that generally what you do?
    Mr. Gershel. That is the policy of the Justice Department 
in every case that we undertake.
    Mr. Green. Thank you, Mr. Chairman. I yield back.
    Mr. Largent. I thank the gentleman.
    I yield to the gentleman from Mississippi for a final 
question, and we will finish the hearing.
    Mr. Pickering. For the panel and for my friend from Texas, 
just let the record show, between 1989 and 1995 the Justice 
Department's Child Exploitation and Obscenity section had 126 
convictions, prosecutions and convictions of obscenity, not 
child pornography but just slowly targeting obscenity and $24 
million in fines and forfeitures. The problem that I think we 
are dealing with is, it seems to be around 1995 and after, the 
Justice Department changed their policy and their priorities 
with--in relation to obscenity.
    So just to follow up on that, Mr. Gershel, in your 
testimony you say we do investigate and prosecute transmission 
of obscenity over the Internet, but then you have a very 
important qualifier, ``where appropriate''. Since 1996, can you 
name one case or how many cases you found it appropriate during 
this period of tremendous explosion of obscenity and 
pornography and child pornography--since 1996, how many cases 
have you found it appropriate--given the fact that you had over 
126 convictions before 1995, how many have you had since 1996?
    Mr. Gershel. I believe in the written statement, 
Congressman, I cited some specific cases. But I should also 
indicate, again without meaning any disrespect for that same 
time period, the number of convictions for child pornography, 
people engaging in that activity, trafficking with children has 
exploded. In 1999 alone, 525 convictions--an increase of a 
hundred convictions from the previous year.
    Mr. Pickering. Mr. Gershel, let me again try to find common 
ground. It seems like you are losing--you are fighting a losing 
battle on child pornography. You are doing--you are fighting 
hard. You are doing all you can on child pornography, but it 
seems like your strategy is not working. The situation is 
getting worse, not better. Would you reconsider having a dual 
front, dual effort where you emphasize equally both obscenity 
and child pornography? Would you consider a change in strategy, 
a change in policy, and then can Congress help you implement a 
new policy where you equally emphasize obscenity as well as 
child pornography?
    Mr. Gershel. Congressman, I have some difficulty with the 
premise of the question because there is suggestion that, given 
the explosion of child pornography, how successful have we 
really been. I would like to answer that, first, two ways.
    First of all, every conviction we get is one less person 
engaged in that behavior; and, second, it is difficult to 
quantify the deterrent impact those convictions have. We don't 
know, for example, how many people who would have otherwise 
engaged in that conduct have not.
    In terms of the second part of your question, I believe we 
have a strategy for the prosecution of obscenity cases. It is 
obviously a strategy the Congressman is not content with and 
not happy with but----
    Mr. Pickering. Can you name me one prosecution since 1996 
of obscenity?
    Mr. Gershel. I believe I have cited some cases----
    Mr. Pickering. You have not cited one case. Name me one 
case right now.
    Mr. Gershel. I can follow up that later to the Congressman 
with cases that we prosecuted.
    Mr. Pickering. Would it be less than five?
    Mr. Gershel. I am not going to commit. I don't know.
    Mr. Pickering. Versus 126? If industry calls your approach 
benign neglect----
    Mr. Gershel. Congressman, our priorities are where they 
ought to be today I believe.
    Mr. Pickering. What if I could help you have dual emphasis, 
try a new approach, would you consider that?
    Mr. Gershel. If you have suggestions and you would like to 
make suggestions to the Justice Department, we are more than 
willing to entertain those suggestions and look at them, that I 
assure you.
    Mr. Pickering. You would be willing--the Justice Department 
would be willing to consider, if Congress made it a higher 
priority and gave you the resources to do so, that you would 
target both obscenity and child pornography?
    Mr. Gershel. No. I agree we would engage in a dialog with 
the Congressmen to see what the strategy is.
    Mr. Pickering. The signals you are sending right now are 
very disturbing. And, with that, let me yield back my time.
    Mr. Largent. I thank the gentleman.
    Again, thank you for your patience. Thank you for your 
attendance. The hearing is concluded.
    [Whereupon, at 1:20 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED]64763.012
    
    [GRAPHIC] [TIFF OMITTED]64763.013
    
    [GRAPHIC] [TIFF OMITTED]64763.014
    
    [GRAPHIC] [TIFF OMITTED]64763.015
    
    [GRAPHIC] [TIFF OMITTED]64763.016
    
    [GRAPHIC] [TIFF OMITTED]64763.017
    
    [GRAPHIC] [TIFF OMITTED]64763.018
    
    [GRAPHIC] [TIFF OMITTED]64763.019
    
    [GRAPHIC] [TIFF OMITTED]64763.020
    
    [GRAPHIC] [TIFF OMITTED]64763.021
    
    [GRAPHIC] [TIFF OMITTED]64763.022
    
    [GRAPHIC] [TIFF OMITTED]64763.023
    
    [GRAPHIC] [TIFF OMITTED]64763.024
    
    [GRAPHIC] [TIFF OMITTED]64763.025
    
    [GRAPHIC] [TIFF OMITTED]64763.026
    
    [GRAPHIC] [TIFF OMITTED]64763.027
    
    [GRAPHIC] [TIFF OMITTED]64763.028
    
    [GRAPHIC] [TIFF OMITTED]64763.029
    
    [GRAPHIC] [TIFF OMITTED]64763.030
    
    [GRAPHIC] [TIFF OMITTED]64763.031
    
    [GRAPHIC] [TIFF OMITTED]64763.032
    
    [GRAPHIC] [TIFF OMITTED]64763.033
    
    [GRAPHIC] [TIFF OMITTED]64763.034
    
    [GRAPHIC] [TIFF OMITTED]64763.035
    
    [GRAPHIC] [TIFF OMITTED]64763.036
    
    [GRAPHIC] [TIFF OMITTED]64763.037
    
    [GRAPHIC] [TIFF OMITTED]64763.038
    
    [GRAPHIC] [TIFF OMITTED]64763.039
    
    [GRAPHIC] [TIFF OMITTED]64763.040
    
    [GRAPHIC] [TIFF OMITTED]64763.041
    
    [GRAPHIC] [TIFF OMITTED]64763.042
    
    [GRAPHIC] [TIFF OMITTED]64763.043
    
    [GRAPHIC] [TIFF OMITTED]64763.044
    
    [GRAPHIC] [TIFF OMITTED]64763.045
    
    [GRAPHIC] [TIFF OMITTED]64763.046
    
    [GRAPHIC] [TIFF OMITTED]64763.047
    
    [GRAPHIC] [TIFF OMITTED]64763.048
    
    [GRAPHIC] [TIFF OMITTED]64763.049
    
    [GRAPHIC] [TIFF OMITTED]64763.050
    
    [GRAPHIC] [TIFF OMITTED]64763.051
    
    [GRAPHIC] [TIFF OMITTED]64763.052
    
    [GRAPHIC] [TIFF OMITTED]64763.053
    
    [GRAPHIC] [TIFF OMITTED]64763.054
    
    [GRAPHIC] [TIFF OMITTED]64763.055
    
    [GRAPHIC] [TIFF OMITTED]64763.056
    
    [GRAPHIC] [TIFF OMITTED]64763.057
    
    [GRAPHIC] [TIFF OMITTED]64763.058
    
    [GRAPHIC] [TIFF OMITTED]64763.059
    
    [GRAPHIC] [TIFF OMITTED]64763.060
    
    [GRAPHIC] [TIFF OMITTED]64763.061
    
    [GRAPHIC] [TIFF OMITTED]64763.062
    
    [GRAPHIC] [TIFF OMITTED]64763.063
    
    [GRAPHIC] [TIFF OMITTED]64763.064
    
    [GRAPHIC] [TIFF OMITTED]64763.065
    
    [GRAPHIC] [TIFF OMITTED]64763.066
    
    [GRAPHIC] [TIFF OMITTED]64763.067
    
    [GRAPHIC] [TIFF OMITTED]64763.068
    
    [GRAPHIC] [TIFF OMITTED]64763.069
    
    [GRAPHIC] [TIFF OMITTED]64763.070
    
    [GRAPHIC] [TIFF OMITTED]64763.071
    
    [GRAPHIC] [TIFF OMITTED]64763.072
    
    [GRAPHIC] [TIFF OMITTED]64763.073
    
    [GRAPHIC] [TIFF OMITTED]64763.074
    
    [GRAPHIC] [TIFF OMITTED]64763.075
    
    [GRAPHIC] [TIFF OMITTED]64763.076
    
    [GRAPHIC] [TIFF OMITTED]64763.077
    

</pre></body></html>
